<html>
<title> - ESTUARY AND COASTAL HABITAT CONSERVATION</title>
<body><pre>[Senate Hearing 106-284]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-284


 
                ESTUARY AND COASTAL HABITAT CONSERVATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

  S. 492, A BILL TO AMEND THE FEDERAL WATER POLLUTION CONTROL ACT TO 
            ASSIST IN THE RESTORATION OF THE CHESAPEAKE BAY

  S. 522, A BILL TO AMEND THE FEDERAL WATER POLLUTION CONTROL ACT TO 
      IMPROVE THE QUALITY OF BEACHES AND COASTAL RECREATION WATER

S. 835, A BILL TO ENCOURAGE THE RESTORATION OF ESTUARY HABITAT THROUGH 
 MORE EFFICIENT PROJECT FINANCING AND ENHANCED COORDINATION OF FEDERAL 
                  AND NON-FEDERAL RESTORATION PROGRAMS

  S. 878, A BILL TO AMEND THE FEDERAL WATER POLLUTION CONTROL ACT TO 
   PERMIT GRANTS FOR THE NATIONAL ESTUARY PROGRAM TO BE USED FOR THE 
  DEVELOPMENT AND IMPLEMENTATION OF A COMPREHENSIVE CONSERVATION AND 
MANAGEMENT PLAN, TO REAUTHORIZE APPROPRIATIONS TO CARRY OUT THE PROGRAM

S. 1119, A BILL TO AMEND THE ACT OF AUGUST 9, 1950, TO CONTINUE FUNDING 
    OF THE COASTAL WETLANDS PLANNING, PROTECTION AND RESTORATION ACT

 H.R. 999, AN ACT TO AMEND THE FEDERAL WATER POLLUTION CONTROL ACT TO 
            IMPROVE THE QUALITY OF COASTAL RECREATION WATERS

                               __________

                             JULY 22, 1999

                               __________


                      U.S. GOVERNMENT PRINTING OFFICE
 59-371 cc                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED SIXTH CONGRESS
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 22, 1999
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     5
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    45
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    13
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    29
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    30
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    18

                               WITNESSES

Bahr, Len, Coastal Advisor to the Governor, State of Louisiana...    35
    Prepared statement...........................................    98
    Responses to questions from Senator Chafee...................    99
Bilbray, Hon. Brian, U.S. Representative from the State of 
  California.....................................................     9
Breaux, Hon. John B., U.S. Senator from the State of Louisiana...     6
Danson, Ted, president, The American Oceans Campaign.............    24
    Prepared statement...........................................    63
Davis, Hon. Michael Davis, Deputy Assistant Secretary for Civil 
  Works, Department of the Army..................................    15
    Prepared statement...........................................    57
Fox, Hon. J. Charles, Assistant Administrator for Water, 
  Environmental Protection Agency................................    11
    Prepared statement...........................................    47
    Responses to question from:
        Senator Chafee...........................................    54
        Senator Lautenberg.......................................    57
Hirshfield, Michael, senior vice president, Chesapeake Bay 
  Foundation.....................................................    33
    Prepared statement...........................................    96
    Responses to questions from Senator Chafee...................    97
Pagliughi, Hon. Martin L., Mayor, Borough of Avalon, NJ..........    22
    Prepared statement...........................................    61
    Responses to question from:
        Senator Chafee...........................................    62
        Senator Lautenberg.......................................    62
Ribb, Richard, director, Narragansett Bay Estuary Program, Rhode 
  Island Department of Environmental Management, on behalf of the 
  Association of National Estuary Programs.......................    31
    Prepared statement...........................................    83
Sarbanes, Hon. Paul S., U.S. Senator from the State of Maryland..     3
    Prepared statement...........................................    45
Shead, Linda, executive director, Galveston Bay Foundation, on 
  behalf of Restore America's Estuaries..........................    26
    Prepared statement...........................................    79
    Response to questions from Senator Chafee....................    81
Torricelli, Hon. Robert G., U.S. Senator from the State of New 
  Jersey.........................................................     8

                          ADDITIONAL MATERIAL

Article, Swimmers Warned About Polluted Beach....................    75
Letter, Department of the Interior, Assistant Secretary for Fish 
  and Wildlife Parks.............................................   113
Statements:
    Coastal States Organization, Inc.............................   110
    Costa, Joseph E., executive director, Buzzards Bay Project 
      National Estuary Program...................................    88
    Marlowe, Howard, president, American Coastal Coalition.......   109
    Surfrider Foundation.........................................    78
    Yozell, Sally, Deputy Assistant Secretary for Oceans and 
      Atmosphere, National Oceanic and Atmospheric Administration   106
Table, Comparison of S. 522 and H.R. 999.........................    75



                ESTUARY AND COASTAL HABITAT CONSERVATION

                              ----------                              


                        THURSDAY, JULY 22, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:29 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Warner, Voinovich, Lautenberg, 
Lieberman, and Boxer.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. I want to welcome everyone here this 
morning. Other Members will be coming along, I'm sure.
    The purpose of the hearing is to learn more about six bills 
that are before us relating to habitat restoration and coastal 
water quality. The legislation before us is particularly 
concerned with estuaries and other coastal resources.
    What are estuaries? Estuaries, as you are going to hear a 
lot about today, are bays, gulfs, inlets, and sounds where 
fresh water meets and mixes with salt water from the ocean. 
These estuaries and their adjacent wetland habitat are some of 
the most biologically diverse and economically productive 
systems in the entire world.
    More than half of our migratory birds, neo-tropical 
migratory birds in the United States, and a large number of 
endangered species depend on estuaries for their survival.
    And, of course, estuaries are very popular with tourists. 
Some 180 million tourists visit our coasts every year.
    The commercial fishing industry is dependent upon 
estuaries, and that is a $40 billion industry. Of the 
commercial fish and shellfish catch, 75 percent depend on 
estuaries for their survival.
    Of our Nation's population, 75 percent lives within a tidal 
watershed, and population densities across the coastal areas 
are four times the national average.
    But these estuaries are under tremendous strain. Of the 
30,000 square miles of assessed estuaries, 38 percent are 
impaired. Over 55 million acres of coastal wetlands in the 
United States has been destroyed since the Colonial time. 
Oyster harvest in the Chesapeake Bay has declined from 133 
million pounds in the 1880's, 100 years ago, to now one million 
pounds. Narragansett Bay in Rhode Island has lost 70 percent of 
its eel grass beds.
    So we look forward to hearing the suggestions that will 
come from the witnesses today, and I want to welcome our first 
panel, which consists of three Senators, all of whom are 
extremely interested in this subject and have given a lot of 
thought to it, so we welcome each of you.
    [The prepared statement of Senator Chafee follows:]
            Statement of Hon. John H. Chafee, U.S. Senator 
                     from the State of Rhode Island
    Good Morning. I would like to welcome everyone to the committee and 
thank all of the witnesses for testifying this morning. The purpose of 
today's hearing is to learn more about six bills before the committee 
that relate to habitat restoration and coastal water quality.
    While we have made great progress in cleaning our nation's waters, 
there is still much work to be done. The goal of the Clean Water Act is 
to ensure the chemical, physical, and biological integrity of our 
nations waters. Most of our progress relates to the chemical aspect of 
water quality. We must broaden our efforts and focus on health of the 
entire aquatic system.
    We should be particularly concerned about our estuaries and other 
coastal resources. Estuaries are bays, gulfs, inlets, and sounds where 
freshwater meets and mixes with salt water from the ocean. Estuaries 
and their adjacent wetland habitat are some of the most biologically 
diverse and economically productive systems in the entire world. More 
than half of the neo-tropical migratory birds in the United States and 
a large number of endangered and threatened species depend on estuaries 
for their survival.
    Birds are by no means the only ones that rely on coastal 
ecosystems. Each year, roughly 180 million tourists visit the coasts. 
In addition to recreation, a number of Americans depend on estuaries 
for their livelihoods. The commercial fishing industry contributes $40 
billion annually to the national economy. 75 percent of the commercial 
fish and shellfish catch depend on estuaries for their survival and 
reproduction.
    According to the National Academy of Sciences, unmanaged growth and 
development are the principal causes of water quality degradation and 
of fish and wildlife declines in coastal areas. Roughly 75 percent of 
the country lives within a tidal watershed, and population densities 
along coastal areas are 4 times the national average. Population growth 
in coastal areas is three times that of non-coastal areas. Out of the 
30,000 square miles of assessed estuaries, 38 percent are impaired. 
From colonial times to the present, over 55 million acres of coastal 
wetlands in the continental United States have been destroyed. The 
oyster harvest in Chesapeake Bay has declined from 133 million pounds 
in 1880 to today's annual catch of one million pounds. Narragansett 
Bay, in my home State of Rhode Island, has lost 70 percent of its eel 
grass beds. Unless action is taken to address our impacts on coastal 
ecosystems, we will lose some of our most important natural resources.
    Today's bills seek to address the threat to our coastal ecosystems. 
S. 835, which I introduced in April of this year, sets an ambitious 
goal of restoring one million acres of estuarine habitat by the year 
2010. The bill encourages partnerships between public and private 
sectors and among all levels of government. My bill also reauthorizes 
the National Estuary Program and allows Federal grants to support the 
development and implementation of estuary conservation plans. S. 878, 
introduced by Senator Torricelli, also focuses on the importance of 
implementing conservation plans developed under the National Estuary 
Program.
    The 1990 Comprehensive Wetlands Planning, Protection and 
Restoration Act allocates a percentage of revenue from the Aquatic 
Resources Trust Fund to be used for wetlands projects. The funding 
authorization for the program is set to expire in 1999. S. 1119, 
introduced by Senator Breaux, would re-authorize the program through 
2009.
    S. 492, introduced by Senator Sarbanes, would re-authorize the 
Environmental Protection Agency's Chesapeake Bay Program office. The 
Chesapeake Bay Program office helps to coordinate State and Federal 
efforts to restore the Bay. S. 492 would authorize the EPA to provide 
technical assistance and grants to non-Federal entities helping to 
restore and protect Chesapeake Bay.
    We will also discuss two bills relating to beach monitoring and 
notification of the public; H.R. 999 by Representative Bilbray and S. 
522 by Senator Lautenberg. Both bills would require States to update 
their water quality criteria and expand the role of the Federal 
Government in beach monitoring and public notification programs. The 
bills also would establish national standards for beach monitoring and 
public notification and provide Federal funding to help States develop 
and implement their programs.
    Senator Chafee. All right, Senator Sarbanes, why don't we 
start with you?

       STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR 
                   FROM THE STATE OF MARYLAND

    Senator Sarbanes. All right. Thank you very much, Mr. 
Chairman.
    First of all, I am pleased to be back before the committee. 
I welcome this opportunity to testify specifically in support 
of S. 492, the Chesapeake Bay Restoration Act, which I 
introduced earlier this year, along with Senator Mikulski, 
Senators Warner and Robb, and Senator Santorum.
    At the very outset though, Mr. Chairman, I want to 
certainly acknowledge your leadership in crafting legislation 
to restore America's estuaries. I am pleased to cosponsor the 
legislation that you have introduced, as well as the bill that 
Senator Torricelli has put in with respect to the national 
estuaries program.
    I need hardly tell you that the Chesapeake Bay is the 
largest estuary in the United States. It is the key to the 
ecological and economic health of the mid-Atlantic region. 
Members of Congress, of course, know the Bay well, and Henry 
Mencken, H.D. Mencken, once referred to the Chesapeake Bay as 
``the world's greatest protein factory.'' We haven't quite been 
able to measure up to those past standards of production, but I 
think it is an apt label.
    Through the concerted effort of public and private 
organizations, we have increasingly come to understand the 
complexities of the Bay.
    Mr. Chairman, I know you have a full panel, and I am going 
to quickly summarize. I'd like my full statement to be included 
in the record.
    Senator Chafee. Definitely.
    Senator Sarbanes. We put in place this Bay program. We were 
able to get the States of Maryland, Virginia, and Pennsylvania 
some years back to come together in undertaking the watershed 
recovery program. The Federal Government participated in that. 
EPA is an active partner in that effort. And there are a number 
of private organizations, many of them--the Chesapeake Bay 
Foundation, for one--from whom I think you will be hearing 
later this morning on one of the other panels.
    This cooperation has been essential in order to improve the 
water quality in the Bay.
    We've made some progress, but we are under tremendous 
stress, as everyone recognizes. We had this phisteria outbreak, 
although we've not had it this year, fortunately. You know, we 
have fish kills and so forth. Some of the crab catch is down 
this year. So we know there are continuing problems. And then 
we have the natural impacts. The drought, of course--thank 
goodness we had this big rain, but, you know, we need a lot 
more of it.
    In any event, we need to remain vigilant in the efforts to 
restore the Bay. We think the Bay program has been a model and 
we've always appreciated greatly the support of this committee 
for our efforts. We have joined together in the past, of 
course, in efforts not only on the Chesapeake but the 
Narragansett, as well, Puget Sound out in the State of 
Washington, and elsewhere.
    I think the broader bill which you are introducing is a 
very important contribution.
    This legislation, in a sense, reauthorizes the Bay program 
which has been in place now for a number of years. It makes a 
couple of changes. It develops a better coordination mechanism 
amongst the Federal agencies, which we think is important. It 
provides for better agency disclosure and budget coordination, 
so we get the information out and encourage greater citizen 
participation. And also it authorizes the EPA to establish a 
small watershed grants program. We've tried that on a 
demonstration basis and it has worked exceedingly well. A lot 
of small local organizations, local governments, have been 
drawn in and have instituted their own projects. We draw in 
matching moneys as a consequence, and we think this is a very 
important initiative.
    This bill has been very carefully crafted, with the advice 
and counsel of many hard-working organizations in the Bay 
region--the Chesapeake Bay Commission, the Alliance for the 
Chesapeake Bay, the Chesapeake Bay Foundation, and the three 
State governments of Maryland, Virginia, and Pennsylvania.
    Mr. Chairman, we think we are making advances, but we need 
to continue the effort, obviously. Otherwise, we will simply 
slip back. This is a fairly critical time, because the EPA 
administrator, the Governors of the three States, and the mayor 
of the District of Columbia are now renegotiating the 
cooperative agreement, and we will certainly want to maintain 
the Federal role, which has been essential as a catalyst. The 
money side of it from the Federal level is important too--the 
major money comes at the State level, and it is very 
significant, indeed, but we need to maintain the Federal 
Government as a catalyst and a coordinator, and I very much 
hope the committee can approve this legislation and, indeed, 
the other legislation that is pending before you.
    Senator Chafee. Senator, I want to commend you and the 
Senators from your adjoining States for what they've done. 
They've all taken extremely seriously their working on this.
    You know, the encouraging thing is that we can make a 
difference. I know you followed closely the efforts we made in 
connection with the striped bass, and it is remarkable how that 
has come back from really dire circumstances.
    Senator Sarbanes. Right.
    Senator Chafee. And that came about because a whole series 
of steps were taken, as you recall.
    So I share your deep concern and want to praise you for 
what you've done in coming forth with this legislation, and we 
take it very, very seriously.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Mr. Chairman, I would be remiss if I didn't make the point 
that I simply picked up this leadership role from Senator 
Mathias, who many years ago went on a boat tour of the 
Chesapeake Bay, and off of that began the whole process of 
trying this major effort to restore the Bay, and he exercised 
tremendous leadership and, of course, continues, even to this 
very day, to take a very keen interest in this effort.
    Senator Chafee. Fine.
    Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, due to my terrible schedule, I 
wondered if I could have 1 minute to make a very brief opening 
statement.
    Actually, I'd like to put my statement in the record.
    Senator Chafee. Sure. You can have not only 1 minute; you 
can have 2 minutes.
    Senator Boxer. Well, that's very kind. That's why I'm going 
to miss you so much.
    First, I wanted to say how proud I am of our colleagues 
here who are working so hard on these ocean protection issues 
and how strongly I support them, as well as your bill on 
estuaries.
    I want to state to them that I will work as hard as I can 
to make sure that this all happens.
    I also wanted to welcome my friend, Ted Danson, a great 
environmentalist and protector of the oceans, founder of the 
American Oceans Campaign, who has been working with me and many 
other colleagues for many, many years on ocean protection. He 
will be on the third panel.
    I'm just so happy that you are here, Ted. It is so 
wonderful when you can get away from your business to help 
preserve the environment.
    I wanted to say that, as usual, I will be offering an 
amendment to one of the bills to make sure that, when we 
cleanup, we cleanup to protect the children, because sometimes 
the Federal Government will cleanup to a lesser standard, and 
the kids go unprotected. Every time I've done that, I've gotten 
it through this committee. I will be pressing on that again.
    And I just want to say again to my colleagues, thank you 
for your caring and your concern and your leadership.
    And to you, Mr. Chairman, thank you very much.
    [The prepared statement of Senator Boxer follows:]
             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California
    Mr. Chairman, thank you for holding this hearing today on these 
important coastal restoration and protection bills. I support all of 
the bills on today's agenda and look forward to working with the 
Committee to ensure their timely passage.
    I would like to begin by welcoming our witnesses here today. In 
particular, I would like to pay special tribute to my friend Ted 
Danson. As many of you know, Ted Danson has been a leader in 
environmental preservation for many years. During the 11 years since he 
founded the organization, Ted has been a valuable advocate for 
protection of our coasts and a valuable friend to me. I am pleased to 
see him here promoting a cause he truly believes in.
    I am a co-sponsor of three of the bills on the agenda today: 
Senator Chafee's Estuary Bill, Senator Torricelli's Estuary Bill and 
Senator Lautenberg's Beach Bill. All three of these bills will assist 
California and the entire nation in protecting and preserving our 
precious marine resources. I look forward to the discussion about these 
bills.
    With 1,100 miles of coastline in California, these bills are 
critical to protecting our marine environment, maintaining a healthy 
population and promoting a strong economy. Californians know that the 
health of our economy is inextricably linked to the health of our 
coastal and marine resources.
    I commend you Mr. Chairman for your estuary bill. S. 835, the 
Estuary Habitat Restoration Partnership Act of 1999 establishes a 
program to restore 1 million acres of estuary habitat by 2010. This is 
a laudable and much needed goal. I strongly support this effort.
    I would also like to commend Senator Lautenberg for his beach bill. 
This legislation is not only important for environmental restoration, 
but also for protecting public health and safety.
    Mr. Chairman, when people go to enjoy our beaches, they should go 
home with a tan, not a tummy ache. Unfortunately, all along our 
nation's coasts, beach waters are being contaminated by land-based 
pollution. Bacteria, viruses, toxic chemicals, nitrogen, and other 
contaminants that are dumped into beach waters by storm drains, 
malfunctioning septic systems, and overburdened sewage treatment plants 
and threatening the health of swimmers, surfers, and other beach goers.
    At best, this contamination must stop. At the least, we must ensure 
the health and safety of the American people by establishing uniform, 
national standard that will be used to test beach waters for 
contamination. And it's not enough to just have a standard in place. 
There must be monitoring, and most importantly, public notification of 
possible harm.
    However, I would like to inform the Committee that I intend to 
offer an amendment to this legislation that will ensure that this 
national standard is set at a level that protects children and 
sensitive sub-populations. Are children should be free to play in the 
waves without getting sick.
    Mr. Chairman, I am a strong supporter of the bills being discussed 
today. I look forward to working with you and the rest of this 
Committee to move these bills forward expeditiously.

    Senator Chafee. All right. And we hope you can stay. I know 
you've got a busy schedule.
    Senator Boxer. I have to go to the floor is the problem.
    Senator Chafee. OK. Fine.
    All right. Senator Breaux.
    Is Congressman Bilbray back there? Why don't you come on up 
and take a seat up here?
    Among other things, he is head of the Surfers Coalition, I 
believe. Is that the name of it?
    Mr. Bilbray. It's the Surfers Caucus.
    Senator Chafee. Surfers Caucus, and he has made me an 
honorary member, which is really stretching things a long way.
    [Laughter.]
    Mr. Bilbray. Senator, I've seen the surf at Scarborough 
Beach in Rhode Island, and you are right, it is stretching it.
    [Laughter.]
    Senator Chafee. No one will accuse him of buttering me up, 
anyway.
    Senator Breaux.

        STATEMENT OF HON. JOHN B. BREAUX, U.S. SENATOR 
                  FROM THE STATE OF LOUISIANA

    Senator Breaux. Thank you very much, Senator Chafee and 
Senator Boxer, for your comments.
    Mr. Chairman, I am here to urge the reauthorization of the 
Act that Congress--and you were involved, Mr. Chairman, and we 
all were back in 1990--known as the Coastal Wetlands Planning, 
Protection and Restoration Act. President Bush signed that bill 
into law back in 1990, so it is almost 10 years since it has 
become law.
    I think that it has allowed all of the coastal areas in my 
State, and in other coastal States, to take all the studies and 
all of the planning that had accumulated over the years in 
libraries about what to do about wetlands, take all those 
studies and plans and take them off of the shelf and actually 
implement them into projects aimed at restoring the coastal 
lands.
    I think all of us from coastal areas realize that when 
coastal areas are lost they are gone forever. When we have a 
hurricane and it blows down buildings, the buildings can be 
rebuilt. When we have an earthquake and it destroys homes, the 
homes can ultimately be rebuilt. But every day a little bit of 
my State breaks off and floats away into the Gulf of Mexico and 
it is never coming back.
    Louisiana loses somewhere between 25 and 30 square miles 
every year of coastal land because of erosion. To put it in 
perspective, that's about a football field every 30 minutes. If 
that continues, my coastal area will be somewhere around 
Chicago, which is not something that I'll look forward to 
seeing.
    When we set up this coastal wetlands planning, protection 
and restoration program, the idea was to take the Federal 
gasoline tax on small gasoline engines which are not driven on 
interstate highways and put the small engine gas tax into a 
fund from every gallon of gas that is bought for a snow blower 
or a lawn mower or a chain saw and put it into a trust fund and 
give it to the coastal States in order for them to use that 
money in order to take those plans off the shelf and out of the 
library and actually implement them, and the success, I think, 
has been incredible.
    Since the Act has been established, we have restored or 
enhanced over 460,000 acres of coastal wetlands. The Federal 
Government has contributed about $397 million, and the States 
and other partners have matched and contributed more than $327 
million, for a total which exceeds $724 million earmarked for 
these type of projects.
    The Federal highway bill that we just passed has already 
reauthorized a funding source. The only thing that is left and 
is necessary is for this committee to reauthorize the 
authorizing part of the legislation. The funding source has 
already been reauthorized through the Federal highway program.
    The final comment, Mr. Chairman, I would make is that in 
Louisiana--a coastal wetlands task force has been set up by the 
Act. One of the problems has been, as we all know, that every 
agency wants to do the work itself. States want to do it, the 
local governments want to do it, the Federal agencies want to 
do it. In the past, we've seen an incredible amount of 
interparliamentary bickering among all of the agencies about 
who is going to do the work.
    I can proudly say in Louisiana we established a task force 
which brings together all of these groups, working together to 
draft the plans, to have them approved by vote of the task 
force. On that task force are the Corps of Engineers, the 
National Marine Fisheries Service, the Environmental Protection 
Agency, the USDA, the Fish and Wildlife Service, and, of 
course, the State of Louisiana, and they must work together. 
They are directed to work together by the Act to come up with a 
type of plan that they can use to reduce the wetland loss and 
to actually restore the wetlands that have been lost.
    The State has recently signed a program that guarantees its 
matching share as a dedicated source of funding showing the 
State's commitment. Mr. Chairman, I wholeheartedly encourage 
you and other Members to continue the good work that this bill 
has accomplished by reauthorizing it again.
    Thank you very much.
    Senator Chafee. Well, that makes a lot of sense, and I am 
confident we are going to do what you requested.
    If you and Senator Sarbanes have other appointments, feel 
free to--I know you've got a heavy schedule.
    Senator Torricelli.

 STATEMENT OF HON. ROBERT G. TORRICELLI, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Torricelli. Thank you, Mr. Chairman, very much, and 
thank you for having me back again this year. It is becoming a 
regular opportunity to address a subject I know that is 
important to you and me.
    I've come to bring your attention to S. 878, the National 
Estuary Conservation Act, that I have introduced and you were 
good enough to cosponsor, along with other members of the 
committee in previous years--Senator Moynihan, Gramm, 
Lieberman, and Boxer. Indeed, I am happy to thank you because 
last year you included important parts of this legislation in 
your own comprehensive estuary bill which passed the Senate. My 
hope is that you would continue in your support of this 
initiative, and that the House this year will follow your lead.
    Like my colleagues, I am here principally to draw attention 
to some things we all recognize but need repeating--the role of 
estuaries in our economy, our cultural, and our family lives in 
this country.
    Indeed, commercially, 75 percent of the commercial fish 
catch in the United States depends on the health of these 
relatively limited estuaries. Of the Nation's population, 
however, 45 percent resides in the same estuary areas.
    To give you an idea locally of how important we recognize 
this to be, we have a $24 billion tourist economy relying on 
the same estuaries for fishing, habitats, boating, and outdoor 
recreation. Indeed, despite the growth of many other important 
high-tech and service industries in New Jersey, this remains 
our principal source of income in the State.
    But, like many other States, the problem is relatively 
easily defined. These same limited estuaries, as we speak, in 
the months of July and August--Barnegat Bay, for example, our 
best-known and largest of the New Jersey shore, doubles in 
population when the summer months approach.
    In the New York/New Jersey area, those same estuaries have 
730 combined sewage overflow spills polluting into the harbor--
an old infrastructure, a doubling population, spilling 
pollution into very sensitive and limited estuary areas.
    The recognition of these facts persuaded the Congress in 
1987 to create the national estuary program to begin important 
planning for dealing with this environmental stress. This 
program has provided some valuable grants to State and local 
governments to develop plans to preserve their estuaries. 
Twenty-eight such estuaries across the country were designated, 
including three in New Jersey--Barnegat Bay, Delaware Estuary, 
and the New York/New Jersey Harbor.
    To give you an idea of the importance of these estuaries, 
42 percent of the continental United States' shoreline is 
within the watersheds of these 28 estuaries.
    Unfortunately, once the plans were developed, State and 
local agencies were left with their own resources to implement 
the plan. That's the problem: good planning, good 
participation, great ideas, and no resources to implement them.
    It is just like John Breaux just pointed out--all the 
greatest ideas for preserving these estuaries have been 
developed, and they're all sitting on the shelf.
    Currently, there are funding levels of $17 million for all 
28 plans--barely allow enough to allow development, no less any 
implementation.
    To give you an idea of the scale, finally, of the problem 
that that $17 million would have to address, New York and New 
Jersey Harbor, alone, having completed its plan, calls for 300 
different environmental initiatives, including preserving 
habitat, a project which identifies source pollution, and 
controlling the combined sewer overflows, which involve 730 
different construction projects.
    The needs, the demand for resources is, obviously, 
enormous, and the legislation that I have introduced, which 
would increase funding to $50 million, is barely, itself, a 
contribution, but it would allow some implementation of some of 
these plans.
    The resources to implement all of these plans will never be 
available in a single year, or even in several years. This is a 
question of beginning.
    At the moment, there is no implementation. I would hope, 
building upon the suggestions I've made, the legislation that 
I've offered and members of the committee have cosponsored, 
when the chairman begins his own efforts he would include some 
of these aspects into his bill to allow some dedicated funding 
so that we can begin implementing at least some of these plans.
    Mr. Chairman, thank you again for having me, for your 
support for this effort through the years. I'm very grateful.
    Senator Chafee. Thank you very much, Senator.
    As I mentioned, I am deeply interested in these, and I 
agree with you that there has to be better funding for it. 
We're going to need your continuing enthusiasm as we go through 
this.
    It is one thing to get it through the Senate; it is another 
thing to get it through the House. Your experience over there 
can be helpful to us.
    Senator Torricelli. Thank you very much.
    Senator Chafee. Thank you very much. If you wish to be 
excused, go to it.
    Congressman Bilbray, nice to see you again here, and glad 
to hear your thoughts.

 STATEMENT OF HON. BRIAN BILBRAY, U.S. REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, I apologize. I really came here to listen to 
the testimony before you, but I can't pass up the chance to 
articulate the fact that we have the BEACH bill that has been 
passed unanimously on the House side and now is up for 
consideration on your side.
    Let me just restate my experience with this whole issue, 
Mr. Chairman.
    I grew up in a city called Imperial Beach, which is the 
most polluted surfing beach in America. Mexico pollutes it 
periodically, and as a child I grew up a block from the surf. 
It was just part of our lifestyle that every morning when you 
went down with your surfboard to go surfing you didn't know if 
you were going to be greeted by these bright red signs that 
said, ``Contaminated, keep out.'' And the frustration of young 
people and citizens that their beaches are closed periodically 
is really terrible.
    The trouble is, Mr. Chairman, the only thing worse than 
having the red signs up when the beaches are polluted is not 
having them up when they are polluted, not knowing when it is 
safe and when it isn't.
    As somebody who comes from the west coast and has now spent 
some time on the east coast, when I take my family to the 
Delaware area or Maryland, I do not know, as a parent, is it 
safe for my son and daughter to go out into the surf at that 
time. Is the water safe for contact?
    The BEACH bill that we have proposed is actually an 
outcome-based piece of legislation that not only will inform 
all Americans who travel across State boundaries--which, let's 
face it, that is one of the major reasons why this federation 
we call the ``United States'' was formed, to encourage and 
allow interstate commerce and interstate travel--the people 
that do travel there today do not know if it is safe to enter 
the waters of the United States.
    With the BEACH bill, we will be able to create that and 
will be able to do it in an interesting way. Those of us who 
have worked on environmental issues with the Federal Government 
recognize that too often Washington has tried to set standards 
that do not reflect reality in mainstream America, and with 
this proposal the health directors of the States and the locals 
will work with EPA at developing a standard that is applicable 
to the rest of the country.
    I also want to point out that those of us who have worked 
on these pollution problems have actually been lulled into 
believing that our standards have always been good. The fact 
is, the water contact standard that even we use in California 
and in New Jersey and Florida is really based on one study that 
was done in 1951 in Lake Eerie, one study with fresh water, and 
based on a whole unique situation.
    This bill, the BEACH bill that we got passed and hopefully 
you'll pass, will finally get us to upgrade it and bring it to 
the 1990's standards and hopefully we'll go into the new 
millennium with a new standard working with local health 
officials that will protect our children and our families for 
the future and make sure that all of us, when we go to the 
beach, can be assured that it is safe for us to enter that 
water and that our children and our families will be able to 
enjoy not just a day at the beach but also the days that 
followed without getting sick.
    Thank you very much, Mr. Chairman.
    Mr. Chairman, I appreciate the huge support that you've 
given to the effort of these kind of projects. As somebody who 
looks forward to continuing to be involved in water contact 
sports, I appreciate the legacy that you have built for all 
Americans.
    Senator Chafee. Well, thank you very much, Congressman. 
You're right--I am interested in it, and it is wonderful to 
have your enthusiasm and support in all these efforts, so I'm 
optimistic we are going to be able to do some good things.
    Thank you very much for coming over.
    Mr. Bilbray. Thank you very much, Mr. Chairman.
    Senator Chafee. All right. Now, the next panel will consist 
of Mr. Charles Fox, assistant administrator for water at EPA; 
and Hal Davis, Deputy Assistant Secretary for civil works, 
Department of the Army.
    Now, I am very conscious today, gentlemen, of the fact that 
we have quite a long list of witnesses, and the way things seem 
to work in testifying at congressional hearings is that the 
last people sort of get short shrift, and we don't want that to 
occur, so we'll start with Mr. Fox, and if you could limit your 
testimony to 5 minutes, and you'll see the lights here and 
eventually get to the red light, and then we'll go on to Mr. 
Davis.
    All right, Mr. Fox, go to it.

 STATEMENT OF HON. J. CHARLES FOX, ASSISTANT ADMINISTRATOR FOR 
                WATER, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Fox. Mr. Chafee, thank you. With luck, I can do this in 
under 5 minutes.
    I do really appreciate the opportunity to be here today and 
to offer kind words on behalf of the Administration for all of 
the legislation being considered by this committee here today.
    The previous speakers have talked about the ecological and 
economical values of coastal waters, so I don't need to get 
into that.
    I do need to mention, though, that all of our coastal 
waters, as you well know, are facing very significant 
environmental problems, ranging from the loss of dissolved 
oxygen to the loss of wetlands to increasing toxic 
contamination of many waters around the country.
    The Clean Water Action Plan announced by the President and 
the Vice President includes 111 specific actions to improve 
water quality, and I'm happy to say that the BEACH legislation 
that has been proposed by Senator Lautenberg and is also 
included in the House legislation, closely mirrors the Actions 
announced by the President in the Clean Water Action Plan.
    The BEACH legislation introduced by Senator Lautenberg 
provides for a comprehensive program to improve beach 
monitoring and assure that the public has good information 
about the health risks. H.R. 999, passed by the House of 
Representatives, includes comparable but somewhat different 
provisions.
    As indicated in my written testimony in more detail, both 
bills have strong points and we would be happy to work with the 
committee to develop the most acceptable bill possible as you 
go through the process.
    Turning to your bill, Mr. Chairman, as you know, you were 
the founder and the creator of the National Estuary Program. It 
has worked tremendously well around the country since 1987, 
when it was created by amendments to the Clean Water Act. Today 
we have 28 National Estuary Programs around the country. As you 
know, they develop management conferences that include a number 
of participants at State and local levels to develop a 
comprehensive plan for protecting and restoring these 
estuaries.
    The legislation that you have introduced would create new 
authority and authorize new funding for the Army Corps of 
Engineers. EPA supports the new authority for estuarine habitat 
restoration proposed in the bill. My written testimony includes 
several suggestions for improvements to the bill, and we have 
provided some technical comments to committee staff.
    The bills introduced by Senator Torricelli and you, Mr. 
Chairman, both would extend and increase authorizations for the 
National Estuary Program. The Administration supports changes 
to the Clean Water Act to allow National Estuary Program grants 
for both program management, as well as program development.
    We also included in our budget for this year, fiscal year 
2000, some provisions for implementing National Estuary 
Programs Comprehensive Conservation and Management Plans 
(CCMPs) that would allow Governors to set aside a certain 
portion of their State revolving loan funds for CCMP 
implementation. That proposal is pending right now before 
Senator Bond's subcommittee on the appropriations side.
    The Administration also supports legislation to protect 
Chesapeake Bay that was introduced by Senator Sarbanes and 
Senator Warner. I am a long-time advocate of Chesapeake Bay the 
cleanup, and I noted the comeback of the striped bass in your 
remarks. One thing I have noted is how we all have unique names 
for these species. I was once up fishing with my brother in 
Newport and learned that they don't call them ``rockfish'' in 
Rhode Island, but they called them ``gummers,'' which I found 
interesting, and I guess that refers to the fact that they 
don't have a whole lot of teeth.
    But the story of the comeback of striped bass I think is a 
classic success story of people working together in the spirit 
of the estuary programs.
    The Administration also supports the legislation introduced 
by Senator Breaux, which would reauthorize the Coastal Wetlands 
Planning, Protection, and Restoration Act, an act that is known 
here in Washington as CWPPRA. It is known in Louisiana, of 
course, as simply ``the Breaux Act,'' and it is something that 
has, I think, resulted in remarkable achievements in protecting 
coastal wetlands in Louisiana.
    In closing, I would like to make a special appeal to the 
committee to consider the difficult challenges the Agency will 
face in implementing some of these important programs proposed 
in the legislation in light of the budget reductions that are 
likely to be imposed on EPA in fiscal year 2000.
    Under the budget allocations currently being considered by 
Congress, EPA may be forced to implement far-reaching, general 
reductions in spending. If this is to occur at the same time 
that increased funding is requested for these critical bills, 
the Agency might have to dramatically reduce current core 
program efforts.
    I urge this committee to consider the best overall 
approach, and we look forward to working with you in that 
regard.
    Senator Chafee. Well, I share your concern about the caps 
and I'm deeply worried about that situation, what it is going 
to mean. Obviously, that is going to play into everything that 
is going on around here in connection with tax reductions and 
so forth, but I'm glad you talked about the funding for EPA. 
It's something we've all got to bear in mind as we continue 
this whole budget exercise.
    Senator Lautenberg, do you have something you wish to say 
at this time?
    Senator Lautenberg. I'm sorry I got here a little bit 
later.
    Senator Chafee. Yes. I am trying--as I mentioned a little 
before, just before you came in, we have quite a list of 
witnesses, and I've recognized that the last witnesses always 
get short shrift, so I'm trying to be fair to everyone to make 
sure everybody is heard.
    You go ahead.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Well, Mr. Chairman, I would spare you 
the opportunity to listen to my opening remarks. I ask 
unanimous consent that we can put them in the record and----
    Senator Chafee. That will be fine.
    [The prepared statement of Senator Lautenberg follows:]
 Statement of Hon. Frank R. Lautenberg, U.S. Senator From the State of 
                               New Jersey
    Mr. Chairman, thank you for holding today's hearing on the coastal 
waters bills, especially my Beaches Environmental Assessment Closure, 
and Health (B.E.A.C.H.) Act of 1999.
    I would like to welcome my good friend, Mayor Martin Paugliughi 
from Avalon, New Jersey, to Washington and thank him for agreeing to 
testify today on the importance of monitoring and notification programs 
for coastal recreational waters.
    I would also like to thank Senators Boxer, Lieberman, Feinstein, 
Dodd, Kerry, Sarbanes and Torricelli for cosponsoring my B.E.A.C.H. 
Act. I'd like to also welcome Ted Danson, from American Oceans 
Campaign, and Chuck Fox, from EPA and thank both of them for supporting 
my bill.
    Finally, would like to acknowledge Representative Pallone from New 
Jersey who has introduced the companion bill in the House.
    Mr. Chairman, as you know, have introduced this bill in each 
Congress since 1990.
    As a Senator representing a State with coastal recreational waters, 
I am very aware of the importance of monitoring beach waters for 
pathogens and bacteria and notifying the public when contaminated 
waters are not safe for recreational activities.
    Coastal tourism generates billions of dollars every year for local 
communities since beaches are the top vacation destinations in the 
Nation. A recent survey found that tourists spend over $100 billion in 
the coastal portions of twelve States studied. Tourists at beaches on 
the Jersey shore generate more than $7 billion annually for the local 
economy.
    The United States and coastal states could potentially lose this 
important source of revenue. According to a recent survey by Conde Nast 
Traveler magazine, 25% of people surveyed said they actually changed 
their travel plans because of environmental problems at their intended 
destination.
    If recreational waters aren't properly managed, the increasing use 
of public beaches and coastal parks--for swimming, wading, and 
surfing--will mean greater risks to public health and to the financial 
stability of coastal communities.
    This is an ongoing and serious public health problem. People often 
can't tell that the water they're swimming in is safe or unsafe. As a 
result, each year many people come down with illnesses--from 
gastroenteritis to hepatitis--that are especially serious for children 
and senior citizens.
    In a recent report on beach-water quality, the Natural Resources 
Defense Council reported more than 7,000 closings and advisories at 
U.S. beaches in 1998 due to pollution problems.
    And the number of beach closings and advisories may represent only 
a small portion of the problem.
    States are still taking inconsistent approaches in monitoring water 
quality at public beaches and notifying the public of unhealthy 
conditions. As a result, one state might close a beach because of a 
high bacteria count while, just next door, another state might allow 
beach-goers to enter the same polluted water.
    In fact, only nine states have adequate policies for monitoring 
water quality and notifying the public of problems.
    Due in part to my urging, in 1997 the Environmental Protection 
Agency (EPA) established its B.E.A.C.H. program to recommend 
appropriate monitoring criteria and public notification of beach water 
quality.
    But EPA can't require states to adopt those recommendations. My 
legislation would give EPA the authority to require states to develop 
beach-water monitoring and public notification programs that uniformly 
protect public health. It also would authorize $9 million in grants to 
the states to carry out the requirements of this Act.
    I realize there are other ways to improve water quality and warn 
people about pollution-related health risks. I think the approach in my 
BEACH bill is the most effective, but I am willing to work with my 
colleagues to develop a consensus to this serious public health 
problem.
    Mr. Chairman, as other witnesses will tell you at this hearing, a 
day at the beach shouldn't be followed by a day at the doctor. I urge 
my colleagues to join me in supporting legislation to ensure safe and 
healthy beaches for all American citizens.
    Mr. Chairman, thank you once again for holding this hearing.

    Senator Lautenberg. I just wanted to say that what we're 
looking for is a basis for equalizing the way beach waters are 
analyzed throughout the country and make it the same.
    My State is, as is yours, Mr. Chairman, pretty tough on the 
quality of water that we encourage people to jump into, and 
that's the mission here--to preserve the health and well-being 
of people and not have a day at the beach spent by a day at the 
doctor.
    So that's where we are going, and I know that Mr. Fox is 
registering support for the Administration for the bill.
    I've introduced this BEACH bill in every Congress since 
1990, and I worked to help encourage EPA to develop its BEACH 
program. While the BEACH program is a good start, EPA's ability 
to require States to adopt water quality criteria monitoring 
and notification programs remains limited.
    Can you tell us--now, I missed your testimony, and I don't 
want it to be repeated because it is in the record, but how 
will the BEACH bill enable EPA to address those problems that 
we know are prevalent in many American beaches in an expedient 
manner?
    Mr. Fox. Senator, your legislation I think will have very 
significant and substantial benefits to the American people by 
assuring: that we have a level regulatory playing field for all 
States in the country; so that we have water quality standards 
that are developed in a consistently protective fashion; and 
that we have a comprehensive monitoring program so that the 
public will have a good understanding of the quality of the 
waters that they're swimming in. I think, overall, your 
leadership on this issue has really helped shape the Agency's 
beach program as a result.
    Senator Lautenberg. I thank you. In order, Mr. Chairman, to 
move things along, I will reserve the opportunity to submit 
questions in writing.
    I heard your comments about the striped bass, rockfish, 
call it what you will, and Senator Chafee deserves an awful lot 
of credit for the resurgence of that fish population. It is 
terrific. I also spend a lot of time in those waters, and it is 
a pleasure to see what the fishermen are taking in from New 
Jersey on up through Massachusetts--lots of striped bass.
    Senator Chafee. It is remarkable. Once in a while something 
works, and the resurgence of the rockfish or the stripers or 
whatever you want to call them is just truly remarkable. We, 
obviously, see it up on our shoreline, as you do.
    I guess it has been a--everybody can say it is a success. 
Do you think that's safe to say, Mr. Fox?
    Mr. Fox. I think unquestionably it is safe to say that it 
is a success. I can tell you that in the Chesapeake Bay, where 
I go fishing as often as I can, it is very different today than 
it was even 5 or 10 years ago, and I think that this is a 
credit to the work of this Congress and some of the national 
controls on striped bass, as well as State legislatures around 
the country.
    Senator Chafee. I've always felt that if you give nature 
half a chance it will come back, but you've got to give it that 
half a chance.
    Mr. Fox. Right.
    Senator Chafee. All right. Fine. Thank you, Mr. Fox.
    Mr. Davis.

STATEMENT OF HON. MICHAEL DAVIS, DEPUTY ASSISTANT SECRETARY FOR 
              CIVIL WORKS, DEPARTMENT OF THE ARMY

    Mr. Davis. Mr. Chairman, Senator Lautenberg, I am Michael 
Davis, the Deputy Assistant Secretary of the Army for Civil 
Works, and it is a real pleasure to be here today to present 
the Army's views on S. 835, the Estuary Habitat Restoration 
Partnership Act of 1999.
    I would also like to discuss the Coastal Wetlands Planning, 
Protection, and Restoration Act, and S. 1119, which would 
extend the funding for implementation of environmental projects 
under this act.
    For over 200 years, the Nation has called upon its Army 
Corps of Engineers to solve many of its water resources 
problems. Historically, the Corps has emphasized its flood 
damage reduction and navigation missions. In recent years, 
however, pursuant to Water Resources Development Acts, we have 
elevated our environmental restoration and protection mission 
to a level equal to our more-traditional missions.
    The Corps now uses its engineering, project management, 
real estate, and environmental expertise to address 
environmental restoration and protection problems throughout 
the Nation. The Corps has a powerful tool kit of authorities 
and programs that can be brought to bear to help solve these 
environmental problems.
    Over the last decade, alone, the Corps has helped restore 
hundreds of thousands of acres of habitat benefiting hundreds 
of fish and wildlife species. Examples include 28,000 acres of 
habitat restored on the upper Mississippi River, 35,000 acres 
of flood plan and wetlands restoration under construction today 
along the Kissimee River in Florida, and hundreds of acres of 
coastal wetlands restored by beneficially using dredge 
material, including an 1,100-acre project in the Chesapeake Bay 
known as ``Poplar Island.''
    As you know, Mr. Chairman, on July 1 the Army submitted to 
Congress a comprehensive plan to restore the Everglades, the 
world's largest ecosystem restoration project. This plan, 
alone, will help restore over 2.4 million acres of wetlands in 
the south Florida ecosystem.
    Throughout the world, estuarine and coastal areas serve as 
a focal point for human use and development. These same areas 
also perform critical functions from an ecosystem perspective.
    Estuaries help protect us from flooding, help maintain 
water quality, and provide habitat and food for an abundance of 
fish and wildlife species, many of them threatened or 
endangered. These coastal environments generate billions of 
dollars annually through such industries as tourism and sport 
and commercial fisheries. There is an urgent need to protect 
and restore these fragile ecosystems, recognizing the economic, 
social, cultural, and environmental benefits they provide.
    We applaud the cosponsors of S. 835 for their vision and 
leadership in this area. If enacted, S. 835 would enhance the 
Corps' ability to restore and protect estuarine habitat. In 
this regard, the Army supports S. 835 and looks forward to 
working with you in enacting such legislation.
    The goal of restoring one million acres of estuarine 
habitat by 2010 is consistent with the President's clean water 
action goal of restoring 100,000 acres of wetlands annually 
beginning in the year 2005.
    The proposed national framework and the national estuarine 
habitat restoration strategies help partners identify and 
integrate existing restoration plans, integrate overlapping 
plans, and identify processes to develop new plans where they 
are needed.
    We would recommend that the use of the existing 
organization and structure of the Coastal America partnership 
be considered fully. Coastal America has national and regional 
teams already in place, and many of the members on these teams 
would be the very same experts that we would need to consult 
under S. 835.
    We are pleased to note that important changes the Army 
requested have been incorporated into S. 835. These same 
changes were also made to companion legislation, H.R. 1775. We 
do suggest a few additional minor modifications to S. 835. For 
example, we urge the committee to revise the bill to make it 
clear that non-Federal sponsors are responsible for providing 
all lands, easements, rights-of-way, dredge material disposal 
areas, and relocations, as is required for all other Army civil 
works water resource projects.
    We also believe the that Secretary of the Army, not the 
Collaborative Council, should determine the acceptability and 
value of in-kind contributions.
    The Army Corps of Engineers has extensive policies and 
regulations in place and vast experience in placing values on 
in-kind services. We feel that it would be appropriate for the 
Secretary to have this responsibility, since the Army 
ultimately is accountable for appropriations and project 
implementation.
    In addition, we believe that you should consider including 
the Great Lakes region, which is widely recognized as a coastal 
region of the United States, with very similar problems and 
opportunities of other coast areas.
    The Army supports S. 835, and we look forward to working 
with you, Mr. Chairman, and your committee to enact this bill.
    Now I'd like to just briefly turn to S. 1119. The Army also 
supports 1119, which provides continued funding for the Coastal 
Wetlands Planning, Protection, and Restoration Act, or the 
Breaux Act. The Breaux Act is an important part of the 
implementation of the more-comprehensive, longer-term solution 
to the national problem of coastal wetlands losses.
    Approximately 40 percent of the coastal wetlands of the 
lower 48 States are located in Louisiana. Over the past 50 
years, Louisiana has lost an average of 40 square miles of 
marsh per year. This represents about 80 percent of the 
Nation's annual coastal wetlands lost for the same period.
    Through the Breaux Act, substantial efforts are currently 
underway to slow this loss of Louisiana's coastal wetlands. To 
date, eight priority lists have been formulated and we have 81 
active projects, 30 of which have been completed. When 
implemented, these projects will reduce the loss of coastal 
wetlands by 70,000 acres over the next 20 years.
    In conclusion, the Corps has been increasingly involved in 
recent years with efforts to protect and restore our estuaries. 
My staff and I enjoyed working with you and your staff on S. 
835 and the other legislation before your committee. We look 
forward to continuing this relationship as work on these 
important bills is completed.
    Mr. Chairman, that concludes my statement.
    Senator Chafee. Thank you, Mr. Secretary.
    Senator Chafee. How effective are these measures? In other 
words, you talk about we are to restore in Louisiana ``X'' 
thousand acres of wetlands. I mean, I know what they do up my 
direction is the eel grass they're planting that is acting as 
something that can holds the marshes together. But I just don't 
know what they do in Louisiana and how effective is it.
    Mr. Davis. We've seen some tremendous successes in 
Louisiana and other coastal areas throughout the United States 
where we're using dredged material to elevate areas that have 
subsided, for example, to recreate the natural topography and 
the natural elevations that allow the natural vegetation to 
return, literally thousands of acres in Louisiana.
    One of the premier sites in this country is Oakland Harbor 
in California, the Sonoma Bay wetlands, where we have taken 
dredged material and created 330 acres there. So we have had 
tremendous success with these programs.
    Senator Chafee. Well, it is good to hear it because--and I 
want to commend you for your testimony.
    What do you say in this business of testing the quality of 
the water and whether it is safe and all? What do you say about 
you're getting into a one-size-fits-all problem here? How do 
you gauge what is safe? It might be completely different for 
something in San Diego than it would be for Narragansett Bay or 
Barnegat Bay.
    Mr. Fox. Mr. Chairman, at EPA we try and develop national 
standards based on the best scientific information we have 
about what levels of a contaminant would be protective of 
public health, but in every case we allow a State to vary from 
that national standard if they have information in their State 
waters that would suggest that a different standard should 
apply.
    To me, what this BEACH legislation does is it suggests that 
all States need to be serious about focusing on the development 
of these standards so that they are protective of public 
health, but if States wanted to vary from these to meet 
specific needs, they should be allowed. Certainly in Hawaii, 
for example, in the tropical water, the kinds of problems and 
critters that they've got, microbial critters, are very 
different from those in Narragansett Bay.
    Senator Chafee. We're delighted that Senator Warner is 
here. Senator Warner has long had a deep interest in the 
quality of waters in the Chesapeake Bay.
    Senator if you have some comments or an opening statement, 
we'd be glad to hear it.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you. I appreciate the opportunity to 
say a few words.
    In 1981--I was elected to the Senate in 1978, 21 years 
ago--I started working on the Chesapeake Bay with a wonderful 
senator, Senator Mack Mathias, and Senator Sarbanes joined us.
    It appeared to be an impossible task, but we have made some 
progress. When I say ``we,'' Congress put in place appropriate 
legislation, then a lot of wonderful people sort of took over 
and have been trustees to make it happen. So I want to just 
read a few sentences here, if you don't mind.
    Since 1981, the Chesapeake Bay restoration program has been 
a voluntary Federal/State partnership. The Federal Government 
and States provide funds for the States to select control 
strategies to reduce the toxics. You know the basics of that.
    All of our efforts have been designed to improve the water 
quality and better manage the living resources.
    Today, the structure of the Bay program is, I think, 
seriously jeopardized by the pending conflict between 
continuing the voluntary partnership efforts or leaving or 
being overtaken by Federal regulatory controls.
    We're concerned that the Bay agreement with the States is 
threatened by EPA's intention to issue regulatory controls on 
pollutants into the Bay. We've asked the--EPA intends to 
consider this partnership. Give us a little background on this 
and tell me what you want to do here.
    If I don't like it, we'll legislate against it.
    Mr. Fox. Senator Warner, the Chesapeake Bay, in many ways, 
has become a model for so many of the bay and estuary cleanup 
efforts----
    Senator Warner. Across the Nation.
    Mr. Fox [continuing]. Around the country. Being involved, I 
think, in one of your first press conferences in 1982 with 
Senator Mathias, I have been following it fairly closely since 
that time.
    Senator Warner. You were there?
    Mr. Fox. Yes.
    I would say that----
    Senator Warner. Were you with the EPA then?
    Mr. Fox. I was actually with an environmental organization 
at the time.
    Senator Warner. Good for you.
    Mr. Fox. Looking at what the Chesapeake Bay has done, I 
think one of the most shining examples is the commitment to 
reduce nutrient pollution by 40 percent by the year 2000. It 
was, in fact, a voluntary agreement reached by the political 
leadership at the time that included a number of Members of 
Congress, as well.
    Senator Warner. We embraced Maryland, Virginia, the 
District of Columbia, and reached up into Delaware.
    Mr. Fox. And even up into New York State. Right.
    Senator Warner. Yes.
    Mr. Fox. And that 40 percent reduction goal represented at 
the time an understanding of the elected officials as to what 
would be a doable and cost-effective action that we could take 
to achieve a water quality end point in the Chesapeake Bay.
    Our understanding of that has improved over time, and 
scientists today are evaluating, ``Well, is 40 percent enough? 
Do we have to do more than 40 percent?''
    What EPA's regulatory program is looking to do in the 
Chesapeake and around the country is to make a connection 
between a scientific-end point, what is adequate for healthy 
water, and then what is the pollution reduction necessary to 
achieve that scientific end point?
    In the Chesapeake, like other waters around the country, we 
are doing this process that we call ``load allocations.'' How 
much pollution should be discharged? And we are, in fact, in 
the process of developing new regulations that would set in 
place the framework for this system to take place around the 
country.
    These regulations, it is my hope, will allow for cost-
effective pollution control and will result in pollution 
trading that happens between point sources and nonpoint sources 
so that we can figure out as a society what is the most 
effective way to get to that end point.
    These regulations will be proposed in draft form some time 
in the next, probably, 3 weeks, and we will, obviously, go 
through a very extensive public comment period. We have been 
spending a good deal of time in the Chesapeake Bay watershed, 
in particular, trying to work with State officials so that we 
can come to agreement as to how these regulations will be 
implemented.
    Senator Warner. It certainly is a commendable objective, 
and I'm certain that all involved in this would agree that we 
should re-examine the 40. If it's not the correct percentage, 
then pursue, presumably, a higher one. But we would not want to 
go back and reverse this really magnificent State/Federal 
partnership, together with voluntary organizations.
    So can you assure this committee that the regulatory 
framework will not vitiate the legal framework established by 
the States, together with the voluntary organizations?
    Mr. Fox. I can assure you that there will be nothing in the 
regulations that will in any way, shape, or form undo a lot of 
the progress that has been made in the Chesapeake. Our goal is 
nothing more than to build on this.
    Something important to keep in mind is that I'm watching 
around the country as more and more water bodies are taking on 
these very difficult challenges. In Senator Lieberman's Long 
Island Sound, they have agreed to nitrogen reductions that 
surpass that of the Chesapeake Bay.
    I was down in the Mississippi Delta, or the Delta of the 
Mississippi, as I was corrected, realizing that there is an 
oxygen problem at the mouth of the Mississippi that is about 
the size of New Jersey where they don't have enough oxygen for 
fish to survive. This will ultimately require nutrient 
reductions in the Mississippi River.
    So I am hoping that we can put in place a sensible 
framework so that we can start addressing these problems 
nationwide.
    Senator Warner. All right. And I accept your proffer on 
behalf of the distinguished administrator, but I assure you 
that I am going to keep a watchful eye, Mr. Chairman and 
members of the committee, and I will communicate with you 
directly.
    Let me just read this. Ann Loomis has been with me 
throughout this program. She said----
    Mr. Fox. I remember her in the early 1980's, too.
    Senator Warner [continuing]. The Bay States will have no 
need to confine the Bay agreement if EPA sets its own 
standards. The trouble is I can't read her handwriting in most 
instances. Have I got that right, Ann? How about that?
    Mr. Fox. Senator, our goal is to work in unison with the 
Bay States. We have had, I think, as of now, at least three or 
four meetings specifically on this question of bringing our 
regulatory program together with the voluntary program of the 
States, and I'm very hopeful that we will be able to work 
something out.
    Senator Warner. I will watch it very carefully. I thank the 
Chair. I thank you, Mr. Fox.
    Mr. Fox. Thank you.
    Senator Warner. We look forward to working with you.
    Senator Chafee. Thank you, Senator.
    Senator Lautenberg.
    Senator Lautenberg. I just want to focus on one thing that 
was said by my good friend from Virginia, and that is that we 
all have an interest in what goes on in a place like the 
Chesapeake because, not much different than clean air--I mean, 
it travels. It goes all over the place. And so we want to make 
sure that our interests, other States, are also protected when 
we are doing pollution cleanup or reductions, as may be.
    Now, Senator Chafee asked an interesting question. He said, 
``Might there be different standards for different areas?'' But 
aren't we working with bacteria, to eliminate bacteria 
pollution that, regardless of where it shows up, unless some of 
our States start developing people with scales, it is obviously 
going to affect human beings in similar fashion? Is that not 
the case?
    Mr. Fox. That is true. The tension becomes as to the kinds 
of microorganisms you are testing for and the different test 
methods that apply and how they grow in different waters.
    What we've tried to do at EPA is to develop some uniform, 
national testing procedures that would give us a strong sense 
of confidence in a standard that would protect public health. 
My comment to the chairman was simply that some States have 
developed equally valid scientifically supportable variations 
of this, depending on their local conditions.
    One of the classic differences is in water temperature, and 
trying to test for microorganisms in Florida is very different 
than in Maine.
    Senator Lautenberg. Right, but the measurement of the toxic 
material, if I can call it that, is a toxic material, and it is 
not good for people in New Jersey and it is not good for people 
in Hawaii and it is not good for people in Rhode Island.
    So if we're talking about approaches or how you determine 
what the threats are, that's one thing. But if you're talking 
about what the ultimate objective is, I don't see----
    Mr. Fox. That's correct.
    Senator Lautenberg. Thanks so much, Mr. Chairman. Thanks, 
Mr. Fox.
    Senator Chafee. All right. Fine.
    I want to thank both of you very much for coming here. 
Obviously, we will be having more contact as we go along, 
because it is--I think you are going to see action on all these 
bills that we have before us.
    Thank you.
    Now, the next panel consists of Mr. Pagliughi--perhaps 
you'd like to introduce the mayor, Senator.
    Senator Lautenberg. I would.
    Senator Chafee. And Mr. Ted Danson, president of the 
American Oceans Campaign; Ms. Linda Shead, executive director 
of Galveston Bay Foundation; Richard Ribb, Narragansett Bay 
estuary program; Michael Hirshfield, Chesapeake Bay Foundation; 
and Len Bahr.
    All right. We'll start with the mayor. Senator, if you'd 
like to introduce him?
    Senator Lautenberg. I just want to say that I welcome Mayor 
Pagliughi here. We spend time together, not fighting over 
disparate partisan issues, but rather on what we do to keep the 
ocean clean and how we continue to attract people to use that 
wonderful facility known as the ocean.
    The mayor has several distinctions, not the least of which 
is that they have the lowest tax rate in the county, which is 
pretty impressive because the town continues to develop and 
take care of its citizens in really good fashion.
    Senator Chafee was Governor, and he knows that when you're 
in a job, not like the ones we presently have, but where you 
meet the people, you know immediately whether you're doing a 
good job, and Mayor Pagliughi always gets good response.
    I also, Mr. Chairman, would take a minute to welcome Ted 
Danson. We appreciate your views and the fact that you are 
president of the American Oceans Campaign. With the 
considerable attention that you bring when you appear like this 
and lend your weight to a project, it means something. We are 
delighted to have you here with us. Thank you.
    Senator Chafee. All right.
    Mayor, won't you proceed, please? You know the ground 
rules. Stay within the 5 minutes.

   STATEMENT OF HON. MARTIN L. PAGLIUGHI, MAYOR, BOROUGH OF 
                           AVALON, NJ

    Mayor Pagliughi. Mr. Chairman, my name is Martin Pagliughi. 
It's Irish, that name.
    Senator Chafee. OK.
    Mayor Pagliughi. I'm the mayor of Avalon, NJ, a barrier 
island tourist community, and a board member of the American 
Coastal Coalition, and I'm very pleased to be here today and 
thank Chairman Chafee and ranking member of the committee, 
Senator Baucus of the Public Works Committee, for the 
invitation to testify here today.
    I also express my sincere appreciation to Senator 
Lautenberg for the opportunity to speak in support of his BEACH 
Act, which proposes to establish uniform testing of marine 
recreational waters and which will establish a nationwide 
standard for notifying the public when these waters are 
contaminated.
    The Senator's bill provides for swift implementation of the 
testing program, which is imperative. I'm very proud of the 
fact that since 1985 New Jersey is the only State to have 
mandatory beach protection program that includes bacteria 
standards, a monitoring program, and mandatory beach closure 
requirements when the bacteria standard is exceeded, but I am 
also appalled that 14 years later we still do not have a 
nationwide mandatory testing program for our recreational 
waters, which is so critical, and it impacts, No. 1, public 
health and, No. 2, the U.S. economy.
    Does it make any sense to carefully monitor foods and drugs 
in this country to protect public health, yet permit people to 
swim in untested recreational waters? We know for a fact that 
waters can appear clean but may harbor many life-threatening 
pathogens.
    You may recall that in 1987 and 1988 New Jersey experienced 
beach closings due to trash and medical waste washing up on our 
shore, losing almost $3 billion in tourism revenues. 
Unfortunately, those tourists who left to go elsewhere had no 
assurance of the quality of water where they went because 
neighboring States had no similar testing programs.
    To regain our previously loyal beachgoers, obviously we had 
to fix a variety of pollution problems. This we have done.
    Last week, the National Resource Defense Council announced 
that beach closings in New Jersey were at a record low, but 
without the cooperation of the coastal monitoring program that 
would not have happened.
    Here's how the program works in Avalon: the county health 
department samples the water quality weekly at 10 recreational 
sites from mid-May through mid-September, testing for fecal 
coliform and enterocci bacteria. If the bacterial count of 
these sites is above the permissible limit, the beach is closed 
to swimmers. This means large signs are posted advising bathers 
that they are not permitted to swim, and lifeguards remain on 
duty to inform the public and keep them from entering the 
water.
    Obviously, beach closings are not a PR-plus for the tourist 
community, but they are a must when you are protecting the 
health and welfare of our visitors, which is first and 
foremost.
    Fortunately, in Avalon we have not had a beach closing in 
years, but this is not by accident. Since 1991, Avalon has won 
seven of the eight Quality New Jersey Shore Awards for steps it 
has taken to prevent pollutants from entering recreational 
waters.
    With the threat of possible beach closings, we have taken 
those steps necessary to assure that the water quality remains 
excellent. During the last decade, Avalon has spent millions of 
dollars to prevent nonpoint source pollution, which is the 
primary cause of pathogens entering recreational waters. Major 
expenditures have been made on equipment to clean beaches, 
streets, catch basins, and on projects such as storm water 
disposal system rehabilitation, repair and reallocation of 
outfall lines, manhole cover repair, the installation of tide 
flex valves on storm water outfalls, required capping of all 
sewer vents, and TV inspection of all of our infrastructure.
    Avalon has taken these projects with little outside help, 
but Senator Lautenberg's legislation, which includes $9 million 
in grants to the States, should help get the ball rolling.
    By enacting this legislation, you will send a message to 
the world that we in the United States care about the public 
health of our tourists who visit our beaches.
    I would remind you that the No. 1 tourist designation in 
the United States is the beach, with coastal States receiving 
about 85 percent of all tourist-related revenues, generating 
billions of Federal tax dollars.
    Foreign tourists who prefer the United States' beaches 
create significant trade surpluses; therefore, it is incredible 
to me that our Federal Government makes such a feeble effort to 
support, promote, and improve our national beaches and 
recreational waters. In the future we will pay for such a lax 
attitude.
    Meanwhile, other countries who wish to compete are hard at 
work. From 1950 to 1993, the U.S. has subsidized only $15 
million in shore restoration projects, versus Germany, who has 
spent $90 million. Spain has spent $250 million, and Japan has 
spent $1.4 billion.
    If we are going to maintain an edge in the world tourism, 
we must be able to give visitors assurances that we have the 
world's best beaches and that United States' recreational 
waters are monitored uniformly and consistently. They must know 
that if there is a problem they will be advised and prohibited 
from entering those waters that could be dangerous to their 
health.
    That's why the Federal Government must immediately begin to 
address the quality of its beaches and recreational waters. We 
are meeting that challenge in New Jersey, and I am here today 
in support of Senator Lautenberg's BEACH Act, which would make 
the water quality testing mandatory nationwide.
    It is time this Nation begins to protect and enhance one of 
the most economically vital assets we have--its beaches and 
recreational waters.
    Again, my sincere thanks to you, Mr. Chairman, for allowing 
me to speak here today. I also thank Senator Lautenberg for the 
invitation. The borough of Avalon supports his beach bill 100 
percent.
    Senator Chafee. That's very interesting, what you've done 
in Avalon and the expenditures you've made, and you've listed 
them there in your speech, in your remarks. It is impressive 
what you've done.
    Mr. Danson, president, American Oceans Campaign.
    Mr. Danson.

    STATEMENT OF TED DANSON, PRESIDENT, THE AMERICAN OCEANS 
                            CAMPAIGN

    Mr. Danson. Mr. Chairman and members of the committee, good 
morning. My name is Ted Danson. I am the president and co-
founder of the American Oceans Campaign.
    American Oceans Campaign is a national, nonprofit 
organization based in Santa Monica, CA, and is dedicated to 
protecting and enhancing our Nation's oceans and coastal 
resources.
    On behalf of AOC and the many other organizations that 
endorse the BEACH bills, I wish to express my thanks to 
Senators Chafee and Baucus and the other members of this 
committee for inviting me to testify today on the BEACH bills.
    I also commend Senator Frank Lautenberg and the other 
cosponsors of S. 522 for their determined leadership in 
addressing the problems of inconsistent testing and public 
notification of unhealthy beach waters.
    Since the early 1990's, American Oceans Campaign has 
focused significant attention on the health of recreational 
beach waters. Health risks associated with the presence of 
human and animal wastes in our beach waters are persistent due 
to leaking septic systems, inadequate sewage treatment, storm 
water pollution, and agricultural runoff. Unfortunately, 
families often do not know when it is unsafe to hit the surf.
    This year, AOC, the Surfrider Foundation, the Center for 
Marine Conservation, the Clean Water Network, and many other 
organizations were strong advocates for the passage of H.R. 
999, the Beaches Environmental Assessment, Cleanup, and Health 
Act of 1999, the BEACH bill.
    On Earth Day, House of Representatives unanimously passed 
this bill. We are now all diligently working to promote swift 
passage of the BEACH bill in the Senate.
    This summer, thousands of adults and children will swim, 
snorkel, surf, or wade in the beach waters that, unbeknownst to 
them, are contaminated by disease-causing microorganisms. These 
pathogens may cause a variety of illnesses, including 
gastroenteritis, hepatitis, and eye, nose, and throat 
infections. Bouts with these ailments can quickly ruin a family 
vacation or a weekend getaway and can cause a person to miss 
work or school.
    To protect themselves from harmful pathogens, swimmers must 
rely on beach water quality tests, often conducted by local 
public health agencies. Unfortunately, the testing standards 
vary significantly, and often vary within a State. Several 
States do not regularly monitor their beach waters for pathogen 
contamination, and only a minority of States and local 
communities consistently notify the public about poor beach 
water conditions. Last year, more than 7,000 beaches were 
closed due to polluted beach waters. More troublesome is that 
countless other beaches were not even posted when swimming 
could cause illness.
    For example, the ``Miami Herald'' reported last Friday that 
the waters off Fort Zachary Taylor Beach on Key West had three 
times more than the acceptable amount of disease-causing 
pollution, yet the county health department decided not to post 
a warning.
    To improve the flow of information about polluted 
recreational waters and to provide uniform protections for 
beachgoers, American Oceans Campaign, along with other 
conservation organizations, strongly supports a national BEACH 
bill. A BEACH bill will ensure that States have adequate beach 
testing programs to protect citizens from health risks, while 
allowing States flexibility in determining beach closures or in 
implementing stricter standards.
    American Oceans Campaign would like to once again thank 
Senator Lautenberg and Representatives Bilbray, Pallone, and 
Boehlert for their tireless leadership on this issue.
    A BEACH bill will allow us to protect ourselves and our 
children from disease-causing pathogens by setting national 
beach water quality criteria, establishing nationwide 
monitoring programs, and ensuring prompt public notification of 
contamination.
    The language of Senator Lautenberg's bill, S. 522, is based 
on prior BEACH bills introduced by the New Jersey delegation 
over the past decade. It requires States to adopt beach water 
quality standards that are consistent with current EPA 
criteria. Under S. 522, should a State not adopt the current 
standards, EPA criteria will be deemed promulgated and becomes 
the State's water quality standard.
    The bill also calls for EPA to promulgate regulations 
addressing beach water monitoring and public notification.
    By comparison, the House bill, H.R. 999, requires States to 
adopt standards that are as protective of human health as the 
EPA beach water quality criteria. If a State fails to adopt 
such standards, EPA must promulgate regulations establishing 
the beach water quality standards for that State.
    The House bill also differs in that it requires EPA to 
establish performance criteria for beach water monitoring and 
notification.
    Though performance criteria aren't legal requirements, 
States, tribes, or localities must design programs that meet 
the criteria in order to receive Federal grants for their beach 
water testing programs. For example, if a locality does not 
propose an appropriate plan, it will not get any money to run 
the BEACH program. In that case, EPA must eventually conduct 
the monitoring and notification activities for that area.
    Mr. Chairman, both BEACH bills promote a nationwide 
commitment to ensure beachgoers receive the basic information 
needed to protect themselves and their families from harmful 
pathogens.
    The BEACH bills also alert communities about concentrations 
of coastal pollution. Although neither version of the bill 
contains provisions to act against polluters, the monitoring 
and notification process will empower local governments and 
States to be better stewards of beaches.
    I urge this committee to support passage of the BEACH bill 
in the Senate, because a day at the beach should not end up 
with a trip to the doctor.
    I'd just like to add that 10 or 11 years ago I, myself, 
took my children to Santa Monica Beach, Will Rogers State 
Beach, and bumped into one of those signs, you know, ``Water is 
polluted, no swimming.'' It changed my life forever. It turned 
me into an activist, for which I am forever grateful. So not 
only do you protect public health, but you offer the public an 
opportunity to become part of the solution. You will inform 
them and give them the right to get involved, which I think is 
one of the most exciting parts about these bills.
    I'd like to thank you, Mr. Chairman, for providing this 
opportunity.
    Senator Chafee. Thank you, Mr. Danson.
    Senator Chafee. I think the approach of that legislation, 
holding out the carrot--in other words, if the State will agree 
to this monitoring, then they will get a subsidy for it. If 
they don't want to do it, obviously you're running into a 
State's rights problem here. Is Washington trying to tell 
people how to do things? If they don't want to do it, then, of 
course, they don't get the money, as I understand the 
legislation.
    Mr. Danson. For the House bill, yes.
    Senator Chafee. That's the House bill, is it?
    Mr. Danson. Yes.
    Senator Chafee. Well, it seems to me to make sense.
    All right. Fine. Thank you very much.
    Now Ms. Linda Shead from the Galveston Bay Foundation.
    Ms. Shead, we welcome you.

  STATEMENT OF LINDA SHEAD, EXECUTIVE DIRECTOR, GALVESTON BAY 
      FOUNDATION, ON BEHALF OF RESTORE AMERICA'S ESTUARIES

    Ms. Shead. Thank you. Good morning.
    On behalf of the Galveston Bay Foundation and Restore 
America's Estuaries, thank you, Senator Chafee and other 
members of the committee, for the opportunity to present strong 
testimony on behalf of Senate bill 835, the Estuary Habitat 
Restoration Partnership Act. I am privileged to be here before 
you today.
    My name is Linda Shead, and I am executive director of the 
Galveston Bay Foundation, a nonprofit organization in Galveston 
Bay, TX, and our mission is to preserve and enhance the Bay for 
its multiple resources.
    I am also a member of the board of Restore America's 
Estuaries, which is an alliance of 11 regional groups, each of 
which devotes a substantial part of its efforts toward 
protection and restoration of our Nation's estuaries, and it is 
to represent these vital national estuarine resources where the 
rivers meet the sea that Galveston Bay Foundation and Restore 
America's Estuaries are here before you today.
    The geographical sweep of the Restore America's Estuaries 
alliance is revealed most clearly in the testimony, the written 
testimony that you have--11 groups in 16 States around the 
Nation's coastline in the estuaries that receive the waters 
that drain the vast majority of the Nation's land surface.
    The alliance represents a combined membership of 250 
members.
    The vital importance of the Nation's coastal estuary 
resources is well documented and has been mentioned in various 
testimony and in Senator Chafee's opening remarks here today.
    In Galveston Bay, for example, three-quarters of North 
America's bird species can be seen around the Bay at some time 
during the year.
    Without the habitats, estuaries would be virtually dead and 
the vibrancy that provides so many of our coastal communities 
would be ended.
    Estuarine habitat is the lifeblood, as mentioned earlier, 
of 75 percent of all commercial fish species, and the 28 
million people that depend on these fish species for their 
livelihood and for economic impact.
    The losses are also well documented. In the estuary I know 
best, Galveston Bay, we've lost 30,000 acres of wetland habitat 
in the last 40 years. We only have 700 acres of sea grasses 
remaining.
    In Louisiana, as you've heard earlier, the losses are 
measured in square miles per year.
    In Narragansett Bay, 70 percent of the eel grass beds lost, 
50 percent of the marshes.
    In the Hudson Raritan Estuary, 80 percent of the wetlands 
lost.
    Long Island Sound, 40 percent of the wetlands lost.
    San Francisco Bay, 95 percent of the original marsh lands 
gone.
    In the fisheries we have the example of Chesapeake Bay, 
mentioned earlier, from 1959 to 1989 going from 25 million 
pounds to 1 million pounds of oysters.
    These are astounding statistics. They demand action. 
Fortunately, we still have time to act, but we need to start 
now to turn the tide on this devastating trend and actually 
foster the rebirth of our estuaries and their critical 
wetlands.
    We believe S. 835 is an essential part of any coordinated 
and effective plan of action to do this. Where S. 835 can play 
a particularly important role is in helping provide leadership 
and resources to allow the Nation's coastal regions to seize 
restoration opportunities, which must be acted on if the 
biological productivity of the Nation's coastline is to begin 
to recover.
    We need the Federal participation and the enhanced funding 
in a partnership that includes individual citizens, nonprofit 
organizations, private businesses, local and State governments. 
I won't spend a lot of your time going over the legislation, 
but there are some key words I'd like to highlight for you. One 
is that we do get new Federal resources, but they leverage 
local and State resources.
    The projects are driven from the community up. They are 
based on watershed-based planning. They build on existing 
plans, like the national estuary program, but they get to work 
restoring our estuaries. They help build a new level of 
streamlining and coordination, including bringing the Corps 
into the process.
    We believe that S. 835 will be an important part of helping 
to lock in and advance the real and important change in the 
stated goals of the Corps of Engineers to work on coastal 
restoration.
    The bill takes the Corps at its word and then builds a 
strong collaborative process. Restore America's Estuaries 
members are committed to helping you move forward with S. 835 
in a bipartisan effort, with strong, diverse stakeholder 
support, and get it enacted into law this year.
    The bill is a vital component of our efforts to bring back 
healthy conditions, not only in Galveston Bay but in 
Narragansett Bay and Long Island Sound and Puget Sound and all 
around the Nation.
    Galveston Bay is my home. It's the watershed where I live. 
It's where I work. It's where I recreate. I want our quality of 
life and our economy and our children's future protected. S. 
835 can help us accomplish this vital task and help ensure a 
secure and bountiful future.
    On behalf of Restore America's Estuaries, thank you very 
much for the opportunity to be here, and thank you, Senator 
Chafee and all the members of the committee, for your vision 
and leadership in bringing this bill forward. It is important 
to get this very good bill into a very good law this year.
    Thank you very much.
    Senator Chafee. Well, thank you very much, Ms. Shead.
    Do you believe you can take steps to stem this terrific 
loss that I think you--Galveston Bay lost 30,000 acres of marsh 
habitat in the last 40 years. Only 700 acres of sea grasses 
remain. What do you do? How do you bring it back?
    Ms. Shead. Well, there are several things that are going on 
right now in Galveston Bay. Most of our losses are a result of 
subsidence from groundwater withdrawals for municipal and 
industrial drinking water. We've halted those groundwater 
withdrawals around the bay and subsidence has halted. But, 
unfortunately, that subsidence has set in motion a process 
drowning the marshes and setting up increased erosion on our 
shorelines, and so now we have to go back in and protect those 
shorelines and restore those elevations.
    Senator Chafee. How do you do that?
    Ms. Shead. We're doing that in several ways. Sometimes we 
are trying some projects this year that are being piloted using 
geotubes in some areas to protect--that's a big, mud-filled 
sock out on the shoreline--to help slow down the wave energy. 
We're trying some techniques that have been used in Louisiana--
terracing, where you build a series of levees in an open, 
square pattern that then can slow down the wave energy and help 
restore the marshes.
    So if we can have the resources, once these methods are 
tested and shown to be effective in our bay system, then we can 
hope to keep doing that around the bay shorelines.
    Senator Chafee. Do you perhaps use the sea grasses to help, 
too?
    Ms. Shead. Yes, we do use sea grasses. For a long time, 
Galveston Bay has not had the water quality that would allow 
the sea grasses to come back. We've had so much stirring up of 
the bay bottom and so much sediment washing down that the water 
wasn't clear enough to support sea grasses, but we are in a 
project with National Marine Fisheries Service this year to 
start doing some sea grass restoration in Galveston Bay.
    Senator Chafee. Well, I hope you have success.
    We're delighted Senator Lieberman is here.
    Senator if you want to make a few comments right now, this 
would be a good time, or we can wait until a little later. It 
is up to you.
    Senator Lieberman. It's your pleasure, Mr. Chairman.
    Senator Chafee. Why don't you go ahead and make your 
comments?

        OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. That's very kind of you, and I will, 
therefore, begin by thanking you both for holding today's 
hearing on coastal habitat restoration and water quality, also 
on the leadership that you've shown over the years and again in 
this session on this very, very important matter. I am proud to 
be a cosponsor and a very strong supporter of your bill, the 
Estuary Habitat Restoration Partnership Act.
    Many of us feel very strongly and share your view that our 
estuaries are true national treasures, for without healthy and 
productive estuaries like Narragansett Bay and Long Island 
Sound, the quality of life in our States would be greatly 
diminished.
    The success of the national estuary program is, I think, 
amply demonstrated by the enormous improvement in the quality 
of Long Island Sound, which, of course, is critically important 
to our State.
    In 1985, Congress directed New York and Connecticut to 
establish a Long Island Sound study in order to assess the 
water quality of the Sound. Two years later, the study became 
one of six original estuaries designated under the Clean Water 
Act's national estuary program. Citizen advisory and management 
committees were established to coordinate the study and ensure 
local input.
    By 1994, the comprehensive conservation management for the 
Sound was complete and approved in an agreement by EPA and the 
Governors of New York and Connecticut to implement the plan.
    So we have seen a Federal and State government partnership 
which has shown dramatic effect. I mean, it reminds me of what 
I think Greg Esterbrook wrote in his book, which is that 
environmental protection is probably the singlemost successful 
government program, he said then in the post-war period, the 
post Second World War, I think leaving Social Security to be 
noted for the pre-war period.
    But in the Sound this program has restored fish 
populations, is restoring them, that have been impacted, 
improving and restoring degraded wetlands, and beginning to 
address the toxic mercury pollution that has led to health 
advisories.
    This has all been the result of Federal, State, and private 
funds which I think have been extraordinarily well-spent, and 
set us now ready to go to the next phase of the national 
estuary program by leveraging cost-shared Federal funding for 
the implementation of these conservation plans.
    So, Mr. Chairman, again I thank you for your leadership 
here. There are several ways in which I hope Congress will pay 
appropriate tribute to you for your years of remarkable and 
constructive service, and I hope one of them is that we pass 
this legislation, and I look forward to working with you and 
other members of the committee of both parties toward that end.
    Thanks very much for your courtesy.
    Senator Chafee. Thanks very much, Senator. There are some 
good bills before us, and I'm confident that we can work as a 
committee and come up with some amalgamation of these various 
proposals and get something done, and I think there is a chance 
to do something really constructive.
    Senator Voinovich, I apologize for not calling on you 
earlier. If you have a few comments, now is the time.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    First of all, some may be surprised that I am familiar with 
estuaries and some of the problems that some of the witnesses 
have been talking about, but one of the things that I am very 
proud of in my career is the battle to save Lake Erie. We had 
the War of 1812, and we won that battle with the English, and 
the question was whether we could save Lake Erie again.
    I think that one of the real wonderful things that has 
happened in this country is we brought it back from the days 
when it said it was going to be a dying lake.
    In terms of estuaries on Lake Erie, we do--Old Woman's 
Creek. We know how important that is in terms of our water 
quality and wildlife habitat, and it is a--it's not as 
extensive as some of the ones, Mr. Chairman, that have been 
talked about here, but it is significant.
    I'd like to mention that many of our States are doing a 
good job in terms of paying attention to their beaches and to 
erosion and trying to do what they can with their resources to 
be responsible.
    One of the things that some of you might be interested in 
is that a major project that we undertook for Lake Erie was the 
Lake Erie quality index, where we went through and established 
indicators as to where we are with water quality, pollution 
sources, habitat, coastal recreation, boating, and so on down 
the line, with the idea that we could go back and we could 
monitor our performance in terms of where we are with these 
respective indexes.
    So often what happens is we just keep talking, but we don't 
have a baseline or a benchmark to reach toward, and it seems to 
me, Mr. Chairman, that any legislation that we're talking about 
contemplating doing ought to be involved with some connection 
with the States, whether it is a carrot type of thing, but some 
coordinated type of activity, recognizing that our States 
really do have the major role in taking care of this problem, 
and perhaps in some States, where maybe they aren't paying 
attention, the fact that we do offer a carrot may cause them to 
step forward and to start taking some steps that they ought to 
be taking in their respective States.
    So I am pleased to be here today and to hear some of this 
testimony, and hopefully we can do something constructive in 
this area to improve this situation across the country.
    Senator Chafee. Thank you very much, Senator. That's very 
interesting, the system you set up for monitoring the States 
and the grading system that you had worked out, which sounds 
very interesting. I think it is good, because then you can see 
how you are doing. Thank you.
    I would hope you would remember that the victor at the 
Battle of Lake Erie was Oliver Hazard Perry from Rhode Island.
    [Laughter.]
    Senator Chafee. All right. Mr. Ribb, director, Narragansett 
Bay Estuary Program from the Department of Environmental 
Management in Rhode Island, on behalf of the Association of 
National Estuary Programs.
    Mr. Ribb, go to it.

 STATEMENT OF RICHARD RIBB, DIRECTOR, NARRAGANSETT BAY ESTUARY 
 PROGRAM, RHODE ISLAND DEPARTMENT OF ENVIRONMENTAL MANAGEMENT, 
   ON BEHALF OF THE ASSOCIATION OF NATIONAL ESTUARY PROGRAMS

    Mr. Ribb. Good morning, Senator Chafee and members of the 
committee.
    I'd like to thank you for the opportunity to appear here 
this morning.
    I'm here to present testimony on behalf of the Association 
of National Estuary Programs. This association includes 
representatives of industry, agriculture, tourism, community 
and citizen groups who volunteer their time and effort to 
implement the management plans that have been created through 
the National Estuary Program. We appreciate the opportunity to 
provide information to the committee.
    I also would like to give a little perspective on the local 
National Estuary Program does, such as we do in Narragansett 
Bay and on what the bills here that are being discussed here 
today mean to these community-based programs.
    You've heard from previous witnesses about the challenges 
we face in the estuaries, and we believe the National Estuary 
Programs have proven to be a successful approach for addressing 
many of these problems.
    The collaborative, science-based estuary plans where all 
interested parties work together to create local solutions for 
local problems have been developed over the last dozen years. 
Senator Chafee, of course, was a leader in getting this program 
going.
    We have had a lot of support from citizens in our 
watersheds, and we hope to continue work that is valuable to 
local communities.
    In regards to the association's position on the bills 
discussed today, we'd like to focus on two bills--Senator 
Chafee's bill, S. 835, and Senator Torricelli's bill, S. 878.
    We applaud the collaborative approach and the commitment of 
Federal funding that S. 835 will bring. This commitment will be 
very useful to the programs on the ground effecting habitat 
restoration. And Senator Torricelli's bill is a straightforward 
reauthorization of the National Estuary Program. Both of these 
increase funding for the program.
    The Association of National Estuary Programs strongly 
supports Senator Chafee's bill. We feel it would be a critical 
resource in meeting local restoration needs from across the 28 
estuaries and the Nation. The bill sets goals and creates a 
national strategy for habitat restoration and a significant 
Federal commitment of funding. We feel this would be very 
effective in making the Federal Government a real partner with 
the States and local communities in effective habitat 
restoration.
    We have three specific comments on the bill. First, we 
endorse the use of section 320 Clean Water Act funds for both 
plan development and implementation. We support a mechanism to 
increase regional and local input in the development of the 
national strategy and in setting criteria for the grant 
program. And we also support expanding the definition of 
Federal estuary management plans in the language of the bill to 
include the CCMPs or comprehensive management plans created 
through the National Estuary Program.
    In terms of Senate bill 878, the Association endorses the 
funding level that is described in that bill, and we believe 
that that level of funding would be a good investment, and I'll 
tell you why from the national estuary perspective that we feel 
it would be a good investment.
    The estuary program has had successful results, as you 
heard from Senator Lieberman, Senator Torricelli, and Mr. Fox. 
It is an excellent model for estuary management. It has been a 
laboratory and a testing ground for many of the watershed 
management techniques that are now being used across the 
country.
    It is a process that allows for meaningful public 
participation, and with that comes much more commitment from 
the local communities and local people.
    Some of the successes, briefly. Tampa Bay has had 3,000 
acres of sea grass restored or expanded, 400 acres of wetlands 
restored. Massachusetts Bay has had 600 acres of shellfish 
reopened. Indian River Lagoon in Florida, 40,000 acres of marsh 
and mangrove wetlands reconnected.
    We have been restoring habitat for oysters, clams, salmon, 
trout, heron, lobsters. It is a pretty extensive list.
    We have also been preparing in our estuaries in hope that 
this estuary habitat bill will pass, because it would give us 
the resources to work with to make significant progress.
    Included in our testimony is a chart which shows the 
leveraging ability of the National Estuary Program. In essence, 
what happens is that for every Federal dollar that we get from 
the Clean Water Act, section 320, we have been able to get two 
dollars of other funding, either State, local, private sector, 
or other sources, and we think that speaks for the 
effectiveness of the program, to direct those State and local 
and Federal resources together to address priority problems in 
the Nation's estuaries.
    We would ask that you look at NEP reauthorization and the 
estuary habitat bill as strongly linked. We feel that the 
funding included in the bill is the fuel for the work that we 
are doing in the estuaries, and that the NEPs are the vehicles 
in those nationally significant estuaries for effective habitat 
restoration.
    With that kind of stable funding, we can also address the 
emerging issues that our Governors and citizens are asking us 
to address--invasive species, sea level rise, and other 
factors, like water quality, that impact the effectiveness of 
estuary habitat restoration.
    So these bills are definitely critical to the health of the 
Nation's estuaries--we support them very strongly and if the 
Association of National Estuary Programs can assist in any 
manner, please call on us.
    Senator Chafee. Well, thank you very much.
    It is encouraging that so much is being done on the local 
scene working together, as you pointed out, with not only the 
organization you have, but the organization that was described 
by Ms. Shead.
    Next witness is Mr. Michael Hirshfield from the Chesapeake 
Bay.
    Mr. Hirshfield.

    STATEMENT OF MICHAEL HIRSHFIELD, SENIOR VICE PRESIDENT, 
                   CHESAPEAKE BAY FOUNDATION

    Mr. Hirshfield. Thank you, Mr. Chairman, members of the 
committee, for the opportunity to present testimony on behalf 
of the Chesapeake Bay Foundation in strong support of S. 492, 
the Chesapeake Bay Restoration Act of 1999.
    We would especially like to thank Senator Sarbanes and 
Senator Warner, as well as their colleagues in the Chesapeake 
Bay region, for their consistent and longstanding support for 
the Bay exemplified by the Bay Restoration Act.
    My name is Michael Hirshfield. I am the senior vice 
president of the Chesapeake Bay Foundation, which has its 
headquarters nearby in Annapolis, Maryland. CBF is a member-
supported, nonprofit environmental education and advocacy 
organization with over 80,000 members throughout the Bay 
watershed and nationwide. Our mission is simple--it is to save 
the Bay, to restore and protect the Chesapeake Bay and its 
watershed.
    Mr. Chairman, I have good news and bad news concerning the 
health of the Chesapeake Bay.
    About a year ago, the Chesapeake Bay Foundation released 
its first annual State of the Bay Report. If the Bay of 300 
years ago was considered 100 percent, we calculated that the 
Bay of 1998 was only 27 percent--bad news, indeed, in 
Chesapeake Bay--only a small fraction of what it once was and 
what it could be.
    But there is good news. We also concluded that, on balance, 
the Bay is in somewhat better shape than it was 15 years ago. 
Mr. Chairman, for the Bay to be even slightly better off than 
it was 15 years ago in the face of the pressures of population 
growth during that period is nothing short of remarkable, and 
it owes that improvement in no small measure to the hard work 
of the dedicated individuals from both the public and private 
sector led by the Chesapeake Bay program.
    Chesapeake Bay program has been described as a national and 
international model of a cooperative ecosystem restoration 
program. The relatively modest amount of Federal dollars 
devoted directly to the Chesapeake Bay program through the EPA 
are leveraged many times over by other Federal, State, local, 
and private dollars.
    We at the Chesapeake Bay Foundation have been critical of 
the Bay program in the past, and I'm quite confident we'll be 
critical of it in the future. I'm sure you'd be surprised and 
disappointed if we weren't.
    We are impatient, but we are also very respectful of the 
Bay program, and it is because of that respect that we are 
critical. We expect nothing less than the best from it.
    The Bay program has done a lot for the Bay since the 
1980's. At the present time, it is in the process of 
challenging itself once more to develop goals and objectives 
for the next decade and beyond. We will be urging the Bay 
program to set lofty goals, and we will be working hard to help 
achieve them, but to do the work of saving the Bay we need a 
solid framework for the Bay program.
    S. 492, the CBRA of 1999, provides such a framework. It 
reauthorizes the Bay program and provides it with the 
institutional resources necessary to carry out such an enormous 
task.
    We are pleased to see that it includes mechanisms to ensure 
good public accounting of its actions and expenditures. We 
believe that such public accounting mechanisms are essential to 
ensure public confidence in government leaders.
    We are also excited to see the new section on small 
watershed grants that will enable local government and 
community groups, including our own, to actively engage in 
active restoration.
    CBF is only one of the many organizations spending time and 
resources on Bay restoration under the umbrella of the Bay 
program. On behalf of all those organizations and groups who 
are not here today, I urge you to move rapidly to approve S. 
492 so that the effort to save the Bay can continue with 
renewed energy and momentum on into the next century.
    I would also like to take a moment to comment on some of 
the other legislation before you today. In particular, the Bay 
Foundation would like to thank you, Mr. Chairman, for 
introducing and working for passage of S. 835, the Estuary 
Habitat Restoration Partnership Act of 1999.
    Let me simply add my voice to my colleague and urge the 
committee to move swiftly to pass it.
    Finally, I would like to join my other colleagues on this 
panel in urging you to support passage of a BEACH bill in this 
Congress, as well as legislation that would restore coastal 
Louisiana and strengthen the implementation of plans developed 
by estuaries as part of the National Estuary Program.
    Thank you, again, for the opportunity to appear before you 
today.
    Senator Chafee. Thank you very much. I want to commend you 
and your organization. I think it is wonderful what you've 
achieved, and certainly, if I read correctly here, you have 
some 80,000 members.
    Mr. Hirshfield. That's correct.
    Senator Chafee. These are legitimate, dues-paying 
contributors?
    Mr. Hirshfield. Absolutely.
    Senator Chafee. Good. All right.
    The final witness--and I might say I think we've set some 
kind of a record here, and we're coming up to you, Mr. Bahr, 
not at 10 minutes of one, when everybody is hungry and 
desperate to get out of here, but with a leisurely 5 minutes 
of--about 11:05. So the floor is yours.

 STATEMENT OF LEN BAHR, COASTAL ADVISOR TO THE GOVERNOR, STATE 
                          OF LOUISIANA

    Mr. Bahr. Thank you, Mr. Chairman.
    On behalf of Governor Mike Foster and the State of 
Louisiana, I am very grateful to the committee and to you for 
giving us a chance to appear today and to share some thoughts 
on vital matters that you've already heard a lot about this 
morning.
    By the way, I'd like to put in a plug for Mr. Hirshfield. 
He put in a plug for Louisiana. I grew up in the Chesapeake Bay 
and worked there for 3 years, so I'm equally supportive of 
efforts to restore that estuary.
    My name is Len Bahr. I'm executive assistant to the 
Governor, and Governor Foster couldn't be here today and asked 
me to appear in his stead.
    Of course, the primary matter that I want to address today 
to you and the committee is a national crisis, an important 
piece of legislation, the reauthorization of the Coastal 
Wetlands Planning, Protection, and Restoration Act, or, as 
Senator Breaux has already told you, we refer to it in 
Louisiana as the ``Breaux Act.''
    Now, the importance of this act and its reauthorization is 
only recognized if you understand the problem that it was 
intended to address--that is, the calamitous loss of wetlands 
and barrier shorelines, coastal wetlands and barrier shorelines 
that are absolutely critical to our national interest.
    The Act, as it was written in 1990, recognized two 
indisputable facts--first, that the lands were essential to our 
ecological, cultural, and economic well-being; and, second, 
that regulatory and education programs, alone, are not 
sufficient to ensure sustainability of these vital lands.
    In other words, it was recognized that an active campaign 
to restore coasts around the country was absolutely essential, 
and we, of course, agree. Louisiana you've already heard has 
incredible losses that are--you heard the statistics. I would 
like to point out, to refer to your attention a map that I 
think was handed out to members of the committee that shows the 
coast of Louisiana in 1895 and then contrasted with 1990, and, 
as you will see, it is a shadow of its former self. It is a 
very compelling picture that is worth an awful lot of words.
    Before the Breaux Act was passed in 1990, we were 
literally--the coastal part of Louisiana was in a state of 
collapse, and there wasn't any real prospect of saving it, so a 
legacy of decades of leveeing, dredging, and draining--all 
large projects, many of them incident to Federal policies and 
programs, by the way--this was a coast in which the hydrology 
had been so altered that land was disappearing over 40 square 
miles a year.
    In 1989, the State, prior to passage of the Breaux Act, 
took its own unprecedented step. It created a multi-agency 
coastal wetlands restoration authority within the Governor's 
office. I am the chairman of that task force. And it created a 
dedicated trust fund from oil and gas severance taxes that 
support the work of this effort, but we couldn't do it alone. 
The complexity and enormity of the challenge really demanded a 
national effort and State and Federal effort if the tide of 
land loss was to be stemmed.
    Now, with the Breaux Act the complexion improved 
dramatically. I can't emphasize that enough. This act forged a 
working partnership not only between the State and Federal 
Government, but also among Federal agencies that have, as we 
all know, have had a long history of working at cross purposes 
sometimes.
    In the 9-year history of this Act, it has been responsible 
for--and I know this. I have been involved since it began--it 
has been responsible for unprecedented partnering and 
comprehensive planning.
    Most recently I'll call your attention also to a passage of 
the coast 2050 plan, which I think you were all given copies of 
the executive summary. It's very dramatic.
    So this Act has led to development and implementation of a 
generation of restoration and protection projects, but also a 
lot more than that. I want to point out a few salient facts of 
the history since this Act began.
    During the first 8 years--and we are now in the ninth year 
of the Breaux Act--the Federal/State task force that I sit on 
for the Governor has approved about 85 projects, about 60 
percent of which have been completed or are under construction. 
The remainder of the projects are in various stages of planning 
and design.
    That's great. I mean, we are very proud of these and we 
couldn't have done it on our own. But these projects are 
expected to result in a 15 percent reduction in projected land 
loss over the next 20 years. That's very good progress. It is 
still far from where we have to be ultimately.
    Second thing, the Breaux Act created a working partnership 
between and among five Federal agencies, the State of 
Louisiana, and local governments, landowners, business, and 
interest groups.
    the Act garnered an extraordinary level of public support, 
and this Coast 2050 planning is a good example of that. We met 
endlessly with local interests and local governments and got a 
consensus that I've never seen happen before.
    The Breaux Act spurred the development and dissemination of 
scientific and technical information about the nature of the 
problem and its solution, and I think this--what we've learned 
in coastal Louisiana is definitely relevant to other coastal 
areas around the world, particularly other delta systems that 
are threatened like ours is.
    The Breaux Act is responsible for the development, of 
course, of this plan, which is a blueprint for recreating a 
sustainable coast in 50 years, and I've already talked about 
the consensus it achieved.
    The Breaux Act spawned a recently completed major 
feasibility study of restoring a system of barrier shorelines 
along the most-threatened part of our coast. Our barrier 
islands and shorelines are particularly threatened.
    The Breaux Act plans and partnership have been the basis 
for the State of Louisiana's recent commitment of significant 
additional funds. We are trying to do our share, to the extent 
that we can, to ensure the State's ability to be a true and 
effective partner with the Federal Government.
    Now, this partnership has produced benefits that go way 
beyond just developing restoration projects. I want to 
emphasize that. We're not just about projects. The program has 
increased the effectiveness of all agency regulatory and 
resource management programs by focusing agencies on a common 
set of goals and objectives for the coastal area.
    And, last, our initial small-scale river diversion projects 
are proving to be especially effective.
    Mr. Chairman, you asked some of the other witnesses what 
they can really do, and the river is the key in our case. We've 
got to reconnect the river through diversions and other things 
to the delta that it was cutoff from, which would set this 
whole process in place.
    The history of success that I've described warrants 
extension, and the true measure of the Act I think is much more 
than a list of milestones. It is best measured in the 
foundation that it has created, and it has provided a true 
sense of collective responsibility for the stewardship of a 
vital national treasure, and it is the foundation upon which 
all future work will build. It has worked well, but it has much 
more to do.
    The State and Governor Foster strongly urge you to allow 
this effort to continue.
    In addition to the reauthorization of this Act, I want to 
also, Mr. Chairman, support strongly the Estuary Habitat 
Restoration Partnership Act that you are the sponsor of. I 
think this is very complementary to the Breaux Act. It would 
authorize a program that would complement Breaux and the 
National Estuary Program that has been described already. It 
would authorize a non-regulatory, competitive grant program, it 
would broaden the partnering circle to include local 
governments, landowners, and interest groups, and focus on 
estuarine habitats of all types, not just marshes, but the 
marshes and swamps, submerged grass beds, reefs, and others.
    It is very well-conceived, it is implementable, and it is 
cost-effective and very much needed.
    Again, I thank you for allowing us to share our experience, 
and we will be glad to offer you any assistance we can.
    Senator Chafee. Well, that's certainly high praise for the 
Breaux Act, and justifiably so, apparently. You are close to 
it, and it makes sense. I see every reason in the world that we 
would reauthorize it.
    Senator Voinovich.
    Senator Voinovich. Mr. Chairman, I have no questions.
    Senator Chafee. OK.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the witnesses. I appreciate the testimony, some 
of which I have had an opportunity to read.
    Mr. Danson, it is great to welcome you back, to see you 
again. Thank you for the time that you give to the American 
Oceans Campaign. I notice that you are here on behalf of, among 
other groups, Save the Sound, which I appreciate very much.
    I just had one question, which is taken from your 
testimony, Mr. Danson. I'd welcome a response from others, as 
well.
    You mentioned your concern about inconsistent public 
notification when beach waters are contaminated, and I share 
that concern, as does the general public, I'm sure. In 
Connecticut, the State, Save the Sound, other environmental 
groups recently developed an environmental monitoring project 
for Long Island Sound in which they collect water information, 
water quality information, from buoys that are set up in the 
Sound, and they allow people to access real-time data through 
the internet. It's a fascinating program, and it raises a 
question about whether there may be an opportunity to develop 
similar collaborative environmental monitoring projects to 
collect and post beach safety information.
    The question that I really wanted to focus on was--well, I 
welcome your response to that, but the question of whether EPA 
should issue standardized regulation for monitoring waters to 
ensure that they meet health and safety criteria. In other 
words, what should an ideal BEACH bill do here? Should we leave 
it up to the discretion of the States? Should we be a little 
bit more involved and at least set some clear performance 
criteria which the States have to follow?
    Mr. Danson. My understanding is that you get to the same 
place with both bills, roughly, in the same timeframe, which is 
extraordinarily long--6 years. But, nevertheless, they both get 
there at the same time.
    My opinion is that it needs--the Senate needs to pass a 
bill as quickly as possible, because this seems to be the time, 
when the iron is hot and there's a lot of people and excitement 
behind this. The public wants it. The press is interested, the 
President has issued something where the Federal beaches will 
be monitored, so there is a lot of momentum. I would hate to 
see politics get in the way of something being passed now. 
There is a lot of energy.
    That's the only thing I have to say. It seems to me that 
both bills get eventually to the same place.
    Senator Lieberman. Thanks. I agree.
    Mayor, I gather that you've had some experience with the 
program of beach notification. I wonder if you have anything to 
say in response to my question.
    Mayor Pagliughi. I agree with Mr. Danson. I think that, 
unfortunately, a lot of elected officials need to be pried a 
little bit. They're not----
    Senator Lieberman. Yes.
    Mayor Pagliughi. And local elected officials. They're not 
going to move until someone forces them to move.
    We had an unfortunate situation in New Jersey back in 1987 
where there was medical waste washing up on the beach, various 
pollution in the water. We wondered what the reaction of the 
people would be if they closed some these beaches under the 
bill. We had some drastic reaction. We had one local mayor dump 
chlorine tablets into the ocean to try to solve the problem, 
and that brought a hefty fine from the local DEP. But, I mean, 
you can go right down the line.
    But the biggest concern was some of the businesses along 
New Jersey, but I think in 1987, when the beach closings 
happened, the following year, in 1988, they lost about $3 
billion in New Jersey in taxable revenue, so I think it woke 
them up real quick.
    I think the biggest thing today and why this has to be 
enacted swiftly and quickly--and I think 6 years is entirely 
too long--is we happen to be on the information network today, 
and under the EPA website we can pull up--for example, I 
happened to pull up the Borough of Avalon, and I can go right 
down through each streets that test it each week and give the 
bacteria results on how clean the water is.
    I just think that people are a little bit more educated 
today before they go on vacations, especially with children. We 
are all elected officials and we take an oath of office to 
protect the public health, safety, and welfare, and I think 
this BEACH bill has to be enacted quickly.
    Does that answer your question, sir?
    Senator Lieberman. It sure does. Thank you. I appreciate 
it.
    Does anybody else want to add to that?
    [No response.]
    Senator Lieberman. Thanks very much.
    You know, it seems to me, as you told that story, that the 
beaches have become a metaphor for the entire environmental 
protection experience and movement, because there was a sense 
over a lot of years that the environment was unlimited, it 
would absorb whatever we threw into it, and so people were 
throwing a lot of awful stuff into the water, people and 
businesses, etc., etc.
    When it suddenly started to literally wash up on the 
beach--and I know that was only a margin, a small part of what 
was out there, because it tended to be the visible part--then 
people got truly agitated because they saw the intersection of 
the disposal that they were a part of, a lot of junk into the 
water, and their desire to go to the beach, their quality of 
life. I think it really turned things in the movement around, 
and I think it makes it all the more important that at this 
point we take the advice that you've both given, which is to 
act on this bill as quickly as possible.
    Thank you. Thank you all.
    Senator Chafee. Each of you have described the energy you 
put into it, and whether it is Galveston or Louisiana or 
whatever it might be. I guess my question is: can we win this 
battle? Dr. Bahr, you know, we go into all this effort, and 
you're going to reduce it by 15 percent over the next 20 years. 
You've got a long way to go.
    Mr. Bahr. We have a long way to go, sir.
    Senator Chafee. I'm not sure. What's the most effective way 
of handling this? You mentioned, if I understood it correctly, 
that one of the primary contributors, I suppose, has been the 
fact you've channelized the river and now you don't have that 
water going into wherever it might be.
    Mr. Bahr. Right.
    Senator Chafee. Do I have it right?
    Mr. Bahr. You have it right. Basically, 100 years ago we 
started changing the plumbing, and, as you know, the whole 
southern part of Louisiana is part of a huge delta complex that 
the river built. And once we accidentally--inadvertently, we 
started isolating the river from the delta. When we did that, 
we set a whole bunch of things in place in the progress, and 
one of them was to keep all that rich nutrient-and sediment-
laden water going right past the State, past the delta, out 
into the Gulf of Mexico, where it causes other problems like 
the anoxia that someone mentioned earlier, the Dead Zone that a 
lot of people are interested in now in the Gulf of Mexico.
    We have the capacity to solve a number of problems--not 
solve them all, but to head them in the right direction by the 
same procedure--that is by, as artfully as we can--it's going 
to take some very good engineering to reconnect the river to 
the delta system.
    What has happened in the 100 years since the river was 
leveed and isolated, a lot of people have moved onto the levee 
system and in between the river and the marshes that we need to 
nourish, so it is going to take some good engineering.
    I am confident that we can do that. We're smart enough to 
do that.
    Another idea that has been proposed to speed up the process 
is to actually use pipelines to mine sediments from the river 
and to pipe the sediment out to jump start the process, to 
build deltas much faster than nature does. That's expensive, 
but it is feasible.
    Of course, with barrier island restoration, it is a fairly 
straightforward thing to do. That's pumping sand, basically, 
from offshore.
    There are just a number of things like this. We need at the 
same time, of course, to provide comprehensive hurricane 
protection for the people who live there, and I'm very 
encouraged to see that the Federal Emergency Management 
Administration is now--I met with Mr. James Lee Witt recently. 
He is very interested in investing, as restoration is an 
investment that also avoids the catastrophic disaster relief 
that is going to happen.
    The interesting thing is that it is a challenging problem, 
but if we don't do it we are going to guarantee that there is 
going to be a lot more Federal money spent for disaster relief, 
and that's not the best way to spend public dollars, in my 
opinion.
    So I think an investment--a prudent investment based on 
good science that uses our growing knowledge--our knowledge is 
much better now than when the Breaux Act started 9 years ago. 
We know much more. We don't know everything. We still have to 
do some advanced study in engineering. But we have a--coast 
2050 lays out a pretty good idea of what we need to do.
    It is going to cost some money. The number in here says $14 
billion. But when you compare the cost of the Denver Airport or 
a couple of B-1 bombers, I mean, we are talking about an 
investment that can prevent $100 billion of loss.
    So I think it is clear what we have to do. And not taking 
any action is making a decision that the Nation can't afford, I 
don't think.
    Senator Chafee. Well, Doctor, you've got a big job ahead of 
you, and I want to commend you and those who work with us, and 
certainly, as I said, that's high praise for the Breaux Act, so 
we'll bear all that in mind as we wrestle with these matters.
    Senator Voinovich.
    Senator Voinovich. Yes. Dr. Bahr, this is impressive that 
you've started to turn it around after the Breaux Act.
    Approximately what percentage of the cost of this has been 
paid for by your State and how much of it has been paid for by 
the Federal Government?
    Mr. Bahr. The way the Breaux Act is set up at present, 
originally it was 25/75--that is, 75 Federal, 25 State. The 
State put together a comprehensive conservation plan that 
pretty much eliminated losses due to permitted development in 
the coast. Our problem is not the fact that we are giving 
wetland permits for development. That's not the case. The fact 
is that this is not a regulatory problem. It is a problem we 
have to ambitiously restore coasts that have been lost by other 
projects.
    The State is putting up--at present, because we passed this 
conservation plan, our cost share was reduced to 15 percent; 
however, that is somewhat misleading, because we are spending a 
lot of other--we are building restoring levees and roads that 
have been destroyed by the loss of wetlands and hurricane 
damage and other things, so our State costs are very great.
    I don't know the exact percentage, but I think it is 
probably closer to--I think the State is probably spending 
something like 40 percent of the total cost of this whole 
restoration effort.
    I want to emphasize that this is a comprehensive thing. It 
goes beyond recreating marshes. It is rebuilding infrastructure 
that has been damaged. As the marshes have gone away, 
everything becomes more vulnerable.
    Senator Voinovich. It started out as a 75/25 project and 
you imposed taxes on the oil people and----
    Mr. Bahr. Yes, we've put up our own oil and gas severance 
taxes and fees to the State for production within the State of 
Louisiana. Unfortunately, the oil production in the State has 
moved from State waters to the Gulf of Mexico to deep water 
offshore. As you know, there is some legislation pending in 
this Congress that I'm very interested in that would perhaps 
share some of the revenues from the offshore production to help 
us in this struggle against this.
    Senator Voinovich. I'd be really interested in your 
providing me with an update of just where the percentages are 
and where the revenue sources are coming from, because a lot of 
these areas is a question of how much of this responsibility is 
the Federal Government's and how much is the States', and it 
would seem to me that many of the States have an obligation to 
step forward.
    In a period where State revenues are far better than the 
Federal Government's--we have a $5.5 trillion deficit, and 
maybe we'll have a non-budget surplus next year, and there are 
so many demands that are coming in that they want the Federal 
Government to get involved here and there. We've got people who 
want reducing their taxes. We've got other programs that are 
coming up. There's a big picture that we need to look at today 
in terms of what are the respective responsibilities of the 
level of governments.
    Mr. Bahr. Right.
    Senator Voinovich. I think this has got to be a 
partnership. So I'd be real interested in that, any thoughts on 
what you think is fair.
    Mr. Bahr. As a matter of fact, in this past--our 
legislative session just ended, and we passed a so-called ``2 
percent'' bill that commits a greater percentage, a fixed 
percentage of this total severance taxes that the State 
receives from oil and gas to coastal restoration specifically, 
and that is money. It's a zero sum game, as you know. That's 
money from the general fund. It goes to restoration.
    The State is stepping up. Again, as I said earlier, we 
started a State only program before the Breaux Act passed, and 
we are struggling with this.
    But I would be glad to provide you with that information, 
sir.
    Senator Voinovich. Mr. Danson, I would be interested in 
knowing, have you lobbied your Governor, past Governors and new 
Governor, and legislature to get involved in this effort?
    Mr. Danson. I believe we passed a BEACH bill. It is being 
implemented right now. California does have exactly what we're 
talking about.
    Senator Voinovich. So that, in effect, you have set 
standards in terms of where your beaches should be, and you 
have a formal monitoring program, so the State has taken over 
responsibility of that?
    Mr. Danson. Yes. I think it is in process of being 
implemented, but that bill has been passed.
    Senator Voinovich. I am pleased to hear that, because I 
think probably you come from a State where people are as 
environmentally conscious and aware as any place in the 
country, and I'd be really disappointed if the State wasn't 
playing a role in getting the job, because I think that has 
been part of the problem, Mr. Chairman, in some of these places 
if there is a big--who does the monitoring of the water 
quality? Is it the State or is it the local health department? 
And it is somewhere between and it falls through and it doesn't 
get done. So to have a statewide program where the State picks 
up the cost of doing it sets the standard. It seems to me an 
appropriate way to go.
    The question I have, though, is: if the State has stepped 
to the table and is doing this, is it required that we have the 
Federal Environmental Protection Agency come out and set the 
national standards?
    Reaction?
    Mr. Danson. I believe so, absolutely, because EPA already 
has criteria, and a third, I think, roughly of the beaches are 
tested and posted, so that's not working. I do think you need 
to encourage the States that have a standard that is met, so 
that you can go to California and feel good but you may not be 
able to go to Florida and feel assured that your children are 
swimming in healthy water. So you do need, I think, top-down 
criteria.
    Senator Voinovich. Do you know what the standard is in 
California? I guess maybe the question is: if we were going to 
set a national standard today, would California be above or 
below it?
    Mr. Danson. Yes, good news.
    Senator Voinovich. OK. Would there be any other comment on 
that?
    Mayor Pagliughi. Yes, Senator. I'd like to just mention 
that I am a republican and I don't like big government, big 
brother looking down over my borough and telling me what to do, 
but I think in a situation like this, this is very important.
    As I mentioned before, in the State of New Jersey, back in 
1987, we had a lot of beach closing, and it cost an enormous 
amount of revenue for taxes in the State of New Jersey.
    We had a local official that got up at a hearing and said, 
``We don't need this beach testing any more. Look what they 
did. They closed down our beach. My town has a very active 
storm water cleaning program.''
    Well, about 3 days later I drove through that elected 
official's town and I saw a tomato plant about that high 
growing out of a catch basin. Now, I'm not a farmer, Senator, 
but I know that that catch basin in that storm water cleaning 
was never done.
    It is unfortunate that some local elected officials are not 
proactive, they are reactive, and I think an issue as important 
as this, it does have to come down as a directive and make it 
uniform nationwide, because States that do the testing and who 
are proactive, like California, New Jersey, a lot of the people 
feel that those tourists are going elsewhere.
    Now, my island, for example, is--my borough is 
approximately five miles long by a quarter of a mile wide. I've 
got about 2,500 year-round residents, but for the 3 months in 
the summer it grows to 45,000 people. I think that is a pretty 
good draw, because those people know that that coastal water is 
clean.
    Like I said before, the information age today, people are 
looking this stuff up and they're looking at where they are 
going to go.
    Senator Voinovich. Let me say this to you: has your State 
set standards?
    Mayor Pagliughi. Yes.
    Senator Voinovich. OK. And who pays for the monitoring of 
it?
    Mayor Pagliughi. The State DEP directs the local county 
health departments to do the monitoring. The county pays for 
the monitoring to be done. The State also went one step further 
that if the bacteria limit exceeds 200 parts per million they 
close the beach for 24 hours or 48 hours or whenever a 
secondary test can be done.
    Senator Voinovich. OK. So the fact is that, again, there's 
an example. Your State has stepped up to the table and has 
taken some responsibility.
    Mayor Pagliughi. That's correct, sir.
    Senator Voinovich. OK. And you are here today saying that 
you'd like the Federal Government to unify it, because you feel 
there are other communities that are not doing it, they are 
not--why don't you explain that to me? You have other 
communities that are----
    Mayor Pagliughi. Like I said before, Senator----
    Senator Voinovich. Why?
    Mayor Pagliughi [continuing]. I don't think a lot of 
elected officials are going to step up to the plate unless they 
are told what to do.
    Senator Voinovich. But in New Jersey they're doing it?
    Mayor Pagliughi. They're doing it. They have no choice but 
to do it.
    Senator Voinovich. OK.
    Mayor Pagliughi. The outcry was, when they first did it and 
closed beaches, like I said, the outcry 1 year, for example, 
the businesses went up in arms. The local chambers of commerce 
were wild. But when they saw the following year that the State 
lost $3 billion in revenues, it woke them up pretty quickly.
    On the other hand, it is a public health, safety, and 
welfare issue.
    Senator Voinovich. Right. But the question I'm asking is: 
is somebody else in another State not doing their job and it is 
impeding on you, or is the problem other States are not setting 
standards and enforcing it and customers that ought to be 
coming to your State are going to other States?
    Mayor Pagliughi. That's probably true. If there is no water 
testing, it appears to be clean, they go there. It is really 
putting everybody on an equal playing field.
    Senator Voinovich. Well, I think one of the things that 
communities ought to do is I believe in the old-fashioned free 
enterprise competitive marketplace, and I would advertise, 
``Clean beaches. We have set high standards. We do have clean 
beaches, as compared to other places,'' particularly today with 
the information that is available. It is another approach to 
this.
    Ted.
    Mr. Danson. I also feel that this monitoring and posting 
for public health is the tip of the iceberg. I think that 
eventually you hope that people will locate the problem and do 
something about it.
    So if you are taking care of your State waters, that's 
nice, but, you know, currents--polluted water travels, and if 
the State next to you doesn't and isn't marching to the same 
standards, then you are paying the price.
    So it does seem that, in all fairness, all States should be 
operating under the same standards.
    Senator Voinovich. And I think that gets back, again, 
what's the problem. I mean, we're getting into the issue of 
polluted beaches. It is communities that haven't done a good 
job with waste water treatment, it's communities that haven't 
done the job in terms of industrial pollution that may be going 
into the streams. It may be communities where agriculture--
where you're getting stuff going into the streams that is 
polluting the water. So this is just the result of a lack of 
enforcement in a whole lot of areas.
    I recall, when we were talking about Lake Erie, that we had 
primary treatment. Today we have tertiary treatment of all 
waste water and there is an enormous effort that has been by 
the industries in terms of their pollution controls, and 
farmers are now doing no-till farming and a lot of other 
things.
    I think that I guess it is like every other problem. We can 
deal with this problem and we can post it and we can do 
everything, but if we don't do these other things we are still 
going to have the problem.
    You talked about hitting the beaches. I was told by a 
doctor, ``Don't let your kids go in the water unless they get 
their shots, because they are bound to get something if they 
swim in Lake Erie.'' And today that is not the case.
    So I really appreciate your being here today. I've enjoyed 
your testimony and we'll try to help.
    Senator Chafee. I second that and want to thank everybody 
in the panel. Some of you have come considerable distances, and 
we appreciate that, and you've been a big help to us, and even 
those who weren't present here will be able to read about this 
and learn from their staff, so thank you all.
    That concludes the hearing.
    [Whereupon, at 11:37 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, members of the committee, thank you for the 
opportunity to speak on the subject of estuaries and coastal 
protection. With 1,800 miles of coastline and 1,200 miles of beaches in 
Florida, these are very important issues in my State.
    As you know, estuaries are areas where fresh and salt water mix. 
They serve as nurseries where baby fish, crabs, and other animals can 
grow, and provide resting and feeding areas for migrating birds. They 
also support recreational activities such as fishing, boating, and 
birdwatching. In addition, estuaries are often located close to ports 
that are important for commercial shipping. We need to protect our 
estuaries so that they can continue to support these diverse 
activities.
    The Clean Water Act Amendments of 1987 established the National 
Estuary Program to identify important estuaries and promote planning, 
restoration and protection activities. There are now 28 estuaries 
across the country participating in this program, four of them in 
Florida. The Environmental Protection Agency works together with other 
Federal, State, and local government agencies as well as industry and 
local citizens to identify and address an estuary's environmental 
problems.
    I am a long time supporter of the National Estuary Program, and the 
cooperation between Federal, State, and local agencies that it 
encourages. Over its 10 year life, the program has had many successes 
in reducing nutrient loadings, protecting habitats, and controlling 
stormwater runoff into coastal waters. Florida currently has more 
estuaries participating in the program than any other State.
    I am a co-sponsor of Senator Chafee's S. 835, the Estuary Habitat 
Restoration Partnership Act, and Senator Torricelli's S. 878, to 
reauthorize the National Estuary Program for an additional 5 years. I 
support coordination of the various existing Federal, State, and local 
estuary protection initiatives. I also support funding for 
implementation of the National Estuary Program Comprehensive 
Conservation and Management Plans. Development of the plans is an 
important step, but they are of little value without funding for 
implementation.
    Clean beaches are very important to the people of Florida and the 
48 million visitors who come to our State each year. Our residents and 
visitors want to know that they can enjoy swimming, snorkeling, 
surfing, and other water contact recreation without fear of disease. 
However, we have some concerns about the beach bills in their current 
form. Beaches and coastal waters in Florida are different from those in 
Maine or California, and our States need to be allowed the flexibility 
to implement beach protection programs that will be the most 
appropriate for each State. I look forward to hearing what our 
witnesses have to say today and to working with my colleagues on the 
committee to resolve these issues.
                               __________
  Statement of Hon. Paul S. Sarbanes, U.S. Senator from the State of 
                                Maryland
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to testify in support of S. 492, the Chesapeake Bay 
Restoration Act, which I introduced earlier this year along with my 
colleagues, Senators Mikulski, Warner, Robb, and Santorum.
    At the very outset I want to commend Chairman Chafee and Senator 
Torricelli for their leadership in crafting legislation to restore 
America's estuaries. I am pleased to be a cosponsor of both S. 835, 
Chairman Chafee's Estuary Habitat Restoration Partnership Act, and S. 
878, Senator Torricelli's bill, which would authorize grants to 
implement conservation management plans developed under the National 
Estuaries Program. Both measures would help rehabilitate estuary 
habitat by improving the financial mechanisms by which the Federal 
Government participates in restoration projects.
    As you know, the Chesapeake Bay is the largest estuary in the 
United States and the key to the ecological and economic health of the 
mid-Atlantic region. The Bay, in fact, is one of the world's great 
natural resources. We tend to take it for granted because it is right 
here at hand, so to speak, and I know many Members of this body have 
enjoyed the Chesapeake Bay. The Bay provides thousands of jobs for the 
people in this region and is an important component in the national 
economy. The Bay is a major commercial waterway and shipping center for 
the region and for much of the eastern United States. It supports a 
world-class fishery that produces a significant portion of the 
country's fin fish and shellfish catch. The Bay and its watershed also 
maintain an enormous tourism and recreation industry.
    The Chesapeake Bay is a complex system that covers more than 64,000 
square miles and parts of six States. The Bay's relationship to the 
people, industries, and communities in those six States and beyond is 
also complex and multifaceted.
    I could continue talking about these aspects of the Bay, but my 
fellow Senators are aware of the Bay's importance and have consistently 
regarded the protection and enhancement of the quality of the 
Chesapeake Bay as an important national objective.
    Through the concerted efforts of public and private organizations, 
we have learned to understand the complexities of the Bay and we have 
learned what it takes to maintain the system that sustains us. The 
Chesapeake Bay Program is an extraordinary example of how local, State, 
regional, and Federal agencies can work with citizens and private 
organizations to manage complicated, vital, natural resources. Indeed, 
the Chesapeake Bay Program serves as a model across the country and 
around the world.
    When the Bay began to experience serious unprecedented declines in 
water quality and living resources in the 1970's, the people in my 
State suffered. We lost thousands of jobs. We lost much of the 
wilderness that defined the watershed. We began to appreciate for the 
first time the profound impact that human activity could have on the 
Chesapeake Bay ecosystem. We began to recognize that untreated sewage, 
deforestation, toxic chemicals, agricultural runoff, and increased 
development were causing a degradation of water quality, the loss of 
wildlife, and elimination of vital habitat. We also began to recognize 
that these negative impacts were only part of a cycle that could 
eventually impact other economic and human health interests.
    Fortunately, over the last two decades we have come to understand 
that humans can also have a positive effect on the environment. We have 
learned that we can, if we are committed, help repair natural systems 
so that they continue to provide economic opportunities and enhance the 
quality of life for future generations.
    We now treat sewage before it enters our waters. We banned toxic 
chemicals that were killing wildlife. We have initiated programs to 
reduce nonpoint source pollution, and we have taken aggressive steps to 
restore depleted fisheries.
    The States of Maryland, Virginia, and Pennsylvania deserve much of 
the credit for undertaking many of the Actions that have put the Bay 
and its watershed on the road to recovery. All three States have had 
major cleanup programs. They have made significant commitments in terms 
of resources. It is an important priority item on the agendas of the 
Bay States. Governors have been strongly committed, as have State 
legislatures and the public. There are a number of private 
organizations--the Chesapeake Bay Foundation, for example--which do 
extraordinary good work in this area.
    But there has been invaluable involvement by the Federal Government 
as well. The cooperation and attention of Federal agencies has been 
essential. Without the Federal Clean Water Act, the Federal ban on DDT, 
and EPA's watershed-wide coordination of Chesapeake Bay restoration and 
cleanup activities, we would not have been able to bring about the 
concerted effort, the real partnership, that is succeeding in improving 
the water quality of the Bay and is succeeding in bringing back many of 
the fish and wildlife species.
    The Chesapeake Bay is getting cleaner, but we cannot afford to be 
complacent. There are still tremendous challenges facing Bay.
    As you may recall, 2 years ago we faced a major outbreak of toxic 
Pfiesteria which had impacts, not only on the fish population, but on 
human health as well. The suspected cause of the 1997 bloom was the 
excessive release of nutrients to the Bay.
    While we've been fortunate not to have suffered toxic Pfiesteria 
outbreaks last summer or so far this summer, we have had other 
problems.
    Earlier this month, an estimated 200,000 dead fish were found in 
the Magothy and Patapsco rivers, both tributaries to the Chesapeake 
Bay. That was the largest fish kill in Maryland in a decade. The cause 
was low dissolved oxygen.
    The Blue Crab catch is down this season. In Maryland, this year's 
early season catch was down 23 percent from the same time last year.
    And then there is the drought. Now in its third year, the drought 
we are experiencing has exacerbated problems in the Bay. If the drought 
continues, it could prove catastrophic, in part, because the Bay's 
natural resiliency has been compromised. We can't stop droughts, but we 
can stop undermining the natural processes that the Bay's ecology 
relies upon to recover from periods of natural stress.
    We need to remain vigilant in continuing to address the needs of 
the Bay restoration effort. The hard work, investment, and commitment, 
at all levels, which has brought gains over the last three decades, 
must not be allowed to lapse or falter.
    This legislation reauthorizes the Bay program and builds upon the 
Federal Government's past role in the Chesapeake Bay Program and the 
highly successful Federal-State-local partnership to which I made 
reference. The bill also establishes simple agency disclosure and 
budget coordination mechanisms to help ensure that information about 
Federal Bay-related grants and projects are readily available to the 
scientific community and the public.
    As I mentioned before, the Chesapeake Bay Program is a model of 
efficient and effective coordination. Still, there is always room for 
improvement as experience informs and enlightens our judgments. While 
coordination between the various levels of government has been 
exemplary, coordination among Federal agencies can be strengthened. 
This legislation begins to develop a better coordination mechanism to 
help ensure that all Federal agency programs are accounted for.
    In addition, this bill requires the Environmental Protection Agency 
to establish a Small Watershed Grants Program for the Chesapeake Bay 
region. These grants will help organizations and local governments 
launch a variety of locally designed and locally implemented projects 
to restore relatively small pieces of the larger Chesapeake Bay 
watershed. By empowering local agencies and community groups to 
identify and solve local problems, this grant program will promote 
stewardship across the region and improve the whole by strengthening 
the parts.
    This bill was carefully crafted with the advice, counsel, and 
assistance of many hard working organizations in the Chesapeake Bay 
region, including the Chesapeake Bay Commission, the Chesapeake Bay 
Foundation, The Alliance for the Chesapeake Bay and various offices 
within the State governments of Maryland, Virginia, and Pennsylvania.
    I would like to close by pointing out that the need for Federal 
assistance is great. State and local governments and community 
organizations are ready and willing to help preserve the Chesapeake 
Bay.
    This is a critical time for the Bay community. Many of the goals of 
the multi-jurisdictional Chesapeake Bay Program were originally indexed 
to the year 2000. Now, the community is setting new goals. The 
Governors of Pennsylvania, Maryland, Virginia, the Mayor of the 
District of Columbia, the Chairman of the Chesapeake Bay Commission and 
the Administrator of the EPA are renegotiating their cooperative 
agreement. In this time of change one thing is absolutely certain--the 
entire Bay community expects the Federal Government to continue its 
unwavering support for restoring the Chesapeake Bay. Our State and 
local partners are prepared to go the distance and they expect that we 
are willing to do the same.
    I hope that the Committee can swiftly approve S. 492.
                               __________
Statement of J. Charles Fox, Assistant Administrator, Office of Water, 
                    Environmental Protection Agency
    Good morning; I am Chuck Fox, Assistant Administrator for Water at 
the Environmental Protection Agency (EPA). I appreciate the opportunity 
to be here and to talk with you about some of the things we are doing 
to protect the Nation's estuaries, coastal waters, and oceans. I will 
also comment on pending legislation to protect and restore these 
important natural resources.
       i. coastal waters--value, condition, and response programs
    Coastal waters are a rich natural heritage for all Americans. 
Protecting and restoring the quality of these waters has tremendous 
environmental and economic benefits. EPA, along with many other 
Federal, State and local agencies and organizations, is working hard to 
implement effective programs to protect coastal water quality and 
natural resources.
Coastal Resource Values
    Estuaries, near-coastal waters, and oceans provide some of the most 
diverse and biologically productive habitat in the country and are 
critical to a wide variety of marine life--from manatees, to migratory 
wildlife, to salmon. Coastal waters provide essential habitat during 
critical portions of the life cycles of roughly two-thirds of the fish 
and shellfish caught commercially in U.S. waters.
    Coastal waters are also important economically. They support 28.3 
million jobs and generate billions of dollars in goods and services 
every year. The coastal recreation and tourism industry is the second 
largest employer in the Nation, serving 180 million Americans visiting 
the coasts every year. The commercial fish and shellfish industry is 
also very important, contributing $45 billion to the economy every 
year, while recreational fishing contributes $30 billion to the U.S. 
economy annually. A large part of this income is derived from coastal 
waters.
Condition of Coastal Waters
    Because so many people are drawn to, or depend on, coastal waters, 
restoring, maintaining, and enhancing the health of these waters is of 
great importance. Unfortunately, coastal waters suffer from serious 
pollution problems. Recent studies document a wide range of pollution 
in coastal waters including low dissolved oxygen levels, contamination 
of shellfish, contamination of water and sediment with metals and 
organic contaminants, and beach closings.
    Water quality monitoring reports by State agencies under the Clean 
Water Act (CWA) indicate that, of the 72 percent of estuary miles 
assessed (i.e., almost 30,000 square miles) 38 percent are impaired. 
Pollutants causing these impairments are nutrients, bacteria, toxic 
pollutants, and oxygen depleting substances. The leading sources of 
pollutants causing impairments of estuary waters are industrial 
discharges, urban runoff, and sewage discharges.
    States assessed only 16 percent of ocean shoreline miles (or 6 
percent if Alaska shoreline is counted) and found 13 percent of these 
waters impaired. Bacteria and nutrients are the pollutants of most 
concern here, and urban runoff and sewage are by far the leading causes 
of impairment.
    A recent national assessment of conditions in 28 estuaries 
addressed in the National Estuary Program (NEP) concluded that the most 
common problems are:
    (1) nutrient overenrichment; (2) pathogen contamination; (3) toxic 
chemicals; (4) alteration of freshwater flow; (5) loss of habitat; (6) 
declines in fish and wildlife; and (7) introduction of invasive 
species.
    Harmful Algal Blooms (HABs) are another serious threat to coastal 
waters. The death and decay of algal blooms can lead to hypoxia, or 
total oxygen depletion, known as anoxia, in the water, resulting in 
widespread mortality of fish, shellfish, and invertebrates, and 
submerged grasses/vegetation. Hypoxia occurs in many parts of the 
world, and in the United States it occurs in several near-coastal 
waters.
    For example, on the Gulf of Mexico's Texas-Louisiana Shelf, an area 
of hypoxia forms during the summer months covering 6,000 to 7,000 
square miles, an area that has doubled in size since 1993.
    This condition is believed to be caused by several factors 
including a complex interaction of excessive nutrients transported to 
the Gulf of Mexico by the Mississippi River and physical changes to the 
River, such as channelization and loss of natural wetlands and 
vegetation along the banks. The interaction of freshwater from the 
River with the saltwater of the Gulf is also a factor.
    There is evidence that associates algal blooms and hypoxia with 
nutrient pollution--excessive nitrogen and phosphorus--in the water. 
The sources of these pollutants vary widely from one geographic 
location to another. However, in general, we see three significant 
sources:
    <bullet> human waste from septic systems and sewage treatment 
plants;
    <bullet> agricultural runoff from fertilizer and animal waste; and,
    <bullet> air deposition from motor vehicles and electric utility 
facilities.
    Finally, there is growing evidence of serious threats to coastal 
resources and human health from microbiological organisms. For example, 
Pfiesteria outbreaks have occurred in the Chesapeake Bay and North 
Carolina rivers in recent years, resulting in fish kills and suspected 
human health impacts. Red tides cause fish kills, the closing of 
shellfish beds, and beach closures each year. These outbreaks undermine 
public confidence in the safety of coastal waters and can result in 
dramatic impacts on fishing, tourism, and related interests.
    We know that coastal waters face serious pollution problems now. In 
the future, the potential for such problems is likely to persist 
because coastal waters are especially vulnerable to degradation as a 
result of high population density, intense land uses, and rapid 
population growth in coastal areas.
Coastal Pollution Response Programs
    It is essential that we have strong and effective programs to 
restore and protect the quality of the Nation's coastal waters.
    EPA has strong statutory authority for protection of coastal and 
ocean waters under the Clean Water Act and the Marine Protection, 
Research, and Sanctuary Act (MPRSA). For example, EPA and delegated 
States require permits for the discharge of pollutants to waters of the 
United States under section 402 of the CWA. In the case of discharges 
to ocean waters, these permits impose additional controls consistent 
with guidelines established under section 403. EPA also works with the 
Army Corps of Engineers to manage ocean dumping of dredge materials 
under the MPRSA.
    In addition, EPA implements a range of additional programs focusing 
on coastal water quality including the NEP, beach water quality 
programs, and programs to protect specific geographic areas, such as 
the Chesapeake Bay. EPA and NOAA work with States to implement nonpoint 
pollution control programs with specific authorities to protect coastal 
waters from nonpoint pollution. Several of these programs are discussed 
later in this testimony.
    The Clean Water Action Plan, announced by President Clinton in 
February of last year, provides an overall framework for efforts by 
Federal and State agencies to work with local governments and 
organizations for cleaner and safer water. A key theme of the Action 
Plan is cooperation among different levels of governments and other 
parties to develop solutions to water pollution problems on a watershed 
basis.
    the Action Plan also specifically addresses how diverse coastal 
programs, including the work of EPA, the National Oceanic and 
Atmospheric Administration (NOAA), and the Army Corps of Engineers, fit 
into a larger clean water strategy. Some of the specific coastal 
protection activities described in the Action Plan include----
    <bullet> a coastal research and monitoring plan;
    <bullet> efforts to address Harmful Algal Blooms (HAB's) and 
Pfiesteria;
    <bullet> better focused efforts to assess shellfish bed condition 
and restore these valuable resources;
    <bullet> specific schedules for State programs to control pollution 
of coastal waters by nonpoint sources; and
    <bullet> better coordinated efforts to protect coastal wetlands.
    Since the publication of the Action Plan last year, EPA has 
expanded efforts to protect coral reefs and address the threats posed 
to these waters by invasive species.
                       ii. assuring beach safety
Beach Water Quality Problems and Programs
    Water pollution at the Nation's beaches is a persistent problem.
    The number of reported beach closures and health advisories has 
increased over the past several years. EPA recently completed the 
second annual, National Health Protection Survey of Beaches, which is a 
voluntary survey of government agencies that collected information on 
beach health activities. Based on this survey, EPA estimates that about 
one-third of the 1,062 beaches reporting in 1998 had at least one 
advisory or closing. This is an increase from the first survey, when 
about 26 percent of 738 beaches reporting had at least one closing or 
advisory. More detailed information is available at EPA's ``Beach 
Watch'' site on the Internet (www.epa.gov/ost/beaches).
    Using EPA data and other information, the Natural Resources Defense 
Council recently estimated that the number of beach closure days (i.e., 
days that various beaches were closed or under advisories) rose from 
over 4,000 in 1997 to over 7,000 in 1998. Although some portion of the 
increase in both estimates is the result of better monitoring and 
reporting, this is evidence of a serious problem.
    Beach advisories and closings are generally due to disease-causing 
microorganisms, or pathogens, originating from discharges of sewage or 
runoff from many different sources, into local waters. Beachgoers, 
especially children, are at risk of infection from ingestion or 
inhalation of contaminated water, or through contact with the water.
    To protect waters designated for this recreational use, States use 
scientific information developed by EPA to set water quality standards 
that include criteria for levels of indicator pathogens with known risk 
of infection. States and local governments then monitor waters for 
these indicators, compare their results to the criteria, and determine 
if action is needed to protect public health or the environment.
    However, only 16 of the States have adopted EPA's current criteria 
for recreational water quality. In addition, some recreational waters 
are not monitored at all. EPA believes that better monitoring and 
improved water quality standards will lead to greater recognition of 
the health threats posed by beach pollution and increased commitment to 
restore the quality of these important waters.
    Recognizing the need to strengthen beach programs, EPA's 
Administrator, Carol Browner, announced the Beaches Environmental 
Assessment, Closure and Health (BEACH) Program on May 23, 1997. The 
goal of this program is to significantly reduce the risk of health 
threats to users of the Nation's recreational waters through 
improvements in recreational water programs, communication, and 
scientific advances.
    The BEACH Program emphasizes three themes:
    <bullet> getting up-to-date beach water quality standards adopted 
in all States;
    <bullet> informing the public about recreational water quality; and
    <bullet> conducting research to develop new indicators for non-
gastrointestinal diseases and new monitoring protocols to ensure 
detection of water quality problems.
    These key concepts are carried forward in the Clean Water Action 
Plan.
    In early 1999, EPA released an Action Plan for Beach and 
Recreational Waters describing priority actions for Federal, State, 
Tribal, and local implementation of beach monitoring and notification 
programs. The research agenda set forth in the Plan covers several 
areas, including monitoring strategies, improved indicators, enhanced 
modeling tools to predict beach contamination, and epidemiology 
studies.
    The Beach Plan also describes the importance of States adopting up-
to-date water quality standards for protecting beach water quality and 
public health, and describes EPA's commitment to promulgate the 
criteria with a goal of assuring that the criteria apply in all States 
not later than 2003.
Beach Environmental Assessment, Closure, and Health Acts--S. 522 and 
        H.R. 999
    The Beaches Environmental Assessment, Closure and Health Act (S. 
522), introduced by Senator Lautenberg, provides for a comprehensive 
program to improve beach monitoring and to assure that the public has 
good information about health risks at the Nation's beaches. H.R. 999, 
passed by the House of Representatives, includes comparable, but 
somewhat different, provisions. As noted below, both bills have strong 
points. The Administration supports beach safety legislation that is 
generally consistent with the approach in these bills.
    An important provision of both bills would require States, within 
3\1/2\ years of enactment, to adopt water quality criteria for 
pathogens and pathogen indicators for their coastal recreation waters 
that are at least as protective of human health as EPA's recommended 
criteria for pathogens and pathogen indicators, which EPA published in 
1986.
    EPA has encouraged States promptly to adopt current criteria for 
pathogen indicators into their water quality standards for their 
coastal recreation waters and, as noted above, intends to use current 
statutory authority to adopt appropriate standards for these waters 
where States fail to do so.
    A key difference between the bills is that S. 522 proposes that 
water quality standards are ``considered'' promulgated where a State 
has not adopted the standards at the end of the 3\1/2\ year period. 
H.R. 999 would require EPA to go through additional steps of 
disapproval of existing standards and formal adoption of new standards. 
Although it varies from EPA's current process for promulgating water 
quality standards, the approach in S. 522 would result in faster 
adoption of needed water quality standards.
    Both bills provide for States or local governments to conduct 
expanded monitoring of beach quality and to notify the public of water 
quality problems at beaches. The Senate bill provides a clear and 
direct mandate to States to follow regulations that the EPA 
Administrator would be required to publish. Nine million dollars would 
be authorized for grants to support State and local efforts.
    The House bill would authorize up to $30 million for grants to 
States to develop and implement beach monitoring and assessment 
programs. The Administration has concerns about the funding source for 
this program and will work with the Committee to identify an 
appropriate funding mechanism. Further, EPA agrees with the concept in 
the House bill that EPA can implement the program in a State if the 
State fails to participate.
    There are several other differences between the House and Senate 
bills that will need to be resolved before enactment and EPA stands 
ready to work with the Congress to develop the best possible beach 
safety legislation for final enactment.
                 iii. protecting the nation's estuaries
    Estuaries are one of the most productive types of ecosystems and 
yet are also among the most stressed. Estuaries often serve as sinks 
for pollutants originating upstream within their watershed and upwind 
of their ``airshed.'' In addition, estuaries are directly impacted by 
human activity--well over half the people in this country live, work, 
or play near the coast.
National Estuary Program
    The National Estuary Program (NEP) was established by Congress in 
1987 to address the complex problems associated with estuary management 
and protection.
    The NEP seeks not only to protect and restore the health of 
estuaries and their habitat and living resources, but also to support 
economic activities that take place in, or depend on, healthy 
estuaries. Under the NEP, EPA provides modest grants to support 
``management conferences'' of interested parties and these groups 
develop a Comprehensive Conservation and Management Plan (CCMP) for the 
estuary. EPA supports 28 estuary projects around the country.
    Unlike traditional approaches to environmental protection, the NEP 
acknowledges that pollution problems of estuaries are exacerbated by 
combined and cumulative impacts of many individual activities 
throughout the coastal watershed. In order to address watershed-wide 
concerns, the NEP encourages the use of a combination of traditional 
and nontraditional water quality control measures available through 
Federal, State and local authorities as well as private sector 
initiatives. The NEP has strongly influenced our evolution toward 
watershed management, including the focus on watershed restoration and 
protection in the Clean Water Action Plan.
    A cornerstone of the NEP is that management decisions are made 
through an inclusive process involving multiple stakeholders. This 
emphasis on public participation not only ensures a balanced approach 
to resource problems, but encourages local communities to take the lead 
in determining the future of their own estuaries, thus bolstering 
program success through community support.
Estuary Habitat Restoration Partnership Act--S. 835
    The Estuary Habitat Restoration Partnership Act, introduced by 
Chairman Chafee, would create new authority and authorize new funding 
for the Army Corps of Engineers to work with other Federal agencies, 
States, and communities to carry out projects to restore estuary 
habitat. The bill would also reauthorize the National Estuary Program.
    The goals of the bill are laudable and include----
    <bullet> a national goal of restoring 1 million acres of estuary 
habitat by 2010;
    <bullet> fostering coordination of Federal, State and community 
estuary habitat restoration programs, plans and studies through 
creation of a ``Collaborative Council'' and other means;
    <bullet> establishment of estuary habitat restoration partnerships 
among public agencies and between the public and private sectors;
    <bullet> promotion of efficient financing mechanisms for estuary 
restoration activities; and
    <bullet> development and enhancement of monitoring and research 
capabilities to ensure that estuary habitat restoration efforts are 
based on sound scientific understanding.
    The habitat restoration provisions of S. 835 can make an important 
contribution to the coastal protection program described in the Clean 
Water Action Plan and will complement the work underway in the National 
Estuary Program. For example, the Action Plan calls for coordinated 
approaches to protecting and restoring water quality on a watershed 
basis. Coastal habitat restoration projects could complement 
traditional water pollution control projects implemented as part of 
watershed restoration plans.
    EPA supports the new authority for estuary habitat restoration 
proposed in the bill. We also have several suggestions for improvements 
to the bill, described below, as well as some technical comments that 
will be provided to Committee staff.
    First, S. 835 defines estuaries to include areas where a body of 
water in which ``freshwater from a river or stream meets and mixes with 
salt water from the ocean.'' We suggest even broader language to 
include not only estuarine water areas, but also near-shore marine 
habitats and associated ecosystems.
    We would also like to see further clarification of the bill with 
respect to its relationship to local NEPs and other local habitat 
restoration plans. We suggest that the term ``Federal estuary 
management plan'' be clarified to specifically include such plans as 
NEP and other such Plans. We note that although NEP plans must be 
approved by EPA, they are in fact local plans generated by the 
collaborative NEP process, rather than ``Federal'' plans.
    In addition, we would like to see further regional coordination to 
ensure that habitat restoration priorities are set on a region-by-
region basis. The House version of this bill, H.R. 1775, includes a 
regional review process to facilitate priority setting and we would 
support the inclusion of regional review teams.
    Finally, EPA agrees that an ``estuary habitat restoration 
activity'' should include ``clean-up of contamination related to the 
restoration of the estuary'' but recommends that this provision be 
expanded to include measures to restore or protect water quality, such 
as buffer strips or related measures to prevent polluted runoff. The 
provision of the bill prohibiting support of activities ``regulated'' 
by Federal or State law is appropriate, but the prohibition on 
activities that are merely ``otherwise governed'' by such laws needs to 
be clarified.
Legislation to Reauthorize the National Estuary Program--S. 835 and S. 
        878
    Both S. 835, discussed above, and S. 878 would extend and increase 
the authorization for the NEP.
    Both bills would also make grants under section 320 of the Clean 
Water Act, now used for development of CCMPs, available to implement 
projects called for in CCMPs. S. 878 would require a 50 percent non-
Federal match for implementation of projects whereas S. 835 would 
require only the current 25 percent match for such projects. In 
addition, both bills increase the authorization for the NEP program 
from the current level of $12 million--to $25 million, in the case of 
S. 835, and $50 million, in the case of S. 878.
    The President's fiscal year 2000 budget request for the NEP is for 
approximately $17 million. This amount reflects the continued 
development of CCMPs and the costs associated with providing limited 
grant support for local program management of approved CCMPs. Program 
management grants assure oversight of implementation efforts and 
involvement of stakeholders in the implementation phase of CCMPs. In 
some past appropriation statutes, Congress has included specific 
language to permit EPA to award grants for the implementation of CCMPs.
    The Administration supports amendment of the Clean Water Act to 
more specifically support NEP grants for program management as well as 
program development and supports increase of the authorization level 
consistent with the long-term balanced budget agreement.
    EPA recognizes that implementing pollution control projects called 
for in CCMPs sometimes requires Federal assistance. A primary source of 
financial assistance is the Clean Water State Revolving Funds (SRFs) 
under Title VI of the Clean Water Act.
    Projects to implement NEP plans developed under section 320 of the 
CWA are currently eligible for CWSRF loans. In addition, the President 
proposed in the fiscal year 2000 budget new authority for Governors to 
use up to 20 percent of the annual Federal funding for Clean Water SRFs 
for grants to implement projects called for in CCMPs as well as to 
implement measures to reduce polluted runoff, including runoff to 
coastal waters. Use of this provision would be at the discretion of a 
Governor. EPA believes this is a very effective way to the Federal 
Government to make a major financial contribution to implementation of 
CCMPs.
                   iv. protecting the chesapeake bay
Chesapeake Bay Resources and Protection Program
    Chesapeake Bay is a national resource of outstanding significance 
and vital national importance. The Bay, which is served by a watershed 
of 64,000 square miles, provides millions of pounds of seafood, is a 
hub for shipping and commerce, offers habitat for wildlife and fish, 
and provides recreational opportunities for residents and visitors.
    The Chesapeake Bay Program was originally created in 1983 and gets 
its statutory authority from Section 117 of the Clean Water Act. The 
Bay Program's emphasis on watershed management, public participation, 
and voluntary partnerships has been a model for similar efforts 
elsewhere in the United States, as well as in the world. In fact, the 
National Estuary Program was based on the Chesapeake model, and the 
President's Clean Water Action Plan finds its origins in the Program, 
as well.
    There have been many successes in the Bay restoration effort. 
Nitrogen and phosphorus pollution has been reduced dramatically. The 
Program should meet its 40 percent reduction goal for phosphorus in 
2000, but a similar goal for nitrogen reduction will probably not be 
achieved until a couple of years after 2000. The comeback of striped 
bass is a success story that benefits the entire east coast. The 
Program has also provided national leadership in the restoration of 
riparian forest buffers, nutrient management, biological nutrient 
removal at wastewater plants, and many pollution prevention programs.
    The Chesapeake Bay Program, which is a partnership of the Bay 
States, the District of Columbia, local governments and the EPA, is 
currently in the process of creating a new Chesapeake Bay Agreement for 
2000. This process is a cooperative effort by all of the partners and 
it seeks to involve all sectors of the public. Just this month, the 
Chesapeake Bay Program partners held a joint press conference to 
announce the kick-off a new Agreement in 2000, and to solicit public 
input into the process.
Chesapeake Bay Restoration Act--S. 492
    I'd like to thank Senators Sarbanes and Warner, and the rest of the 
Chesapeake Bay delegation, for their leadership and vision in 
introducing the Chesapeake Bay Restoration Act. It is my understanding 
that this bill reflects a consensus among the governments of Maryland, 
Virginia, Pennsylvania and the District of Columbia.
    This bill seeks to continue the highly successful Chesapeake Bay 
Program into the 21st Century. It will allow the Bay Program to better 
develop new goals and commitments for the next century and implement 
programs to restore and protect the entire Chesapeake Bay watershed. 
For example, the bill authorizes Federal support for small watershed 
programs, assessment of ways to strengthen current protection programs, 
and expanded study of the relationship between living resources of the 
Bay ecosystem and water quality. EPA strongly supports these and 
related provisions of S. 492.
    S. 492 would also increase the authorization for the Bay program 
under section 117 of the Clean Water Act from $13 million to $30 
million. The Administration supports funding of the Chesapeake Bay 
program at levels above the current statutory authorization. The 
President's fiscal year 2000 budget proposes funding of almost $19 
million.
              v. protecting and restoring coastal wetlands
Coastal Wetlands Restoration Challenges and Programs
    The Nation's coastal wetlands are in trouble. Thousands of acres of 
coastal wetlands have already been lost and additional acres have been 
degraded by pollution. Because of the alteration of several important 
coastal wetland processes over the past 75-80 years, Louisiana has lost 
more than 600,000 acres of coastal vegetated wetlands and is now losing 
coastal wetlands at an annual rate of more than 25-35 square miles per 
year (20,000-25,000 acres per year).
    Further, the concentration of the U.S. population along coastal 
areas is a continuing source of development pressure. Threats to 
coastal wetland resources include residential and commercial 
development, agricultural and urban run-off, shoreline modification, 
municipal waste disposal, oil and gas development, and over-harvesting 
of resources.
    Louisiana's 3.5 million acres of coastal wetlands represent about 
40 percent of all of the coastal wetlands in the continental United 
States. These wetlands are an extremely valuable resource. They protect 
against flooding, provide effective storm protection/ buffering, help 
maintain water quality, and provide habitat for fish/shellfish and 
wildlife. Coastal environments are important economically, generating 
billions of dollars annually through such industries as tourism and 
commercial fisheries. Coastal wetland habitats in Louisiana serve as a 
foundation for a $1 billion seafood industry and a $200 million sport 
hunting industry.
    EPA has worked in close partnership with other Federal agencies, 
including the Corps of Engineers, the Fish and Wildlife Service, and 
the Federal Emergency Management Agency, to implement coordinated 
wetlands protection policies and programs. Some of our projects include 
joint rulemakings and guidance as well as participation on the White 
House Interagency Wetlands Working Group. We also have formed 
successful partnerships with State, Tribal and local groups.
    We have made great strides over the last decade at reducing 
wetlands loss. While much remains to be done, the Clinton 
Administration has demonstrated a strong commitment to meaningful 
wetlands protection. EPA has implemented wetlands activities described 
in the Clean Water Action Plan, increasingly integrated wetlands 
regulatory provisions into watershed plans, worked with the Corps to 
make nationwide Permits more environmentally protective, and undertaken 
additional activities that help ensure the wetlands program is fair and 
effective.
    EPA's initiatives and effective partnerships will help to achieve 
the Administration's goal of a net increase of 100,000 wetland acres 
per year by 2005.
Coastal Wetlands Planning, Protection, and Restoration Act
    The Coastal Wetlands Planning, Protection, and Restoration Act 
(Public Law 101-646, Title III--CWPPRA), also known as the Breaux Act, 
was signed into law in 1990. It ensures that State and Federal moneys 
are available for coastal restoration and conservation efforts.
    the Act directed that a Task Force consisting of representatives of 
five Federal agencies (including EPA) and Louisiana develop a 
comprehensive approach to restore and prevent the loss of coastal 
wetlands in Louisiana. A Priority Project List is developed and 
approved by the Task Force each year, outlining which projects will 
receive CWPPRA funding. Pursuant to CWPPRA, coastal restoration 
projects in Louisiana may be eligible to receive 85 percent of the 
project funds through Federal funding. The remainder of the funds are 
used for projects to protect, restore, and enhance coastal wetlands 
under the North American Waterfowl Management Plan.
    EPA has strongly supported CWPPRA as a means to address a 
significant ecological problem, and endorses S. 1119, which provides 
for the extension of authorizations for CWPPRA through 2009 at existing 
levels. It is my understanding that this bill may have a pay-as-you-go 
(PAYGO) impact.
                               conclusion
    Thank you for the opportunity to review the diverse programs EPA is 
implementing to protect and restore coastal waters and to comment on 
proposed measures to protect estuaries, coastal and ocean resources.
    In closing, I want to make a special appeal to the Committee to 
consider the difficult challenges the Agency faces in implementing some 
of the important and needed programs proposed in legislation we have 
discussed today given the budget reductions likely to be imposed on EPA 
in fiscal year 2000.
    Under the congressional budget allocations, EPA may be forced to 
implement significant reductions in fiscal year 2000. If these general 
reductions occur, at the same time that increased appropriations are 
provided at the levels these coastal bills authorize, the Agency might 
have to dramatically reduce current core program efforts. I urge this 
Committee to consider the best overall approach to meeting coastal 
project funding needs in the context of the serious budget constraints 
the Agency is facing.
    In addition, the President's fiscal year 2000 budget calls for new 
authority for Governors to have the option of allocating up to 20 
percent of Federal capitalization grants for Clean Water SRF to make 
grants to implement NEP plans and to implement measures to reduce 
polluted runoff, including runoff to coastal waters. Enactment of this 
new authority for Governors to direct resources to areas of critical 
need will be a major step forward in our efforts to protect and restore 
coastal waters and I hope that the C
    ommittee will agree that this proposal is a key piece to the 
coastal funding puzzle.
    As I have indicated on previous occasions, we welcome dialog with 
the Congress and others concerning the appropriate, long term funding 
level for the clean water SRF program.
    This concludes my remarks and I will be happy to answer any 
questions you may have.
    Thank you.
                                 ______
                                 
  Responses by Charles Fox to Additional Questions from Senator Chafee
    Question 1. Coastal States are concerned that EPA beach monitoring 
and public notification criteria or regulations will be rigid and 
require States to adopt one-size-fits-all programs. States have pointed 
out that beaches in California are different from beaches in Florida or 
beaches in New England. How does EPA intend to develop criteria that 
will provide uniform, consistent, national standards while still 
allowing States the flexibility to take into account site specific 
conditions?
    Response. EPA agrees that beach monitoring and public notification 
programs must be consistent nationally in order to provide better 
public health protection but that site-specific flexibility for States 
is important. S. 522 and H.R. 999 would require EPA to develop 
standards for recreational water quality, water quality monitoring, and 
public notification.
    Both bills include provisions for consistent water quality 
standards. EPA believes that consistent, scientifically defensible 
water quality standards for States and tribes are very important. These 
standards provide the scientific and programmatic framework for 
enhancing protection of public health at beaches. EPA is working with 
all States and tribes to ensure that they adopt State standards that 
incorporate the Agency's published criteria for Escherichia cold and 
enterococci; research data support the use of these microbes as 
indicators of swimming- associated gastrointestinal disease. The water 
quality standards program framework established by the Clean Water Act 
and continued by the bills is flexible, allowing for State variation 
consistent with protection of public health and good scientific 
practice, and revisions by EPA as new microbiological indicators, 
monitoring protocols, and models are developed.
    The bills also include provisions for EPA to establish either 
performance criteria or regulations for all other aspects of a beach 
monitoring and notification program. EPA intends to work with State and 
local governments to develop these performance criteria/regulations. In 
developing these performance criteria/regulations, EPA would 
incorporate available scientifically valid tools for predicting health 
risks associated with recreational waters, and promote the use of these 
tools within a nationally consistent framework for recreational water 
monitoring and notification. We anticipate that EPA performance 
criteria/regulations would provide flexibility to accommodate local 
circumstances. For example, EPA will consider the significance of site-
specific conditions (e.g. known pollution discharges; hydrological 
factors such as water depth, distance from shore, currents; rainfall 
events, beach usage, etc.).

    Question 2(a). EPA has recommended targeted monitoring of certain 
beaches. Given the extremely scarce resources at the Federal, State, 
and local level, how would EPA target its monitoring?
    Response. EPA believes that beaches should be targeted for 
monitoring on the basis of recreational use and public health risk. 
This targeting can be accomplished by focusing on high use beaches, 
such as those with lifeguards, and known risk factors, such as 
proximity to storm sewer or combined sewer outfalls. Through its 
National Health Protection Survey of Beaches, EPA has compiled 
information on swimmer use and on known sources of pathogen 
contamination at coastal and Great Lakes beaches. This and other 
available water quality data (such as State or local data) will be 
useful in setting priorities for beach monitoring and notification 
activities.

    Question 2(b). Do all beaches suffer from contamination and need to 
be monitored, or only beaches in certain areas?
    Response. The goal of State and local governments should be to 
maintain a regular monitoring program for all their waters. However, we 
recognize the need to prioritize waters due to resource constraints. In 
order to protect public health, EPA believes that beach monitoring 
should be conducted at high recreational use beaches, in both inland 
and coastal areas. The highest priority for monitoring could be 
assigned to those beaches associated with known risk factors such as 
proximity to storm sewer or combined sewer outfalls.

    Question 3(a). While some States have statewide monitoring and 
notification programs, many States do not. Does EPA know why so many 
States and local governments are unable to implement monitoring and 
notification programs?
    Response. Implementation of beach monitoring and notification 
programs is inconsistent among and within States. Inconsistency exists 
because of differences in microbial water quality standards, testing 
methods, and beach advisory and closing practices. Monitoring is also 
limited by the availability of resources. To enable nationally 
consistent implementation of beach monitoring and notification 
programs, EPA intends to provide the guidance, tools, and training 
needed by State and local governments. EPA will develop and validate 
predictive models for assessing recreational waters. EPA will develop 
better, faster indicators of disease causing organisms. EPA will also 
develop and provide training on guidance for beach water quality 
monitoring, risk assessment, and risk communication.

    Question 3(b). Do States and local governments possess the 
resources to develop and implement such programs in the absence of 
Federal grants?
    Response. We have not conducted any formal analyses of States' and 
local governments' ability to finance these programs; however, lack of 
resources is cited anecdotally by States and local governments.

    Question 3(c). What are EPA's estimates of the cost to develop and 
implement statewide monitoring and notification programs? Does this 
estimate include the cost to upgrade testing protocols?
    Response. EPA has developed a preliminary estimate of the cost to 
implement a beach monitoring and notification program in all coastal 
and Great Lakes States. However, there are limitations to this 
estimate, including the fact that it does not factor in existing State 
beach monitoring expenditures and there is uncertainty about the total 
number of beach miles to be monitored.

    Question 4. EPA has placed the main stem of the Chesapeake Bay on 
the Virginia list of impaired waters.
    Should this be taken as an indication that EPA believes the 
voluntary approach implemented by the Chesapeake Bay program was not 
achieving results fast enough?
    What effect, if any, will listing the Chesapeake Bay have on the 
operation of the Bay program?
    Will completion of a total maximum daily load (TMDL) plan for the 
Chesapeake Bay require the implementation of additional control 
measures beyond what is currently contemplated by the Bay program?
    Response. Section 303 (d)(1) of the Clean Water Act and EPA's 
implementing regulations requires States to list those waters which, 
after application of technology-based and other controls, are not 
achieving water quality standards. The statute and regulations then 
require that TMDLs be developed for waters on the list unless the TMDL 
developing authority determines that no TMDL is necessary for the water 
(I, because the water is achieving applicable water quality standards 
or is reasonably expected to achieve applicable water quality standards 
as a result of required controls).
    While the Chesapeake Bay States have made much progress in the 
recovery of the Bay, pollution levels continue to impair the living 
resources in the Bay including the Bay grasses, finfish and shellfish. 
These impairments, which disrupt the natural ecology of the Bay, are 
primarily caused by low levels of dissolved oxygen, which is traced to 
excessive nutrients. For this reason Maryland listed the Bay on their 
303(d) list and EPA added the Bay and certain tributaries to the 303(d) 
list in Virginia.
    Identifying the Chesapeake Bay for TMDL development will be 
harmonized with the ongoing Chesapeake Bay program. EPA sees the 303(d) 
process as a supplement to help assure that water quality standards 
will be met. While great progress has been made, it is uncertain if the 
Chesapeake Bay program will bring the Chesapeake Bay back to attainment 
of water quality standards. If as a result of these voluntary and 
regulatory programs the Bay achieves water quality standards, it need 
not be included in future section 303(d) lists and thus would not need 
a TMDL. If the voluntary approach is not sufficient for the Bay to 
achieve water quality standards, then the Clean Water Act requires EPA 
and the States to continue with the development of a TMDL. The 
perception that the Chesapeake Bay Program nutrient reduction strategy 
is totally voluntary is somewhat misleading. Point source reduction of 
phosphorous have been incorporated into NPDES permits for more than 3 
decades, and where necessary so have nitrogen.
    Under an agreement reached by the EPA Regional Administrator and 
the State environment and natural resources secretaries in Maryland, 
Pennsylvania and Virginia, the Chesapeake Bay Program will continue to 
pursue nutrient reduction goals under its cooperative approach, while 
laying the groundwork for a TMDL if those efforts fall short. The 
States of Delaware, New York, and West Virginia, as well as the 
District of Columbia are part of this broad effort. A consensus is 
emerging that this will entail working together over the next decade to 
reduce the nutrient inputs to the Bay and its tidal tributaries by 
2010, thus allowing the Bay to meet water quality standards and the Bay 
to be ``delisted''.
    The Bay nutrient goals have been established since 1987. While EPA 
commenced discussion with the States on an approach for developing a 
TMDL for the Bay, we have not yet drawn out a timeframe for the TMDL 
but expect to wait until 2010 to see if the Bay meets water quality 
standards. Since the development of a TMDL for the Bay is a complex 
scientific effort involving 6 States and the District of Columbia, our 
expectation is that it could take 5 to 10 years to complete this TMDL. 
Thus, EPA believes that the cooperative approach will be given ample 
time to demonstrate effectiveness in achieving water quality standards. 
All the participating States also have mandatory nutrient management 
laws applying to agricultural activities.

    Question 5. The Chesapeake Bay watershed includes parts of six 
different States and the District of Columbia. Pollution is flowing 
into the Chesapeake comes from multiple different States. Several of 
those States have neither signed the Bay agreement nor become part of 
the Chesapeake Bay program. How would Virginia go about implementing a 
TMDL for pollution originating outside of the State?
    Response. The Administration has on many previous occasions 
identified the Chesapeake Bay Program as one of the leading examples in 
the United States of successful approaches to solving water quality 
problems on a watershed basis. The Bay Program has been implementing a 
policy, adopted in 1992, of engaging all of the States in the 
watershed, not just the signatories to the Bay Agreement, in 
cooperative approaches to address specific issues of need. Nutrient 
management through point and non-point source controls was identified 
as an area for early action and attention. The Program has witnessed 
significant progress and growth in the relationship with non-signatory 
States in addressing selected issues.
    With regard to the specific challenge of developing TMDLs for the 
entire watershed, the Principals' Staff Committee of the Chesapeake Bay 
Program discussed, in June 1999, the need to integrate the cooperative 
and statutory programs of the Chesapeake Bay and its tributaries. Since 
then, representatives from all of the six Bay watershed States, the 
District of Columbia, EPA, and others have held three meetings and 
several conference calls to outline a process for continuing a 
watershed process to restore the Chesapeake Bay. The group has reached 
several agreements on approach and guiding principles. These include 
the goal of improving the water quality in the Bay and its tributaries 
so that the waters may be removed from the impaired waters list 
(delisted) prior to the timeframe when a TMDL would be established. A 
target date of 2010 was established for this. In addition, they agreed 
that the Year 2000 Chesapeake Bay Agreement would more clearly define 
the relationship between the Bay Program and the Clean Water Act 
listing and TMDL processes.
    Most importantly, the group of States has agreed to continue 
working together on a watershed basis to address the impairment problem 
in the main Bay which was the cause of the 303(d) listing for Virginia. 
They are fully cooperating in the development of the next round of 
nutrient reductions through the expanded TMDL effort.
    The Chesapeake Bay Program and EPA will continue to provide the 
leadership and a coordinating role for this group since it clearly 
involves a multi-state effort to be successful.
                                 ______
                                 
    Response by Charles Fox to an Additional Question from Senator 
                               Lautenberg
    Question. My Beaches Environment Assessment, Closure, and Health 
Act (S. 522) gives EPA flexibility in creating regulations for beach 
water quality criteria and for monitoring and notification programs. 
Under this framework, States have ample opportunity to adopt their own 
programs. In fact, States have 3 years and 180 days to develop 
acceptable water quality criteria and monitoring and notification 
programs specific to the States' needs. States may also delegate 
responsibility to local government authorities. Does EPA intend to work 
with the States to allow them to develop flexible plans that take into 
consideration the individual States' situations?
    Response. EPA agrees that beach monitoring and public notification 
programs must be consistent nationally in order to provide better 
public health protection but that site-specific flexibility for States 
is important. S. 522 and H.R. 999 would require EPA to develop 
standards for recreational water quality, water quality monitoring, and 
public notification.
    Both bills include provisions for consistent water quality 
standards. EPA believes that consistent, scientifically defensible 
water quality standards for States and tribes are very important. These 
standards provide the scientific and programmatic framework for 
enhancing protection of public health at beaches. EPA is working with 
States and tribes to ensure that they adopt State standards which 
incorporate the Agency's published criteria for Escherichia cold and 
enterococci; research data support the use of these microbes as 
indicators of swimming-associated gastrointestinal disease. The water 
quality standards program framework established by the Clean Water Act 
and continued by the bills is flexible, allowing for State variation 
consistent with protection of public health and good scientific 
practice, and revisions by EPA as new bacteriological indicators, 
monitoring protocols, and models are developed.
    The bills also include provisions for EPA to establish either 
performance criteria or regulations for all other aspects of a beach 
monitoring and notification program. If either bill is enacted, EPA 
intends to work with State and local governments to develop these 
performance criteria/regulations. In developing these performance 
criteria or regulations, EPA would incorporate available scientifically 
valid tools for predicting health risks associated with recreational 
waters, and promote the use of these tools within a nationally 
consistent framework for recreational water monitoring and 
notification. We anticipate that EPA performance criteria/regulations 
would provide flexibility to accommodate local circumstances. For 
example, EPA will consider the significance of site-specific conditions 
(e.g. known pollution discharges; hydrological factors such as water 
depth, distance from shore, currents; rainfall events, beach usage, 
etc.).
                               __________
 Statement of Michael L. Davis, Deputy Assistant Secretary of the Army 
                for Civil Works, Department of the Army
                              introduction
    Mr. Chairman and members of the Committee, I am Michael L. Davis, 
Deputy Assistant Secretary of the Army for Civil Works. I am here today 
to discuss the Army Corps of Engineers environmental restoration and 
protection mission and present the Department of the Army's views on S. 
835, the Estuary Habitat Restoration Partnership Act of 1999. I will 
also discuss the Coastal Wetlands Planning, Protection and Restoration 
Act (CWPPRA), commonly referred to as the Breaux Act and S. 1119, which 
extends funding for implementation of CWPPRA.
             army corps of engineers environmental mission
    For over 200 years the Nation has called upon the Army Corps of 
Engineers to solve many of its water resources problems. Historically, 
the Corps has emphasized its traditional mission areas of improving our 
navigation and transportation system, protecting our local communities 
from flood damages and other disasters, and maintaining and improving 
hydropower facilities across the country. The Corps environmental 
activities have expanded over time with major changes in environmental 
law and policy, such as the National Environmental Policy Act of 1969, 
which requires each Federal agency to assess fully its actions 
affecting the environment, and the Federal Water Pollution Control Act 
of 1972 (commonly called the Clean Water Act) in which the Corps was 
given a major responsibility for regulating the discharge of dredged or 
fill material into all of our Nation's waters, including wetlands. In 
recent years, however, pursuant to the Water Resources Development Act 
(WRDA) of 1986 and subsequent WRDAs, the Corps has elevated its 
environmental restoration and protection mission to a status equal to 
its flood damage reduction and navigation missions. With an overall 
objective to link economic growth with protection of the environment, 
the Corps now uses its engineering, project management, real estate, 
and environmental expertise to address environmental restoration and 
protection opportunities.
    The Corps has a powerful toolkit of standing authorities and 
programs that can be brought to bear to help solve environmental 
problems. Over the last decade alone the Corps has helped to restore 
hundreds of thousands of acres of habitat of many types, and which 
benefit thousands of fish and wildlife species. Examples include: 
28,000 acres of habitat restored for the Upper Mississippi River 
(98,000 projected by 2005); 35,000 acres of restored flood plain under 
construction as part of the Kissimmee River Restoration Project in the 
Florida; and, hundreds of acres of coastal wetlands restored under 
authorities for the beneficial use of dredged material for ecosystem 
restoration.
    On July 1, the Army submitted to Congress a comprehensive plan to 
restore the Everglades. The plan proposes the world's largest ecosystem 
restoration project, one which will help restore over 2.4 million acres 
of wetlands in the south Florida Ecosystem as well as improve the 
health of estuaries and Florida Bay.
    We are especially proud of our efforts on all coasts in conjunction 
with the Coastal America initiative. Some examples of projects where 
the Corps led multi-agency, multi-level efforts (Federal, State, local 
and private) include: restoration of a coastal salt marsh area in the 
Galilee Bird Sanctuary, Rhode Island; the initial demonstration area 
for restoration of tidal wetlands in the Sonoma Baylands, California; 
the Sagamore Salt Marsh Restoration, Massachusetts; restoration of 1100 
acres to provide riparian and submerged habitat at Poplar Island, 
Chesapeake Bay, Maryland; and, shoreline stabilization and submerged 
aquatic vegetation restoration around Tangier Island in the Chesapeake 
Bay. Our fiscal year 2000 budget request includes study funds for 12 
potential projects directed at protecting or restoring the benefits of 
estuaries, as well as funding for many other activities that would be 
beneficial to the environment in or adjacent to our Nation's estuaries.
              significance of estuarine and coastal areas
    Throughout the world, estuarine and coastal areas serve as focal 
points for human use and development. These same areas also perform 
critical functions from an ecosystem perspective, providing habitat and 
food for myriad fish and wildlife species. Estuaries are unique in that 
they serve as a transition zone between inland freshwater systems and 
uplands, and ocean marine systems. There is an urgent need to protect 
and restore these ecosystems recognizing the economic, social, and 
environmental benefits they provide. In this regard, we would add as a 
purpose of the bill the need to promote a greater public appreciation 
and awareness of the value of our estuary and coastal resources. As 
with many environmental issues, future generations depend upon our 
actions today.
    Legislation to expand the authority of the Corps to use its unique 
skills and experience to restore and protect estuary habitat would add 
to the Corps environmental portfolio. The authorities are being applied 
to achieve an economically and environmentally sustainable future for 
the Nation and the world. Let me assure you that the Department of the 
Army is prepared to take a leadership role in reaching the goals of S. 
835. Army would approach implementation of S. 835 in accordance with 
the policies and procedures which grew out of the Water Resources 
Development Act (WRDA) of 1986, subsequent WRDAs, and long-standing 
partnership and public involvement practices.
    Additionally, Army would explore the possibility of using the 
existing organization and structure of the Coastal America partnership 
to jump-start restoration efforts. Coastal America has National and 
Regional Implementation Teams already in place, and many of the members 
of these teams would be the very same experts we would consult with 
under S. 835.
                                 s. 835
    I would now like to focus on the Department of the Army views on S. 
835. The Department of the Army supports efforts to enhance 
coordination and efficiently finance environmental restoration and 
protection projects. The goal of restoring 1 million acres of estuary 
habitat by the year 2010 is in consonance with the President's Clean 
Water Action Plan and its goal of a net increase of 100,000 acres of 
wetlands, annually, beginning in the year 2005. We also agree with the 
philosophical basis for the legislation, that estuaries and coastal 
areas are being degraded rapidly, and that there is an urgent need to 
attain self-sustaining, ecologically based systems that are integrated 
into surrounding landscapes. The proposed national framework, or 
national estuary habitat restoration strategy, to be completed at the 
end of the first year, should help partners identify and integrate 
existing restoration plans, integrate overlapping plans, and identify 
processes to develop new plans where they are needed. This framework 
document could help us maximize incentives for participation, leverage 
Federal resources, and minimize duplication of efforts. We support the 
requirement to publish the draft strategy in the Federal Register for 
review and comment to enhance public involvement. We believe that the 
legislation is consistent with the National Estuary Program (NEP), 
which was established to manage and protect aquatic ecosystems in 
coastal watersheds, and the National Estuarine Research Reserve System 
(NERRS), which uses science to improve management of estuaries. The NEP 
and the NERRS strive to protect and restore habitat through consensus 
and initiatives which are community-based. The legislation also is 
consistent with the Coastal Wetlands Preservation Protection and 
Restoration Act, a unique multi-Federal and State agency partnership 
which is working to restore and protect approximately 73,000 acres of 
coastal wetlands in Louisiana over a 20-year period.
    We are pleased to note that important changes that the Army 
requested at your Committee hearing held on S. 1222 last Congress have 
been incorporated into S. 835. These changes limit Federal assistance 
for each habitat project to 65 percent of project cost, strengthen the 
role of the Secretary of the Army commensurate with the need for 
accountability for appropriations received, and allow the Collaborative 
Council to consider, where appropriate, non-governmental organizations 
as sponsors for environmental restoration and protection projects. We 
also are pleased that the bill makes it clear that the term ``estuary 
habitat restoration activity'' does not include mitigation for the 
adverse effects of an activity regulated or otherwise governed by 
Federal or State law, or acts that constitute restitution for natural 
resource damages required under any Federal or State law.
    While S. 835 is a bill that the Department of the Army could 
support, we urge the Committee to revise the bill to include the 
Federal agency participation on the Collaborative Council and 
establishment of the Regional Council structure set forth in the 
companion House bill, H.R. 1775. We feel that S. 835 could be revised 
to make it clear that non-Federal sponsors are responsible for 
providing all lands, easements, rights-of-way, dredged material 
disposal areas and relocations, as is required for Army civil works 
water resources projects. We also believe that the Secretary, not the 
Collaborative Council, should make the determination, in accordance 
with existing water resources policies, as to the acceptability and 
valuation of any in-kind contributions for local cost sharing. As is 
the case with essentially all water resources projects undertaken by 
Army Civil Works, the Secretary may consider giving non-Federal 
sponsors credit, toward their cost share, for lands, easements, rights-
of-way, dredged material disposal areas and relocations required for 
the Federal project.
    We urge you to consider expanding the geographic scope of the 
habitat protection and restoration activities proposed in S. 835 to 
include the Great Lakes region, which is widely recognized as a coastal 
region of the United States. This coastal region has many ecosystem 
problems that mirror those of more traditional coastal areas and has, 
for that reason, been included as a coastal region in the programs 
authorized under the Coastal Zone Management Act of 1972, as amended, 
and in the Administration's Coastal America Initiative. We believe that 
the addition of a regional council representing the Great Lakes region, 
to include the States of Minnesota, Wisconsin, Illinois, Indiana, 
Michigan, Ohio, Pennsylvania and New York, merits serious 
consideration. You also may wish to consider including the islands and 
territories of the United States for similar reasons.
    Many environmental restoration techniques and approaches are new, 
and when dealing with natural systems, there is a need to test new 
ideas, learn from successful and not so successful projects, and manage 
adaptively to adjust to ever-changing conditions. Environmental 
restoration efforts for the Everglades, the Upper Mississippi River 
System Environmental Management Program, and the Coastal Wetlands 
Preservation Protection and Restoration Act, all acknowledge, to 
varying degrees, the value of demonstration projects and adaptive 
assessment approaches. Adding to S. 835 a demonstration component with 
a cost share that is consistent with that applied to habitat projects, 
and a requirement for non-Federal sponsors to manage adaptively, would 
encourage the partners to try out new ideas and learn more about how to 
restore and protect estuary and coastal areas.
    The Army Civil Works program plays a critical role in providing and 
maintaining water resources infrastructure to meet future needs in 
consonance with other national priorities and a balanced budget. We try 
to avoid creating false hope by not authorizing projects that we cannot 
reasonably expect to fund or complete within a reasonable timeframe. In 
light of the $27 billion backlog of ongoing Corps construction 
projects, and other authorized projects awaiting construction, the 
dollar magnitude of new projects and programs in the Administration's 
proposal for WRDA 1998 was constrained. Thus, while we could support 
being involved in a program to restore and protect estuaries and 
coastal areas, we are concerned that this new program could impact on 
other new and ongoing projects and programs which have been carefully 
prioritized and evaluated for phased implementation over a period of 
years. We are committed to a sustainable long-term construction program 
and more timely project delivery to non-Federal sponsors.
    We applaud the co-sponsors of S. 835 for their vision and 
leadership in this area. The Army supports S. 835 and looks forward to 
working with you and your House counterparts in enacting such 
legislation.
       coastal wetlands planning, protection and restoration act
    The Army also supports S. 1119, which provides continued funding 
for the Coastal Wetlands Planning, Protection and Restoration Act 
(CWPPRA), an integral foundation to the implementation of more 
comprehensive, longer term solutions to the National problem of coastal 
losses. As I noted earlier, coastal wetlands are valuable resources 
because they protect against flooding, help maintain water quality, and 
provide habitat for myriad fish and wildlife species, many of them 
threatened and endangered. Coastal environments generate billions of 
dollars annually through such industries as tourism and sport and 
commercial fisheries. Coastal wetlands also provide infrastructure 
protection by reducing damage from hurricanes and other storms.
    Louisiana's coastal wetlands provide habitat for fisheries, 
waterfowl, neo-tropical birds and furbearers; amenities for recreation, 
tourism, and flood protection; and the context for a culture unique to 
the world. Benefits go well beyond the local and State levels by 
providing positive economic impacts to the entire nation.
    Approximately 40 percent of the coastal wetlands of the lower 48 
States are located in Louisiana. Over the past 50 years, Louisiana has 
lost an average of 40 square miles of marsh per year. This represents 
80 percent of the Nation's annual coastal wetland loss for the same 
period. If the current rate of coastal wetland loss is not slowed, by 
the year 2050 an estimated additional 640,000 acres of wetlands will 
disappear from the Louisiana coast. As a result, the Louisiana 
shoreline could advance inland as much as 33 miles in some areas. The 
loss of coastal wetlands is a national problem. However, Louisiana is a 
showcase for this issue. Economic losses are substantial and could run 
into the billions over 50 years.
    By serving as a buffer to destructive climatic forces and the 
episodic impact of storms, Louisiana's coastal wetlands provide 
protection for the people who live and work there and the 
infrastructure that supports them--including 400 million tons of 
waterborne commerce per year (the largest in the nation), natural gas 
valued at $7.4 billion per year, and petroleum products valued at $30 
billion per year.
    Concerns for wetland losses have prompted both Louisiana and 
Congress to act. In 1989, Louisiana established a dedicated Wetlands 
Trust Fund for coastal wetlands restoration. Congress passed the 
Coastal Wetlands Planning, Protection and Restoration Act (CWPPRA) in 
1990. Commonly referred to as the Breaux Act, it created a CWPPRA Task 
Force with representatives from the Department of Army, the 
Environmental Protection Agency, the Department of Commerce, the 
Department of Interior, the Department of Agriculture and the State of 
Louisiana. The Task Force provide oversight and develops, annually, 
lists of high priority projects focused on marsh creation, restoration, 
protection or enhancement.
    To date eight priority lists have been formulated involving 81 
active projects, 30 of which have been completed. When implemented, 
these projects will reduce the loss of coastal wetlands by 67,726 acres 
over the next 20 years. It should be noted, however, that the CWPPRA 
and the other Corps small projects authorities are only a partial 
solution. The current rate of wetland loss is staggering and 
projections are that only 23 percent of coastal wetland losses will be 
offset by gains accomplished under these authorities.
    S. 1119 may be subject to the pay-as-you-go requirements of the 
Omnibus Budget Reconciliation Act of 1990, in which case the bill could 
have an appreciable impact on direct spending.
                               conclusion
    The Corps has been increasingly involved in recent years with 
efforts to protect and restore the benefits of estuaries and their 
surrounding habitat. We have enjoyed working with you and your staff on 
S. 835 and other legislation before your committee, including a 1999 
WRDA. We look forward to continuing this relationship as work on this 
important legislation continues. The Department of the Army is also 
looking forward to working with the Environmental Protection Agency, 
the Departments of Commerce, Agriculture, Interior, and Transportation, 
and the non-Federal participants in the designated coastal regions, to 
restore and protect our nation's estuary habitat. You can be assured 
that Army Civil Works is committed to making partnerships work. Mr. 
Chairman, this concludes my testimony. I would be pleased to answer any 
questions you or the committee may have.
                               __________
       Statement of Mayor Martin L. Pagliughi, Avalon, New Jersey
    Ladies and Gentlemen, my name is Martin L. Pagliughi. As Mayor of 
Avalon, New Jersey, a barrier island tourist community, and a Board 
Member of the American Coastal Coalition, I am very pleased to be here 
today and thank Senators John H. Chafee, Chairman, and Max Baucus, 
Ranking Member of the Committee on Environment and Public Works, for 
the invitation to testify here today. I also express my appreciation to 
Senator Frank Lautenberg for the opportunity to speak in support of his 
BEACH Act, which proposes the establishment of uniform testing of 
marine recreational waters and which will establish a nationwide 
standard for notifying the public when waters are contaminated. The 
Senator's bill provides for swift implementation of the testing 
program, which is imperative.
    I am very proud of the fact that since 1985 New Jersey is the only 
State to have a mandatory beach protection program that includes a 
bacteria standard, a monitoring program, and mandatory beach closure 
requirements when the bacteria standard is exceeded. But I also am 
appalled that 14 years later we still do not have a nationwide, 
mandatory testing program of our recreational waters, which so 
critically impacts (1) public health and (2) the U.S. economy!
    Does it make any sense to carefully monitor foods and drugs in this 
country to protect public health, yet permit people to swim in untested 
recreational waters? We know for a fact marine waters can appear clean 
but may harbor life-threatening pathogens.
    You may recall that in 1987-88 New Jersey experienced beach 
closings due to trash and medical waste washing ashore, losing almost 
$3 billion in tourism revenues. Unfortunately, those tourists, who left 
to go elsewhere, had no assurance of the quality of the water where 
they went because neighboring States had no similar water quality 
testing program.
    To regain our previously loyal beach goers, obviously we had to fix 
a variety of pollution problems. This we have done. Last week the 
Natural Resources Defense Council announced that beach closings in New 
Jersey were at a record low. But without the Cooperative Coastal 
Monitoring Program, that would not have happened.
    Here's how the program works in Avalon. The county health 
department samples water quality weekly at 10 recreational sites from 
mid-May through mid-September, testing for fecal coliform and enterocci 
bacteria. If the bacterial count at any of the sites is above the 
permissible limit, the beach is closed to swimmers. This means large 
signs are posted advising bathers they are not permitted to swim, and 
lifeguards remain on duty to prevent the public from entering the 
water.
    Obviously, beach closings are not a PR plus for a tourist 
community. But they are a must when you are putting the health and 
welfare of your visitors first and foremost. Fortunately, in Avalon, we 
have not had a beach closing in years. But that is not by accident. 
Since 1991 Avalon has won seven of eight Quality New Jersey Shore 
Quality Awards for the steps we have taken to prevent pollutants from 
entering recreational waters. With the threat of possible beach 
closings, we have taken those steps necessary to assure that water 
quality remains excellent.
    During the last decade Avalon has spent many millions of dollars to 
prevent non-point source pollution, which is the primary cause of 
pathogens entering recreational waters. Major expenditures have been 
made on equipment to clean beaches, skeets and catch basins, and on 
projects such as storm water disposal system rehabilitation, repair and 
relocation of outfall lines, manhole cover repair, the installation of 
tide flex valves on storm water outfalls, required capping of all sewer 
vents, TV inspection of our infrastructure, and intense litter 
abatement, to name a few.
    Avalon has undertaken these projects with little outside help. But 
Senator Lautenberg's legislation, with the inclusion of $9 million in 
grants to States, should help get the ball rolling. By enacting this 
legislation you will send a message to the world that we in the U. S. 
care about the public health of tourists who visit our beaches.
    I would remind you that the No. 1 tourist destination in the United 
States is the beach, with coastal States receiving about 85 percent of 
all tourist-related revenues, generating billions of Federal tax 
dollars. Foreign tourists who also prefer U.S. beaches, create a 
significant trade surplus.
    Therefore, it is incredible to me that our Federal Government makes 
such a feeble effort to support, promote and improve our nations 
beaches and recreational waters. In the future, we will pay for such a 
lax attitude. Meanwhile, other counties, who wish to compete, are hard 
at work. From 1950 to 1993 the United States subsidized only $15 
million in shore restoration projects versus Germany which spent $90 
million; Spain, $250 million and Japan, $1.4 billion.
    If we are going to maintain our edge in world tourism, we must be 
able to give visitors assurance that we have the world's best beaches 
and that all U.S. recreational waters are monitored uniformly and 
consistently. They must know that if there is a problem, they will be 
advised and prohibited from entering waters that could be dangerous to 
their health.
    That is why the Federal Government must immediately begin to 
address the quality of its beaches and recreational waters. We are 
meeting that challenge in New Jersey and I'm here today in support of 
Senator Lautenberg's BEACH Act which would make water quality testing 
mandatory nationwide. It is time this nation begins to protect and 
enhance one of its most economically vital assets--its beaches and 
recreational waters.
    Again, my sincere thanks to Senators Chafee, Baucus and Lautenberg 
for the opportunity to testify here today.
                                 ______
                                 
  Responses by Mayor Martin L. Pagliughi to Additional Questions from 
                             Senator Chafee
    Question 1. While New Jersey has a statewide monitoring and 
notification program, many other coastal states do not. Why do so few 
state or local governments have monitoring and notification programs?
    Answer. My experience has been that it is rare for local government 
to police its own activities. In fact, a local government might even be 
tempted to hide or cover up a situation which they believe may be 
detrimental to the financial well being of their community.
    However, with a federal monitoring program in place, I believe it 
would be highly unlikely for state or local government to deliberately 
conceal violations. In fact it would behoove local government to 
aggressively enforce and attack any potential contamination problems.
    New Jersey is a perfect example of the latter. In 1986 health care 
professionals and the public described illnesses thought to be related 
to swimming at New Jersey beaches. In 1987 the New Jersey Department of 
Health initiated a comprehensive study, greatly expanding the Ocean 
Outfall Monitoring Program begun in 1984. For the most part the study 
did not reveal any contamination exceeding permitted limits but the 
damage already had been done in the public mind. In 1987 and 1988 
tourists deserted their favorite Jersey beaches and headed into 
Delaware, Maryland, North Carolina and elsewhere where monitoring, 
notification and beach closure programs were non-existent. Billions of 
New Jersey tourist dollars were lost. As a result, New Jersey coastal 
communities, my own community of Avalon included, have spent millions 
of dollars to prevent non-point source pollution, which is the primary 
cause of pathogens entering recreational waters, to prevent a 
reoccurrence of the 1987-88 fiasco.

    Question 2. Congress has traditionally viewed beach monitoring and 
public notification as a state or local government responsibility. Why 
should the federal government become involved in how local governments 
monitor their waters and notify their citizens?
    Answer. The federal government has an obligation to protect the 
public health. Thus, it needs to establish a uniform beach monitoring 
and notification program for all recreational waters. Without a 
consistent program nationwide, tourists are permitted to leave a 
monitored area, where a beach has been closed due to contamination, and 
head for unmonitored waters where contamination could be more 
hazardous.
                                 ______
                                 
  Responses by Mayor Martin L. Pagliughi to Additional Questions From 
                           Senator Lautenberg
    Question 1. In 1985 New Jersey enacted laws that require a 
statewide program that includes monitoring of beach waters, public 
notification of the water quality and mandatory closure of beaches when 
the waters have excessive amounts of bacteria. Can you describe the 
initial and long-run public reaction to the beach waters being tested 
and, as a result, sometimes facing closed beaches?
    Answer. New Jersey initiated comprehensive water monitoring when 
there already was a perception New Jersey waters were polluted. Thus 
the initial reaction by the public was fear of swimming in the ocean 
off the Jersey coast and, in many cases, desertion to other tourist 
locations. However, because New Jersey communities have taken 
extraordinary steps to prevent pollutants from entering recreational 
waters, ocean testing has shown New Jersey waters to be clean. Thus, 
there have been fewer and fewer beach closings. The public has reacted 
very positively and has returned to their favorite vacation spots along 
the Jersey coast. As for the occasional beach closure, I believe the 
public has become educated to the fact that it is for their own 
protection and appreciates that the public health is being safeguarded. 
Unfortunately, because there is no federal beach monitoring and 
notification program, there is always the threat of contamination of 
New Jersey waters from neighboring states who have no program in place.

    Question 2. You mentioned in your testimony how much the Nation 
financially benefits from tourism and general recreational activities 
at beaches. Can you explain either with concrete numbers, or in general 
terms, how you have seen New Jersey benefit financially by maintaining 
a coastal water monitoring and public notification program?
    Answer. During 1987-88, the public had the perception that New 
Jersey coastal waters were contaminated due to beach closings because 
trash and medical waste had washed ashore. As a result, New Jersey lost 
almost $3 billion in tourism revenues. Once beach monitoring results 
proved our waters were clean, vacationers began to return in ever 
increasing numbers. In recent years tourism to the Jersey shore has 
been on the upswing. In 1996, tourism throughout the state generated 
approximately $25 billion. And it appears 1997, 1998 and 1999 will 
substantially surpass that dollar amount.

    Question 3. As you know, protecting public health remains the 
paramount objective of my Beaches Environmental Assessment, Closure, 
and Health Act (S. 522). As you astutely noted in your testimony, it 
will take up to six years under the House bill before public coastal 
waters have monitoring and notification programs. If other States are 
allowed to delay implementing programs, how does that negatively affect 
those States that are actively trying to protect the public?
    Answer. Permitting other states to delay implementing monitoring 
programs could very adversely effect not only those states who have a 
monitoring program in place but the tourist industry as a whole! We 
know that the number one tourist destination in the U.S. is the beach, 
with coastal states receiving about 85% of all tourist-related 
revenues, generating billions of federal tax dollars. If there were a 
sudden rash of illnesses among tourists swimming in waters off a 
coastal state with no monitoring program in place, the perception more 
than likely would be that swimming in the ocean can be hazardous to 
ones health and that beach vacations are not a good idea. This not only 
would be extremely unfair to New Jersey and any other states with a 
monitoring program in place, but could prove an economic disaster for 
the nation as a whole. The immediate implementation of Senator 
Lautenberg's Beach Act would give visitors assurance that we have the 
world's best beaches and that all U.S. recreational waters are 
monitored uniformly and consistently.
                               __________
      Statement of Ted Danson, President, American Oceans Campaign
    Mr. Chairman and Members of the Committee: Good morning. My name is 
Ted Danson. I am the President and cofounder of American Oceans 
Campaign. American Oceans Campaign (AOC) is a national, nonprofit 
organization based in Santa Monica, California and is dedicated to 
protecting and enhancing our nation's oceans and coastal resources.
    On behalf of AOC and the many other organizations that endorse the 
B.E.A.C.H. bills, I wish to express my thanks to Senators Chafee and 
Baucus, and the other members of the Senate Environment and Public 
Works Committee, for inviting me to testify today on the B.E.A.C.H. 
bills.
    Since the early 1990's, American Oceans Campaign has focused a 
significant amount of attention to the health of recreational beach 
waters. Working with many, dedicated advocates from different regions 
of the Nation, we have long-supported reducing coastal water pollution, 
improving beach water testing programs, and consistently informing the 
public about contaminated beach waters. We have worked with Los Angeles 
County to improve its beach water testing protocol and advocated for a 
California beach water monitoring and public notification bill, which 
was enacted into law. Additionally, AOC produces and distributes many 
television, radio, and print public service announcements about beach 
water quality. Over the last 2 years, these PSAs have reached hundreds 
of millions of people.
    This year, AOC, the Surfrider Foundation, the Center for Marine 
Conservation, the Clean Water Network and many other organizations were 
strong advocates for the passage of H.R. 999, the Beaches Environmental 
Assessment, Cleanup and Health Act of 1999--the B.E.A.C.H. bill. On 
Earth Day, we were delighted that the House of Representatives 
unanimously passed this bill. We are now diligently working to promote 
swift passage of a B.E.A.C.H. bill in the Senate. I commend Senator 
Frank Lautenberg and the other cosponsors of the S. 522 for their 
determined leadership in the Senate to address the problems of 
inconsistent testing and public notification of unhealthy beach waters.
                              introduction
    Beaches are leading tourist destinations in the United States. In 
1997, California's beaches alone attracted almost 116 million 
visitors.\1\ As a child growing up in Arizona, I used to visit cousins 
in California and spend time at the beach. Like most Americans, I have 
always had a huge desire to be near the ocean. Years later, I took my 
daughters to the beach and saw a sign that read, ``Water polluted, no 
swimming.'' Trying to explain that to my children was difficult. I left 
that day grateful for the warning but concerned about the health of our 
coastal waters. This summer, thousands of adults and children will 
swim, snorkel, surf or wade in beach waters that, unbeknownst to them, 
are contaminated by pathogens. These pathogens may cause a variety of 
illnesses, ranging from gastroenteritis, dysentery, hepatitis, and 
various ear, nose, and throat infections. Bouts with these ailments can 
quickly ruin a family vacation or a weekend getaway, and can cause a 
person to miss work or school. Mr. Chairman, a day at the beach should 
not end with a trip to the doctor's office.
---------------------------------------------------------------------------
    \1\ Los Angeles Times, March 27, 1998.
---------------------------------------------------------------------------
    To protect themselves from harmful pathogens, swimmers must rely on 
beach water quality tests conducted by local public health agencies and 
proper, timely notification about unhealthy beach waters. 
Unfortunately, the testing standards and monitoring practices used by 
coastal States and localities vary significantly, and often vary within 
a State. Several States do not regularly monitor their beach waters for 
pathogen contamination and only a distinct minority of States and local 
communities consistently notify the public about poor beach water 
conditions.
    I believe the public has a right to know about the quality of 
recreational beach waters that are open for swimming and other water 
sports. To improve the flow of information about polluted recreational 
waters and to provide uniform protections for beach-goers, American 
Oceans Campaign, along with other conservation organizations, strongly 
support both B.E.A.C.H. bills--as common sense solutions. The 
B.E.A.C.H. bills will ensure that States have adequate beach testing 
programs to protect citizens from health risks, while allowing States 
flexibility in determining beach closures or in implementing stricter 
standards.
                       pathogens in beach waters
    Pathogens are disease-causing microorganisms that are found in 
animal and human wastes. There are a number of potential sources of 
pathogens in coastal waters. After heavy rainfalls, animal wastes can 
run off lawns and agricultural fields, be carried by storm sewers and 
eventually dumped into coastal waters at storm drain outfalls. In many 
older coastal communities, storm sewer lines are combined with sewage 
conveyance lines. During rain storms, these combined pipes overflow and 
the wastewater is sent to be discharged in rivers, coastal waters, and 
other receiving waters, rather than proceeding to the wastewater 
treatment plant. These events (called combined sewer overflows) 
discharge raw sewage into the nation's waters. Another common source of 
pathogens is overburdened sewage treatment plants that will 
occasionally release raw or partially treated sewage into waterways. 
Malfunctioning individual septic systems, runoff from agricultural 
lands, and improper disposal of wastes from boats are other sources of 
pathogens in coastal waters.
    When raw or inadequately treated sewage is discharged into coastal 
waters, pathogen contamination can result. In many coastal areas, 
pathogen-contaminated waters lead to beach closures, restrictions on 
shellfish harvesting, and other water sport limitations. According to a 
recent report published by the Natural Resources Defense Council 
(NRDC), Testing the Waters 1999: A Guide to Water Quality at Vacation 
Beaches, there were at least 7,236 individual beach closures and public 
health advisories at U.S. ocean, bay, Great Lakes, and a few other 
freshwater beaches during 1998.\2\ Since 1988, there have been at least 
29,996 closings and advisories.\3\
---------------------------------------------------------------------------
    \2\ Sarah Chasis and Mark Dorfman, Testing the Waters 1999: A Guide 
to Water Quality at Vacation Beaches., (New York: Natural Resources 
Defense Council, 1999) v.
    \3\ Id.
---------------------------------------------------------------------------
                 health risks associated with pathogens
    Various pathogens can be found in water: (1) viruses that can cause 
hepatitis and gastroenteritis--a complex of flu-like symptoms including 
vomiting, diarrhea, nausea, stomach cramps, headache, and fever; (2) 
bacteria that can also cause gastroenteritis as well as cholera, 
typhoid fever, eye and ear infections; and (3) amoeba and other 
protozoa that can cause giardiasis, skin rashes, dysentery and other 
diseases. These illnesses rarely threaten human life, however they can 
lead to significant physical discomfort, cause a person to miss work, 
and be spread to others. Also, the physical consequences of these 
diseases can be more significant for select members of the general 
population, such as children, the elderly, and people with weakened 
immune systems.
                 santa monica bay epidemiological study
    During the summer of 1995, the Santa Monica Bay Restoration Project 
(SMBRP) sponsored an epidemiological study, conducted by researchers at 
the University of Southern California. The purpose of the study was to 
assess the health risks associated with swimming in Santa Monica 
Bay.\4\
---------------------------------------------------------------------------
    \4\ Robert W. Haile, et al., An Epidemiological Study of Possible 
Adverse Health Effects of Swimming in Santa Monica Bay (Santa Monica 
Bay Restoration Project, 1996).
---------------------------------------------------------------------------
    In the study, water samples were analyzed for the presence of total 
and fecal coliforms, enterococci, E. Coli, and enteric viruses (all 
indicators of pathogens). On the days the water samples were made, more 
than 15,000 swimmers were approached and asked to participate in a 
telephone survey. Within 10 to 14 days after being questioned at the 
beach, more than 13,000 swimmers were telephoned and asked to describe 
any symptoms they experienced after swimming in the Bay. Researchers 
eliminated from the study those who visited the beach more than once 
during the study period in order to show a clear relationship between a 
single day's exposure and pathogen levels. The study compared swimmers 
near storm drains to those 100 and 400 yards away. The study determined 
that people who swim within 100 yards of storm drains emptying into 
Santa Monica Bay are 50 percent more likely to get colds, flu, sore 
throats, and diarrhea than those who swim farther away. This study, one 
of the strongest documentations yet of the link between beach water 
pollution and illness, concluded that as many as one in ten of those 
individuals swimming near storm drains will experience symptoms related 
to pathogen exposure.
    From this study, it is reasonable to extrapolate that more frequent 
swimming--as is common among surfers, windsailers, snorkelers, 
vacationers, or youth living in beach communities--is likely to cause 
more frequent or more serious symptoms of illness. Second, because the 
SMBRP study was conducted during dry weather, it is likely that 
symptoms would be greater for those entering the water during the wet 
season or after heavy rainfalls when more contaminants flow into 
coastal waters.
    Surfers, in particular, have long reported symptoms after spending 
time in recreational waters. Skeptics have dismissed these symptoms as 
being merely anecdotal reports, or resulting from exposure to the cold 
rather than to pathogens in the water. The scientific evidence, 
especially that presented in the SMBRP epidemiological study, validates 
surfer's claims: immersion in coastal waters can and does cause 
illness, if those waters contain unhealthy levels of pathogens.
                      epa epidemiological studies
    Prior to the SMBRP study, EPA conducted a series of epidemiological 
studies that showed:
    <bullet> swimmers who bathe in water contaminated with sewage are 
at greater risk of contracting gastroenteritis;
    <bullet> as the quality of bathing water degrades, the swimming-
associated illness rate increases; and
    <bullet> at equivalent indicator densities in marine and fresh 
waters, the illness rate in swimmers was greater in marine swimmers 
than in freshwater swimmers.\5\
---------------------------------------------------------------------------
    \5\ United States Environmental Protection Agency, Action Plan for 
Beaches and Recreational Waters, (Washington DC: U.S. Environmental 
Protection Agency, 1999), EPA/600/R-98/079, 12.
---------------------------------------------------------------------------
    These studies, comparing the symptomatic ailments between swimmers 
and non-swimmers at beaches, demonstrated the relationship between 
water quality and human illness.\6\ Other studies conducted around the 
world established the link between contracting illnesses and swimming 
in feces contaminated waters.\7\ Some of the studies conducted abroad 
displayed an inverse relationship between water quality and rate of 
disease contraction--as water quality deteriorated, the risk of 
infection increased.\8\
---------------------------------------------------------------------------
    \6\ Id.
    \7\ Id. At 13.
    \8\ United States Environmental Protection Agency, Action Plan for 
Beaches and Recreational Waters, (Washington DC: U.S. Environmental 
Protection Agency, 1999), EPA/600/R-98/079, 13.
---------------------------------------------------------------------------
                   inconsistent monitoring practices
    There are currently no Federal requirements for monitoring 
recreational beach waters for pathogen contamination. In 1986, the 
United States Environmental Protection Agency (EPA) issued 
recommendations for State health officials to use in setting statewide 
standards for bacterial pollution in coastal recreational waters.\9\ 
Thirteen years after EPA issued its recommendations, only a handful of 
coastal States have accepted the Agency's recommendation, enterococcus, 
as the bacterial indicator in their marine water quality standards. 
Some of these States have set the enterococcus standard at levels less 
protective than EPA recommendations. It is interesting to note that 
recreational saltwater just meeting EPA's recommended standards will 
cause an estimated 19 swimmers out of 1000 to become ill.\10\
---------------------------------------------------------------------------
    \9\ The EPA recommended standard for recreational salt waters is 
104 enterococcus bacteria per 100 ml for a single, instantaneous sample 
and 35 enterococcus bacteria for a geometric mean sample. The 
recommended standard for recreational waters in the Great Lakes is a 
geometric mean of 33 enterococcus bacteria per 100 ml or 126 E. Coli 
bacteria per 100 ml of water. Enterococcal bacteria are associated with 
human illness whereas other common measures, such as fecal or total 
coliform do not necessarily cause illness, but are found in conjunction 
with bacteria that do.
    \10\ Chasis and Dorfman, 7.
---------------------------------------------------------------------------
    Instead of enterococcus, several States use either fecal coliform 
or total coliform as the bacterial indicator forming the basis of their 
State standards. Because of the use of various indicator organisms and 
different concentrations of these indicator organisms to determine 
whether swimming should be allowed, beach-goers are subject to vastly 
different levels of protection. Beach waters with the same 
concentration of pathogens may be closed or subject to health 
advisories in one State, but be open to the public in another State. In 
many States, these discrepancies can be noted among counties or other 
local jurisdictions.
    Not only is there significant variation among the States with 
regard to accepted bacterial standards for recreational waters, but 
there is also significant inconsistency in beach water monitoring 
practices among coastal States, and often within States. Last week, the 
Natural Resources Defense Council published its ninth annual survey of 
State beach water testing programs and beach closures. In producing 
this report, NRDC surveyed coastal areas and used data from an EPA 
survey of coastal and Great Lakes communities and counties about their 
monitoring programs and beach water quality conditions. According to 
the most recent report, four coastal States do not regularly monitor 
their public beach waters to determine if they are contaminated by 
pathogens and thus, pose health risks for swimmers.\11\ Thirteen States 
only monitor a portion of their recreational beach waters.\12\ Only 
nine States regularly monitor all or a significant portion of their 
coastline.\13\ Two States and one territory test their beach waters, 
but do not share the results with the public.\14\ In order to better 
protect the beach-going public from possible illness associated with 
pathogen-contaminated waters, there needs to be more consistent beach 
water monitoring activities.
---------------------------------------------------------------------------
    \11\ Chasis and Dorfman, viii.
    Beaches in Alabama, Louisiana, Oregon, and Washington are not 
monitored regularly.
    \12\ Chasis and Dorfman, viii.
    The thirteen states that have regular monitoring and public 
notification programs for a portion of their public beaches include: 
California, Florida, Hawaii, Maine, Maryland, Massachusetts, Michigan, 
Minnesota, New York, Rhode Island, South Carolina, Virginia, Wisconsin. 
New York State comprehensively monitors and provides public 
notification for its ocean beaches but only limited monitoring for its 
Great Lakes beaches. In 1999, Georgia will begin a monitoring program.
    \13\ Chasis and Dorfman, viii.
    The nine states that comprehensively monitor their recreational 
beaches and notify the public are Connecticut, Delaware, Illinois, 
Indiana, New Hampshire, New Jersey, North Carolina, Ohio, and 
Pennsylvania.
    \14\ Chasis and Dorfman, viii.
    Mississippi, Puerto Rico, and Texas have monitoring programs for 
all or portions of their beaches, but no programs for public 
notification or beach closures.
---------------------------------------------------------------------------
    In recent years, several coastal States have taken steps to upgrade 
their beach water monitoring programs. In 1997, the State of California 
passed a State ``right to know'' bill that amended the State Health and 
Safety Code. Weekly monitoring between April and October will be 
required at all public beaches with more than 50,000 annual visitors. 
Regular monitoring will also be conducted at beaches located near storm 
drains. California beach waters that fail to meet health-based 
standards as a result of tests will be posted with public health 
advisories, and a toll-free number providing daily reports of polluted 
beaches will be established.
                    inconsistent public notification
    Among the States that do monitor their waters, procedures for 
notifying the public when waters are too contaminated for safe swimming 
differ considerably. In too many States, even when there is a 
monitoring report showing polluted water conditions, health authorities 
fail to properly warn the public or close the beach. As a result of 
these inconsistent public notification practices, many of the millions 
of Americans and international tourists visiting our beaches will be 
swimming in unhealthy waters, totally unaware of the health risks. For 
example, the Miami Herald recently reported that the waters off Fort 
Zachary Taylor beach on Key West had three times the acceptable amount 
of disease causing pollution--yet the county health department decided 
not to post a warning.\15\
---------------------------------------------------------------------------
    \15\ Miami Herald, July 16, 1999, see Attachment 1.
---------------------------------------------------------------------------
    American Oceans Campaign believes that the public deserves better 
protection. We believe people have a right to know about the water 
quality of public, recreational beaches--especially, if tests indicate 
that swimming in contaminated waters could lead to physical illness. 
The information provided to the public should be timely and 
conspicuous. Notice of health-based violations of water quality should 
be provided at public access points, such as lifeguard stations. Armed 
with accurate, timely information, individuals can take appropriate 
steps to protect their health and the health of their families.
                            b.e.a.c.h. bills
    On March 3, 1999, Senator Frank Lautenberg (D-NJ) introduced S. 
522, the Beaches Environmental Assessment, Closure, and Health Act (the 
``B.E.A.C.H. bill''). The next day, Representative Brian Bilbray (R-CA) 
introduced H.R. 999, the Beaches Environmental Assessment, Cleanup and 
Health bill. Both B.E.A.C.H. bills will ensure that coastal States have 
adequate beach water quality testing programs to protect public health 
and safety. American Oceans Campaign energetically supports both bills 
and we commend Senator Lautenberg and Representative Frank Pallone for 
their leadership on this issue over the last decade. We also thank 
Representative Brian Bilbray and Representative Sherwood Boehlert for 
their strong leadership on this critical issue.
    American Oceans Campaign believes both B.E.A.C.H. bills establish a 
common sense, national approach to the problems of inconsistent beach 
water quality testing and public notification. The bills:
    <bullet> protect beach goers from health risks associated with 
pathogen-contaminated waters by requiring States to adopt minimum water 
quality standards for recreational beach waters.
    <bullet> direct nationwide public beach water monitoring so that 
States and localities will know when and where beach water 
contamination occurs.
    <bullet> provide timely, important information about violations of 
health-based standards to the public. American Oceans Campaign believes 
this notice should be provided at public access points to recreational 
beaches.
    <bullet> call for the U.S. EPA to conduct further research to 
develop better indicators for detecting harmful contaminants and more 
expedient testing practices. The bill also requires the EPA to develop 
a more complete list of potential health risks from swimming in 
pathogen-contaminated waters.
    <bullet> authorize the EPA Administrator to make grants to assist 
States in their efforts to make beach water testing consistent 
nationwide.
    It is time for a comprehensive national program to protect the 
public from potential health risks associated with swimming and surfing 
in polluted waters. Beach visitors have a right to know that the waters 
they choose to play in are safe for recreation. The B.E.A.C.H. bills 
promote a nationwide commitment to ensure beach-goers receive the basic 
information needed to protect themselves and their families from 
harmful pathogens.
                                 s. 522
    The language of Senator Lautenberg's bill, S. 522, is based on 
prior B.E.A.C.H. bills introduced by the New Jersey delegation over the 
past decade. It requires States to adopt beach water quality standards 
that are consistent with current EPA criteria. Under S. 522, should a 
State not adopt the current standards, EPA criteria will be deemed 
promulgated and becomes the State's water quality standard.
    The bill also calls for EPA to promulgate regulations addressing 
beach water monitoring and public notification. States will have 3\1/2\ 
years from the date of enactment to implement a monitoring and 
notification program. S. 522 authorizes nine million dollars (per year 
for 5 years) for grants to States to implement these programs. The 
Federal share of such programs cannot exceed 50 percent. Fortunately, 
the successful implementation of beach water programs is not contingent 
on funding. Once EPA promulgates the regulations, States will be 
required to monitor coastal beach waters and notify the public when 
swimming in polluted waters could cause illness.
                                h.r. 999
    H.R. 999, Representative Bilbray's B.E.A.C.H. bill, requires States 
to adopt standards that are as protective of human health as the 1986 
EPA beach water quality criteria. If a State fails to adopt such 
standards within 3\1/2\ years of enactment, EPA must promulgate 
regulations establishing the beach water quality standards for that 
State. H.R. 999 also differs from S. 522 in that it requires EPA to 
promulgate ``performance criteria'' for beach water monitoring and 
notification. Though performance criteria have no force or effect of 
law, States, tribes, or localities must satisfy the criteria and 
demonstrate where and how it will monitor and notify the public in the 
event pathogens contaminate the water. This State requirement is a 
prerequisite to receiving EPA grants for implementation of a beach 
water program.
    H.R. 999 authorizes 30 million dollars (per year for 5 years) to be 
distributed to States for their programs. The Federal share is 50 to 
one hundred percent of the cost of such program. Under this bill, EPA 
must maintain a list of areas that do and do not meet the performance 
criteria for monitoring and notification. If a State or locality fails 
to implement an approved program 3 years after EPA formulates the above 
list, EPA must conduct the monitoring and notification activities for 
that area. EPA will be entitled to use dollars not distributed to such 
State or locality to conduct its beach program in that area.\16\
---------------------------------------------------------------------------
    \16\ Attachment 2 provides a more detailed comparison of both 
B.E.A.C.H. bills.
---------------------------------------------------------------------------
                            coastal tourism
    Coastal communities and States derive great benefits from the 
revenue generated and the jobs created by coastal recreation 
activities. Visitors to the beach spend millions of dollars to 
participate in water related recreation, such as swimming, sport 
fishing, boating, birdwatching or other activity. In 1997, the 
California Trade and Commerce Agency estimated the value of 
California's coastal tourism derived from nine coastal counties to 
exceed $37 billion and the number of tourism related jobs to be more 
than 387,000.\17\ In 1990, it was calculated that the annual economic 
value of boating, sport fishing, and swimming in the Long Island Sound 
was more than $5.2 billion.\18\ Also, the Florida Department of Revenue 
estimated that tourist expenditures totaled $23 billion in its coastal 
counties in 1995\19\ and the South Carolina Department of Parks, 
Recreation and Tourism estimated that $4 billion and more than 73,000 
jobs were generated from coastal tourism in 1997.\20\ Similar 
impressive figures are reported by other States that track tourism in 
their coastal areas.
---------------------------------------------------------------------------
    \17\ Information provided by the California Trade and Commerce 
Agency, Division of Tourism to the Natural Resources Defense Council, 
cited in Chasis and Dorfman, 9. The nine California counties are Los 
Angeles, Monterey, Orange, San Mateo, Santa Barbara, San Diego, San 
Luis Obispo, Santa Cruz, and Ventura.
    \18\ Marilyn A. Alotbello, The Economic Importance of Long Island 
Sound 's Water Quality Dependent Activities (Storrs, Connecticut: 
University of Connecticut, College of Agricultural and Resources 
Economics, 1992) 8, 23, 31.
    \19\ Sarah Chasis and Peter Lehner, Testing the Waters Volume VII: 
How Does Your Vacation Beach Rate?, (New York: Natural Resources 
Defense Council, 1997) 10.
    \20\ Chasis and Dorfman 9.
---------------------------------------------------------------------------
    Coastal water pollution puts these benefits at risk. For those that 
become ill from swimming in pathogen-contaminated waters, medical 
expenses and lost workdays can result in personal economic losses. Of 
course, closing beaches adjacent to polluted waters will result in 
short-term economic losses for a community. However, if the community's 
public health agency uses such incidents as an opportunity to educate 
beach-goers about the steps it is taking to protect public health as it 
also works to reduce the sources of beach water pollution, the 
community stands to gain the public's confidence and a beach-goer's 
return visit.
    Investing in clean water improvements will help maintain the health 
of swimmers, the productivity of fisheries that attract recreational 
anglers to the coast, and the jobs of local citizens who work in water 
sport businesses and related enterprises (hotels, restaurants).
    The coastal States and counties that have established regular beach 
water testing programs are able to protect the public at reasonable 
costs. The State of New Jersey regularly monitors its 127 miles of 
public beaches, provides notice to the public, and closes beaches when 
beach waters are found to violate health-based standards.\21\ Its 
annual cost for beach water testing activities was $250,000 in 
1998.\22\ New Jersey's annual cost per beach mile monitored is $1,969. 
The State of Delaware also regularly monitors 50 miles of bay and ocean 
beaches, and spends $31,250 annually for its monitoring and 
notification activities.\23\ This represents an annual cost per beach 
mile of $625.
---------------------------------------------------------------------------
    \21\ Chasis and Dorfman 104.
    \22\ Chasis and Dorfman 104.
    \23\ Chasis and Dorfman 56.
---------------------------------------------------------------------------
    A comparison of the revenue generated by coastal tourism with the 
costs of beach water monitoring and notification programs suggests that 
the relative costs are modest. For example, New Jersey received $5.8 
billion from coastal tourism expenditures in 1998 and spent $250,000 on 
beach water testing. Utilizing funds for a beach program is a sound 
investment that not only helps to protect the public but also pinpoints 
pollution problems that need to be addressed in order to maintain the 
quality of beaches and fisheries that attract people to the Jersey 
shore.
             reducing and preventing beach water pollution
    The B.E.A.C.H. bills will improve beach water standards, monitoring 
and public health. However, they do not include any requirements to 
reduce or prevent the sources of beach water pollution. It is my hope 
that the raised awareness about beach water quality will identify where 
large challenges remain and will lead to even greater public support 
for controlling pollution.
    More than a quarter century after the passage of the Clean Water 
Act, there are several remarkable success stories concerning coastal 
water quality. For example, in many estuaries, the acreage of sea 
grasses and other aquatic vegetation is increasing from levels observed 
just a decade ago. Many coastal areas that were ``permanently'' closed 
to shell fishing or swimming are now open. Much of the progress is 
attributed to advancements in sewage treatment technologies and in 
pretreatment of industrial wastewater. In addition, the public is 
becoming more involved in hands-on, community-wide projects to protect 
their waters and citizens are letting their elected officials know that 
they expect clean, healthy waters for their families and communities. 
These efforts are helping to improve the quality of many water bodies.
    We still have much work to do before America meets one of the goals 
of the Clean Water Act--to make all waters swimmable and fishable. A 
recent national water quality report disclosed that about 38 percent of 
the nation's surveyed estuaries are not clean enough to meet basic uses 
such as fishing or swimming.\24\ Many beach waters and shellfish 
harvesting areas are closed due to pathogen and toxic contamination. In 
1995, almost one-third of our nation's shellfish harvesting areas were 
closed or harvest-limited; polluted urban stormwater was identified as 
the leading source of pollution contributing to harvest 
restrictions.\25\ Other coastal waters are subject to an increasing 
number of fish consumption advisories.
---------------------------------------------------------------------------
    \24\ United States Environmental Protection Agency, Water Quality 
Conditions in the United States: A Profile from the 1996 National Water 
Quality Inventory Report to Congress (Washington DC: U.S. Environmental 
Protection Agency, 1998).
    \25\ United States Department of Commerce, National Oceanic and 
Atmospheric Administration, The 1995 National Shellfish Register of 
Classified Growing Waters (Rockville MD: U.S. Department of Commerce, 
1997) 7.
---------------------------------------------------------------------------
    American Oceans Campaign believes that significant steps still need 
to be made in reducing and preventing coastal pollution. The U.S. needs 
to develop a comprehensive strategy to reduce and prevent nonpoint 
source pollution--often called ``polluted runoff.'' We believe the 
Coastal Nonpoint Pollution Control Program, led by the National Oceanic 
and Atmospheric Administration (NOAA) is the most effective national 
program designed to reduce and prevent pollution from diffuse sources--
such as marinas, urban sites, agricultural lands, forested lands, and 
septic systems. We encourage members of this Committee to continue 
supporting the NOAA program through the appropriations process.
    In addition, we support many of the specific actions identified in 
the Administration's Clean Water Action Plan (CWAP). AOC would like to 
thank Congress for increasing funds to this important program last 
year. The Plan targets additional measures to help reduce polluted 
runoff into impaired watersheds and improve public health protections. 
The Plan also establishes a framework to improve coordination among 
Federal agencies and State officials. We expect this Plan to help the 
United States make further advancements in cleaning up our nation's 
waters--particularly some of our most impaired waters. American Oceans 
Campaign urges Congress to provide maximum funding for the various 
Federal agencies that will be working on this coordinated strategy to 
reduce polluted runoff and protect public health.
    American Oceans Campaign also believes that Congress should use 
revenues from offshore oil drilling to protect critical resources, 
without providing incentives for new offshore drilling. Funding for 
specific existing coastal and ocean programs has been left out of many 
Federal funding proposals being considered by Congress, that deal with 
this revenue source. Funding for ocean and coastal programs is of 
crucial importance. AOC urges Congress to fund existing high value, 
underfunded Federal ocean programs such as the Coastal Polluted Runoff 
Program, the Marine Sanctuary Program, estuarine programs and ocean 
habitat research and protection. Outer continental shelf (OCS) oil 
revenues are a logical source of funds for these programs since they 
are derived from non-renewable ocean resources and the adverse impacts 
of OCS development fall predominantly in the oceans and on the coasts.
    At the same time, we support increasing investments for important 
water infrastructure projects, such as upgrading sewage treatment 
plants, eliminating combined sewer overflows, and improving urban 
stormwater management. We believe the authorization for and 
appropriations to the Clean Water State Revolving Loan Fund should be 
significantly increased to help continue the progress toward achieving 
improved water quality.
    Clean water is extremely valuable. We cannot live without clean 
water to drink and grow our food. We cannot fish or swim without clean 
water. We cannot manufacture many products, ranging from computer chips 
to soft drinks, without a dependable supply of clean water. In a world 
where we all live downstream, using public funds to help cleanup public 
waters just makes good sense.
               recent activities--presidential directive
    In a May 1999 radio address, President Clinton announced a 
multifaceted directive to Federal agencies, requiring them to 
strengthen water quality protections--particularly as they relate to 
beaches. The President required the Federal Government to take the lead 
in beach water safety by having the U.S. Park Service and other 
agencies monitor coastal waters under their jurisdiction and notify the 
public if poor water quality threatens human health. The measures also 
called on EPA to speed up work with States to upgrade beach water 
quality standards and directed EPA to propose strong national sewage 
regulations within 1 year to deal with sanitary sewer overflows (a 
significant source of beach water pollution).
                     recent activities--epa program
    Over the past 2 years, the United States Environmental Protection 
Agency has made numerous advancements in helping to establish a more 
comprehensive beach water monitoring program and improve the public's 
access to beach water quality information by creating a website. The 
``BEACH Watch'' website provides information about past beach closures 
and health advisories and describes the monitoring activities that are 
used at our nation's public beaches. In the future, EPA hopes to 
provide real-time advisory and closure information.
    As part of their enhanced beach monitoring program, the EPA is 
``strongly encouraging'' States to adopt Agency-recommended criteria 
for beach waters. It is committing itself to work with States, tribes 
and municipalities to improve monitoring practices by increasing 
training activities and providing additional guidance to State 
agencies. EPA will also work to develop new, improved criteria for 
microbiological organisms that should be in place by 2003. Finally, the 
Agency will also sponsor research to accelerate the delivery of 
accurate laboratory results.
    American Oceans Campaign applauds and supports the leadership EPA 
has shown in improving beach water quality programs and promoting more 
consistent protections for swimmers and other water sport enthusiasts. 
The Agency has done much work to involve environmentalists, State 
officials, public health experts and other Federal agencies in putting 
their program in place.
    We believe the Administration's program must go further. In order 
to provide maximum protections for beach-goers, States should 
continually upgrade their beach water quality standards to reflect new 
science. In addition, we believe States need to regularly monitor beach 
water for pathogen contamination. Finally, we believe posting 
historical information about beach closures and health advisories 
should not be a substitute for providing timely, accurate information 
about current water quality conditions that could pose health risks to 
swimmers. For these reasons, we promote passage of the B.E.A.C.H. bill 
to ensure consistent protections for beach-goers.
                      the importance of estuaries
    In addition to health and safety measures at the beach, the Nation 
also needs improved estuary protections. This hearing will address 
estuary bills before the Senate and therefore, American Oceans Campaign 
will offer the following comments.
    Estuaries are dynamic bodies of water along our nation's coasts 
that are formed by the mixing of freshwater from rivers and streams 
with saltwater from the ocean. Typically, these waters are semi-
enclosed by surrounding mainland, fringing wetlands, peninsulas, or 
barrier islands. Many of the renowned water bodies of the United States 
are estuaries--Long Island Sound, Chesapeake Bay, Narragansett Bay, San 
Francisco Bay, and Puget Sound, for example. In addition to bays and 
sounds, estuaries are commonly known as lagoons, sloughs, bayous, and 
inlets.
    The combination of freshwater and saltwater creates a distinct 
environment where aquatic plants and wildlife thrive. An abundance of 
land and ocean nutrients, ample light promoting the growth of aquatic 
vegetation, and a continuous mixing of the system by winds, tides, and 
river inflows create conditions that give life to some of the richest 
and most productive ecosystems in the world.
    In addition, estuaries support a variety of coastal businesses and 
are valued as places to live and visit. In 1990, it was estimated that 
45 percent of the nation's population live in estuarine areas\26\--and 
the predicted population trends suggest that this percentage will rise 
in the upcoming years.
---------------------------------------------------------------------------
    \26\ United States Department of Commerce, National Oceanic and 
Atmospheric Administration and National Ocean Service, Estuaries of the 
United States: Vital Statistics of a National Resource Base (Rockville 
MD: United States Department of Commerce, 1990) 1.
---------------------------------------------------------------------------
    The functions and values of estuaries are considerable. For 
example:
    <bullet> Estuaries provide valuable commercial benefits. 
Approximately 28 million jobs are generated by commercial fishing, 
tourism, water-dependent recreation, and other industries based near 
estuaries and other coastal waters.\27\ It is estimated that commercial 
and recreational fishing contributes $152 billion to the nation's 
economy and generates approximately two million jobs.\28\
---------------------------------------------------------------------------
    \27\ Dwight Holling, et.al., State of the Coasts: A State by State 
Analysis of the Vital Link Between Healthy Coasts and a Healthy Economy 
(Washington DC: Coast Alliance, 1995)8.
    \28\ William M. Kier Associates, Fisheries, Wetlands, and Jobs: The 
Value of Wetlands to America's Fisheries (Sausalito CA: Clean Water 
Network, et al., 1998)1.
---------------------------------------------------------------------------
    <bullet> Estuaries provide important spawning and nursery habitat 
for commercial and recreational fish species. More than 75 percent of 
the U.S. commercial fish catch uses estuaries during at least one stage 
of life--usually the critical early stages.\29\ In the Southeastern 
United States, 96 percent of the commercial fish catch and more than 50 
percent of the recreational catch are comprised of fish and shellfish 
that are dependent on estuarine and coastal wetlands.\30\
---------------------------------------------------------------------------
    \29\ Elliot A. Norse, Ph.D., Global Marine Biological Diversity: A 
Strategy for Building Conservation into Decision Making (Washington DC: 
Island Press, 1993)65.
    \30\ United States Environmental Protection Agency, Wetlands Fact 
Sheet #2 (Washington DC: United States Environmental Protection Agency, 
1995).
---------------------------------------------------------------------------
    <bullet> Estuarine wetlands improve water quality by filtering 
pollutants before they reach coastal waters.
    <bullet> Estuarine wetlands and barrier islands protect shorelines 
and inland areas from coastal storms and flooding. In their natural 
state, these areas are able to temporarily store large quantities of 
flood waters and help to minimize damaging impacts of storm events.
                 major threats to productive estuaries
    Estuaries are threatened by rapid population growth along the 
coasts, habitat loss, and pollution. Some of the major problems 
affecting our nation's estuaries include:
    <bullet> Nutrient pollution. Nitrogen can enter estuaries from a 
variety of sources, including sewage treatment plants, failing septic 
systems, combined sewer overflows, polluted runoff from agricultural 
lands, stormwater, and atmospheric deposition. Excessive loadings of 
nitrogen disrupt estuarine life by accelerating the growth of algae. 
When large blooms of algae develop, they block sunlight needed by the 
estuary's submerged aquatic plants. In addition, as algae decompose, 
they require such great amounts of oxygen, that other aquatic life are 
deprived of oxygen. Oxygen-deficient conditions (called hypoxia) can 
result in massive fish kills.
    <bullet> Loss of Habitat. Due to development pressures and 
increasing pollution, natural estuarine habitats are being destroyed. 
Coastal wetlands, mangroves, and submerged sea grasses provide 
important nursery, spawning, and sheltering areas for fish, shellfish, 
and other wildlife. Ninety-two percent of the original wetlands base of 
the San Francisco Bay area has been destroyed.\31\ In addition, between 
1950 and 1982, sea grass coverage in Tampa Bay decreased from 40,627 
acres to 21,647 acres--a 47 percent reduction\32\--because of increased 
pollution, development and boating activities. The loss of fish habitat 
is a frequently-cited, contributing factor in the severe declines of 
fish populations along our nation's coasts.
---------------------------------------------------------------------------
    \31\ San Francisco Estuary Project, Comprehensive Conservation and 
Management Plan (Oakland CA: San Francisco Estuary Project, 1992) 44.
    \32\ Tampa Bay National Estuary Program, Charting the Course for 
Tampa Bay, 1996 (St. Petersburg FL: Tampa Bay National Estuary Program, 
1996) 14-15.
---------------------------------------------------------------------------
    <bullet> Pathogens. Disease-causing microorganisms, called 
pathogens, contaminate productive shellfish beds and recreational beach 
waters in estuaries across the United States. Pathogens are found in 
animal and human waste and enter estuaries from overburdened sewage 
treatment plants, combined sewer overflows, agricultural runoff, and 
malfunctioning septic systems. Eating shellfish or ingesting water 
contaminated with pathogens can cause a variety of diseases in humans, 
including gastroenteritis, hepatitis, and others.
    <bullet> Toxics. Often, elevated levels of toxics can be detected 
in the sediments, the water column, and in the tissues of fish, 
shellfish, and other organisms that inhabit estuaries. Heavy metals, 
pesticides, polychlorinated biphenyls (PCBs), and hydrocarbons are the 
most common toxic contaminants in estuaries. These toxic substances 
originate from a variety of sources, including agricultural runoff, 
polluted urban stormwater, automobile emissions, and industrial 
discharges.
     national estuary program as a model for comprehensive estuary 
                               protection
    Estuaries are highly valued and intensely used waters. However, 
Congress only recently recognized these areas as a unique and severely 
depleted resource requiring special attention. During the 1987 Clean 
Water Act reauthorization, Congress established the National Estuary 
Program (NEP) to resolve many of the complex issues that contribute to 
the deterioration of our nation's estuaries.
    Governors of coastal States nominate particular estuaries for 
inclusion in the National Estuary Program. The EPA selects ``nationally 
significant estuaries'' to participate in planning activities. After 
designating a particular estuary, the EPA convenes management 
conferences to address all uses affecting the restoration and 
maintenance of the chemical, physical, and biological integrity of each 
estuary. Conference participants include representatives of the 
relevant interstate, or regional agencies, Federal agencies, the 
Governor(s), appropriate State agencies, local government agencies, 
affected industries, educational institutions, and citizens. The 
mission of these conferences is to develop a Comprehensive Conservation 
and Management Plan (CCMP) that will protect and restore the water 
quality and living resources of estuaries. The priority actions 
identified in the CCMP are to be consistent with other provisions of 
the Clean Water Act and other Federal laws.
    The NEP has been, and continues to be a model for outstanding 
watershed management plans; however, implementation of the plans is 
more problematic. Over the years, we have discovered as more and more 
plans are completed, they unfortunately languish on the shelf waiting 
for the dollars necessary for implementation.
    Currently, 28 nationally significant estuaries participate in the 
National Estuary Program. These estuaries were added in five distinct 
rounds, or ``tiers.'' Eighteen of the 28 estuaries have completed their 
plans and are proceeding to implement the identified priority actions. 
The following table provides a quick summary of the status of the local 
programs.

------------------------------------------------------------------------
 Nationally Significant Estuary     Year Designated       CCMP Status
------------------------------------------------------------------------
Puget Sound (WA)................  1987..............  Approved 1991.
Buzzards Bay (MA)...............  1987..............  Approved 1992.
Narragansett Bay (RI)...........  1987..............  Approved 1993.
San Francisco Estuary (CA)......  1987..............  Approved 1993.
Albemarle-Pamlico Sounds (NC)...  1987..............  Approved 1994.
Long Island Sound (CT, NY)......  1987..............  Approved 1994.
Galveston Bay (TX)..............  1988..............  Approved 1995.
Santa Monica Bay (CA)...........  1988..............  Approved 1995.
Delaware Inland Bays (DE).......  1988..............  Approved 1995.
Sarasota Bay (FL)...............  1988..............  Approved 1995.
Delaware Estuary (DE, NJ, PA)...  1988..............  Approved 1996.
Massachusetts Bay (MA)..........  1990..............  Approved 1996.
Casco Bay (ME)..................  1990..............  Approved 1996.
Indian River Lagoon (FL)........  1990..............  Approved 1996.
Barataria-Terrebonne Estuary      1990..............  Approved 1997.
 (LA).
New York/New Jersey Harbor (NY,   1988..............  Approved 1997.
 NJ).
Tampa Bay (FL)..................  1990..............  Approved 1997.
Corpus Christi Bay (TX).........  1992..............  Approved 1999.
Maryland Coastal Bays (MD)......  1995..............  Expected 1999.
Tillamook Bay (OR)..............  1992..............  Expected 1999.
Lower Columbia River (OR).......  1995..............  Expected 1999.
Peconic Estuary (NY)............  1992..............  Expected 2000.
San Juan Bay (PR)...............  1992..............  Expected 2000.
Barnegat Bay (NJ)...............  1995..............  Expected 2000.
Morro Bay (CA)..................  1995..............  Expected 2000.
Mobile Bay (AL).................  1995..............  Expected 2000.
New Hampshire Estuaries (NH)....  1995..............  Expected 2000.
Charlotte Harbor (FL)...........  1995..............  Expected 2000.
------------------------------------------------------------------------

    One of the strengths of the National Estuary Program is its 
reliance on a watershed approach to address and solve the problems of 
the estuary. By identifying, examining, and correcting environmental 
problems that may originate upstream, the estuary restoration plans and 
actions have a substantially better chance of success. National Estuary 
Programs are designed to consider a myriad of issues: stormwater 
pollution, nutrient enrichment, heavy metals, sea grass loss, wetlands 
destruction, sewage treatment, industrial discharges, agricultural 
runoff, fishery landing trends, wildlife populations, land-use 
practices, and others. Past approaches to restoration and protection 
have typically concentrated on a narrow examination of a particular 
type of pollution or a particular species of fish. Although many of 
these efforts are making progress, a more complete understanding of the 
cumulative effect of all the estuary's stresses should produce more 
extensive beneficial results.
    Another strength of the programs is the range of participation they 
attract from interested parties. The work of NEP Management Conferences 
provide great opportunities for collaboration and building consensus 
among the varied interests of the community. Joint decisionmaking 
during the studying and planning phase, although sometimes difficult to 
achieve, can lead to far fewer hurdles during subsequent 
implementation.
    During today's hearing, two estuary bills will be addressed. One 
bill focuses Federal resources in support of community based habitat 
restoration, while the other initiative strives to strengthen and 
expand the existing National Estuary Program (NEP).
    The Estuary Habitat Restoration Partnership Act of 1999 (S. 835). 
On April 20, 1999, Senator Chafee, along with several members of this 
Committee, introduced S. 835. The objectives of the bill include 
improving coordination among various Federal and non-Federal estuary 
habitat restoration programs and increasing the level of Federal 
funding dedicated to these important restoration efforts. The bill is 
supported by leading estuary protection organizations across the 
Nation, American Oceans Campaign, and by several other organizations 
that are part of the Clean Water Network. American Oceans Campaign 
considers the approach detailed in S. 835 to be an essential component 
of a national strategy to improve the health of estuaries.
    In particular, the bill will improve efforts to restore estuarine 
habitat in numerous ways:
    <bullet> It establishes an ambitious, critical goal of restoring 
one million acres of estuarine habitat by 2010. Numerous commercial and 
recreational fish and shellfish species use estuarine habitats for 
nurseries and shelter. Such an increase in estuarine habitat should 
significantly aid efforts to restore estuarine and marine fisheries to 
sustainable levels.
    <bullet> It establishes a Federal inter-agency council to better 
organize the various Federal programs involved in estuarine habitat 
restoration. The Collaborative Council is to be comprised of the heads 
of various Federal agencies involved in estuary protection and land-use 
decisions. the Activities of the Collaborative Council will increase 
awareness about estuarine health among key Federal officials and 
greatly assist coordination and priority-setting. One potential outcome 
of increased coordination will be the compilation of completed and 
ongoing restoration plans in the national estuary habitat restoration 
strategy. A data base that gives a brief account of restoration 
projects; the types of restoration methods used; the various 
governmental roles included in the project; and the effectiveness of 
the restoration will prove to be an invaluable resource for coastal 
communities that are determined to initiate their own restoration 
campaigns but unsure of how to start and what to include in a plan.
    <bullet> It promotes a through national approach for restoring 
estuary habitat. The bill calls for the Council to develop a 
comprehensive strategy that addresses fish and shellfish, wildlife, 
water quality, water quantity, and recreational opportunities. Such a 
strategy should aid in directing scientific and financial attention to 
the most pressing estuarine habitat concerns, in balancing national 
attention between small scale and larger habitat restoration projects, 
and in evening geographical distribution of estuary restoration 
projects.
    <bullet> The bill encourages community-based involvement by seeking 
the Active participation of concerned individuals, non-profit 
organizations, and businesses.
    <bullet> The bill authorizes appropriations to carry out estuary 
habitat restoration projects. The increased investments will allow 
States to leverage their own contributions to restoration projects and 
should accelerate and enhance estuary restoration activities.
    The National Estuary Conservation Act (S. 878). Senator Torricelli 
introduced S. 878 on April 26, 1999. The bill permits grants that are 
authorized under the National Estuary Program to be used to develop and 
implement comprehensive conservation management plans. The bill also 
increases the authorized levels for the NEP to $50 million a year for 
fiscal years 1999 through 2004.
    If enacted, Senator Torricelli's bill would set a meaningful 
advancement for the National Estuary Program. The bill would open the 
door to using NEP grants for implementation of approved CCMPs.
    American Oceans Campaign believes that the Nation should invest an 
even greater amount. An annual Federal allocation of $50 million 
divided among 28 programs in various stages of their planning and 
implementation will not fully solve the current problem of inadequate 
Federal funds available to implement CCMP actions. A much more 
significant Federal investment is needed to ensure these plans have a 
chance for success.
                               conclusion
    In conclusion, Mr. Chairman, I wish to thank you for holding this 
hearing about important ocean and coastal issues. It is time for a 
comprehensive, national strategy for estuary protection and beach water 
testing and public notification.
    American Oceans Campaign urges Congress to support bills that are 
dedicated to achieve an actual increase in coastal habitat. Congress 
should also support bills that require the implementation of, and 
authorize appropriations for approved estuary management plans. 
Specifically, Congress should support initiatives that strengthen the 
National Estuary Program.
    In addition to estuary protections, the Nation needs health and 
safety measures at the place where most of us get to enjoy the ocean 
firsthand--the beach. Health risks associated with the presence of 
human and animal wastes in coastal waters are persistent due to leaking 
septic systems, inadequate sewage treatment, stormwater pollution, and 
agricultural runoff. Unfortunately, families often do not know when it 
us unsafe to hit the surf. The B.E.A.C.H. bill will allow us to protect 
ourselves and our children from disease causing pathogens by setting 
national beach water quality criteria, establishing nationwide 
monitoring programs, and ensuring prompt public notification of 
contamination.
    The B.E.A.C.H. bill protects the health of families and alerts 
communities with vital information about coastal pollution. Although 
the B.E.A.C.H. bill does not contain provisions to act against 
polluters, the monitoring and notification process will empower local 
governments and States to be better stewards of beaches. I therefore 
urge this Committee to support the B.E.A.C.H. bill.
    Thank you. I look forward to your questions.
                                 ______
                                 
                              attachment 1
             [From the Miami Herald, Friday, July 16, 1999]
                Swimmers Not Warned About Polluted Beach
                           (By Marika Lynch)
    Key West--The waters surrounding Fort Zachary Taylor--like those 
off all other public beaches on this island--are so polluted that 
anyone daring to swim risks ear infections and gastrointestinal 
diseases, test results released Thursday show.
    But the general public may not get the news.
    Despite tests that show Fort Taylor's waters have three times the 
acceptable amount of a feces indicator, the Monroe County Health 
Department has decided not to post a warning at the popular beach, said 
Jack Teague, the department's environmental administrator.
    Knowing what he does about the results, Teague says he personally 
wouldn't risk swimming off that beach. But because the specific test 
the department uses isn't recognized by Florida law, he says his agency 
isn't required to post a health advisory.
    ``It's unbelievable,'' said DeeVon Quirolo, of Key West's 
environmental group Reef Relief. ``It's a short-term effort to try to 
salvage some beach so the tourists can go for it. We are caught in a 
very sad situation that could have been avoided years ago.''
    Jim Gentilucci, who swam with his wife and two sons off Fort Taylor 
on Thursday, was surprised he didn't see anything about the tests at 
the park. He said he wouldn't have gone in the water, had he known.
    ``If they are telling me there's sewage runoff, I wouldn't go in, 
like I wouldn't go swimming in my toilet,'' said the visitor from 
Frederick, Md.
    For the past month, the health department has posted warnings 
against swimming at six popular spots--including all of Key West's 
other public beaches--after routine tests showed elevated levels of 
fecal coliform bacteria. City engineers believe leaking sewer pipes and 
boaters who dump their waste overboard are the likely causes. The 
pollution hasn't spread to the reef, which department officials say is 
fine for swimming.
    The health department recently began testing Key West's beach 
waters for another sewage indicator called enterococci bacteria, which 
the Federal Environmental Protection Agency has lobbied States to use 
as their standard.
    Enterococci is a better indicator of human waste, especially in 
marine waters, said Dale Griffin, a researcher with the University of 
South Florida who has studied Keys waters. While fecal coliform 
typically dies quickly, enterococci bacteria sticks around, making it 
easier to detect for a longer period.
    Tests at Fort Taylor showed the waters had minimal levels of fecal 
coliform, yet have more than three times the acceptable level of 
enterococci. Because the State relies only on the fecal coliform test, 
the health department has decided not to warn swimmers--even though a 
health risk does exist.
    ``I would say that the readers of this information can make their 
own decision, knowing what has been written about enterococci,'' Teague 
said. ``And they can take into account what this level is.
    ``But that's something that is quite different than what the formal 
constraints are for our agency.''
                                 ______
                                 
                              attachment 2
    S. 522 and H.R 999 Side-By-Side Comparison--Courtesy of the Center 
for Marine Conservation
    Key: WQS--Water Quality Standards; WQC--Water Quality Criteria; 
CWA--Clean Water Act, Federal Water Pollution Control Act; EPA--United 
States Environmental Protection Agency.

------------------------------------------------------------------------
                               H.R. 999 (passed 4/  S. 522 (introduced 3/
        Topic/Heading                22/99)                 3/99)
------------------------------------------------------------------------
Findings and Purposes.......  None................  Sec.  2: Contains
                                                     findings and
                                                     purposes (to
                                                     protect public
                                                     safety and improve
                                                     environmental
                                                     quality)
State Coastal Recreation      Sec.  2 [CWA Sec.
 Water Quality Criteria and    303].
 Standards.                   <bullet> States must
                               adopt within 3\1/2\
                               years of enactment,
                               and/or 3 years
                               after revised
                               criteria are
                               adopted by EPA, WQC
                               and WQS for
                               pathogens and
                               pathogen indicators.
                                                    Sec.  3 [CWA Sec.
Failure of State to Adopt     Sec.  2 [CWA Sec.     Sec.  3 [CWA Sec.
 WQC/WQS within 3\1/2\ years   303(i)(2)]: EPA       702 (c)]: EPA
 of enactment.                 must prepare and      criteria is deemed
                               publish proposed      promulgated and
                               regs for the State    becomes the State
                               setting forth the     WQC.
                               initial WQS for
                               pathogens.
Studies.....................  Sec.  3(a) [CWA Sec.  Sec.  3 [CWA Sec.
                               104(v)]: EPA must     703 (a)]: Same
                               conduct studies
                               within 3 years to
                               provide additional
                               information for use
                               in developing more
                               complete
                               determination of
                               health risks,
                               effective
                               indicators for
                               improving
                               detection, and
                               guidance for state
                               application of WQC.
Revised Criteria............  Sec.  3(b) [CWA Sec.  Sec.  3 [CWA Sec.
                                304(a)(9)]: Within   703(b)]: EPA must
                               4 years of            issue revised WQC
                               enactment, EPA must   within 5 years of
                               issue new or          enactment and not
                               revised WQC for       less than every 5
                               pathogens and         years thereafter.
                               pathogen indicators  [No requirement for
                               based on studies,     EPA to issue
                               and at least every    regulations if
                               5 years thereafter    states do not adopt
                               must review and       revised criteria.
                               revise the WQC as     EPA criteria not
                               necessary..           ``deemed'' to be
                              [No requirement for    that of the State.]
                               EPA to issue
                               regulations if
                               states do not adopt
                               revised criteria.].
EPA Monitoring and            Sec.  4 [CWA Sec.     Sec.  3[CWA Sec.
 Notification Requirements.    406(a)]: Within 18    704(a-c)]: Within
                               months, EPA must      1\1/2\ years, EPA
                               publish performance   must promulgate
                               criteria necessary    regulations
                               for the protection    requiring
                               of public health      monitoring by
                               and safety for:.      states of ``public
                              <bullet> monitoring    coastal recreation
                               ``coastal             water and beaches''
                               recreation waters     for compliance with
                               adjacent to beaches   WQC, and
                               or other points of    maintenance of
                               access open to the    public safety which
                               public for            specify:
                               attainment of        <bullet> methods,
                               applicable WQS,''     frequency and
                               and protection of     location of
                               public safety from    monitoring;
                               floatable materials. <bullet> methods for
                              <bullet> and for       detecting harmful
                               prompt notification   pathogens and
                               of any exceedance     harmful short term
                               of WQS.               increases,
                              <bullet> Sec. 406(e)   conditions and
                               : EPA must also       procedures for
                               provide technical     exempting discrete
                               assistance to         areas by EPA from
                               states, tribes and    monitoring; and
                               localities.          <bullet> prompt
                              [The details of        notification and
                               monitoring and        posting of signs of
                               notification          failure or
                               requirements          likelihood of
                               developed by EPA      failure to meet
                               are in the Sec.       WQC.
                               406(a) performance   <bullet> Regulations
                               criteria and Sec.     must be reviewed
                               406(b) state grant    every 5 years.
                               conditions (below)]. <bullet> Within 1\1/
                                                     2\ years, EPA must
                                                     also issue guidance
                                                     to establish core
                                                     performance
                                                     measures for
                                                     testing,
                                                     monitoring,
                                                     notification and
                                                     delegation to local
                                                     governments, and
                                                     provide technical
                                                     assistance to
                                                     monitor and assess
                                                     floatables
Coastal Recreation Waters     Sec.  5[CWA Sec.      Sec.  3[CWA Sec.
 Defined.                      502(21)]: Great       701(1)]: water
                               Lakes and marine      adjacent to public
                               coastal waters,       beaches of the
                               including coastal     Great Lakes and
                               estuaries used by     marine coastal
                               the public for        water (including
                               swimming, bathing     bays, lagoon
                               surfing or other      mouths, and coastal
                               similar water         estuaries within
                               contact activities.   the tidal zone)
                                                     used by the public
                                                     for swimming,
                                                     bathing, surfing or
                                                     similar body
                                                     contact purposes.
State Monitoring and          Sec.  4 [CWA Sec.     Sec.  3 [CWA Sec.
 Notification Programs.        406(b)(2)].           704(d)]: States
                              <bullet> EPA is        have 3\1/2\ years
                               authorized to make    from enactment--and
                               grants to states,     2 years from any
                               tribes and local      revisions--to
                               governments that      implement a
                               meet EPA's            monitoring and
                               ``performance         notification
                               criteria.''.          program consistent
                              <bullet> Grants also   with the
                               contingent on         regulations.
                               public notice and    <bullet> Sec. 3
                               comment;              [CWASec. 706]: EPA
                               identification of     may make grants for
                               coastal recreation    use in meeting
                               waters within the     requirements of
                               jurisdiction of the   Sec. Sec. 702
                               state or tribe;       (water quality
                               identification of     criteria and
                               coastal               standards) and 704
                               recreational waters   (monitoring and
                               covered by the        notification
                               program; monitoring   practices).
                               priorities;
                               frequency of
                               monitoring based on
                               periods and nature
                               of use, as well as
                               proximity to
                               sources of
                               pollution;
                               delegation to local
                               governments;
                               methods for
                               detecting harmful
                               pathogens; prompt
                               notification; and
                               posting of signs.
List of Waters..............  <bullet> Sec.  4      No such list
                               [CWA Sec.
                               406(b)(4)]: After
                               receiving federal
                               grants, states,
                               tribes and local
                               governments must
                               submit to EPA a
                               list of discrete
                               areas that are
                               subject to the
                               program for
                               monitoring and
                               notification, and a
                               list of areas where
                               fiscal constraints
                               prevent compliance
                               with performance
                               criteria..
                              <bullet> CWA Sec.
                               406(f): Within 18
                               months, EPA must
                               maintain a list of
                               areas that do and
                               do not meet the
                               performance
                               criteria for
                               monitoring and
                               notification.
EPA implementation..........  Sec.  4 [CWA Sec.     Not specified:
                               406(g)]: 3 years      States simply
                               after an area is      required within 3\1/
                               listed under Sec.     2\ years to
                               406(f) as not         implement
                               meeting performance   monitoring and
                               criteria for          notification
                               monitoring and        programs consistent
                               notification, EPA     with EPA
                               must conduct the      regulations
                               monitoring and        pursuant to Sec.
                               notification          704(d).
                               program for that
                               area. Funds
                               appropriated for
                               grants to that area
                               revert back to EPA
                               to implement
                               programs in that
                               area.
Federal Grants..............  Sec.  4 [CWA Sec.     Sec.  3 [CWA Sec.
                               406(b)(5)]: Federal   706(b)]: Federal
                               share 50%-100%.       share cannot exceed
                                                     50%
Federal Agency Monitoring     Sec.  4 [CWA Sec.     No Federal agency
 and Notification Programs.    406(c)]: Federal      monitoring and
                               agencies must         notification
                               monitor and post      programs required.
                               coastal recreation
                               waters subject to
                               their jurisdiction,
                               consistent with
                               performance
                               criteria.
National Coastal Recreation   Sec.  4 [CWA Sec.     Sec.  3 [CWA Sec.
 Water Pollution Occurrence    406(d)]: EPA must     704(g)]: EPA must
 Database.                     maintain and make     maintain a database
                               available to the      listing communities
                               public, a database    that conform to the
                               to provide            regulations and
                               information on        information
                               exceedances of        reported to EPA,
                               beach WQS.            including failures
                                                     or likelihood of
                                                     failures to meet
                                                     WQC.
Funding Authorization.......  <bullet> Sec.  4      Sec.  3 [CWA Sec.
                               [CWA Sec.  406(h)]:   707]:
                               $30 million/year     <bullet> $9 million/
                               for 5 years for       year for 5 years
                               State, tribal, and    for state grants.
                               local grants..       <bullet> $3 million/
                              <bullet> Sec.  7:      year to carry out
                               Congress authorizes   provisions of this
                               other sums            Act
                               necessary to carry
                               out the provisions
                               of this Act.
Report to Congress..........  Sec.  6: EPA must     Sec.  3 [CWA Sec.
                               report to Congress    705]: EPA must
                               within 4 years of     report to Congress
                               enactment, within     within 4 years and
                               the succeeding 4      periodically
                               years, and            thereafter:
                               periodically         <bullet> on the need
                               thereafter:.          for additional WQC,
                              <bullet> on the need  <bullet> other
                               for additional WQC,.  actions necessary
                              <bullet> other         to improve beach
                               actions needed to     water quality, and
                               improve water        <bullet> an
                               quality,.             evaluation of state
                              <bullet> an            efforts to
                               evaluation of         implement the Act.
                               Federal, State and
                               local efforts to
                               implement the Act,
                               and.
                              <bullet> recommendat
                               ions on
                               improvements for
                               monitoring.
------------------------------------------------------------------------

                               __________
           Statement of Michelle Kremer, Surfrider Foundation
    Mr. Chairman, and honorable members of the Committee, it is indeed 
an honor and a privilege to be able to present to you today our written 
testimony concerning an issue that both myself and the Surfrider 
Foundation are very passionate about--the BEACH bill. Not only will 
this legislation dramatically impact my life, it will also provide 
benefit for every person that comes in contact with our Nation's 
coastal waters.
    My name is Michelle Kremer and although I am not able to testify in 
person on this most worthy issue, our spokesperson today, Ted Danson, 
President of the American Oceans Campaign, has presented to your 
Committee the reasons why this legislation is needed today. The 
Surfrider Foundation, American Oceans Campaign, Center for Marine 
Conservation, Coastal States Organization, and Environmental Protection 
Agency have been intimately and passionately involved with the final 
legislation included in House Resolution 999, the Beaches Environmental 
Awareness, Cleanup and Health Act of 1999, passed by your esteemed 
colleagues in the House of Representatives on Earth Day April 22, 1999.
    Key Aspects of the BEACH bill:
    <bullet> Creates a National Water Testing Standard;
    <bullet> Utilize State Health Agency Department input to formulate 
the Standard;
    <bullet> Provides for Monitoring Criteria to be set by the EPA;
    <bullet> Provides for Federal grant money for states to implement 
the monitoring; and
    <bullet> Creates a National Clearinghouse of monitoring data.
    In promoting ocean care and environmental awareness every day, 
Surfrider Foundation continues to support the key issue and need for 
legislation that adopts a National Beach Water Quality Testing 
Standard. The Surfrider Foundation is an international not-for-profit 
organization whose 25,000 Members are dedicated to the preservation and 
enjoyment, for all people, of the worlds waves, oceans, and beaches 
through conservation, activism, research, and education (CARE). The 
Surfrider Foundation is an issue-driven non-profit environmental 
organization. We support issues and not people. We are thankful for the 
opportunity to participate in this cause in which we strongly believe. 
The Surfrider Foundation is hopeful that a National Water Testing 
Standard is signed into law this year. The Surfrider Foundation has 
advocated for the types of protections addressed by the BEACH Bill for 
many years. As a representative of Surfrider Foundation's staff, 
membership, and constituency of an estimated 2 million U.S. surfers, 
who as a result of their enthusiasm for ocean recreation are in contact 
with coastal waters on average of 250 days per year, I can state 
unequivocally that the health and safety of all who venture into 
coastal waters whether daily or infrequently, are at stake.
    In your review and consideration of the BEACH Bill you have 
undoubtedly heard of the Santa Monica Bay Restoration Project 
Epidemiology Study. This study, a first of its kind, evaluated the 
health risk associated with human ocean water contact at or near 
flowing storm drains. The Study concluded that contact with the ocean 
near where a storm drain empties places you at a ``Statistically 
significant increase in risks for a broad range of adverse health 
effects including infection, coughing with phlegm, respiratory disease, 
and gasteroentric disease with nausea, and diarrhea.'' According to the 
Natural Resources Defense Council 1999 report ``Testing the Waters,'' 
in 1998 we had over 7,000 pollution caused beach closures or health 
advisory warnings issued in the U.S. The BEACH bill represents a sound 
starting point from which we can accomplish a goal that the 
environmental community shares, that of clean and healthy coastal 
recreational waters.
    The issue is not whether we have infrastructure problems throughout 
this country that contribute to or result in episodes of contaminated 
water. That much is clear. The issue is whether we can assist the pubic 
in recognizing and evaluating the hazards associated with water 
contact. For the general public who may venture to the coast on a 
vacation once a year, or even for the experienced ocean enthusiast, the 
ability to evaluate the health risks of water contact at most locations 
can be an impossible task. Lack of standardized testing methods, no 
consistent method providing public notice and the lack of National 
criteria for evaluating water quality all work to frustrate and confuse 
the concerned public. Any life long surfer can tell you that one 
question that we are often asked is ``what do you do if you see a 
shark?'' Well, my answer always is--it is the ones you can not see that 
you need to worry about.
    This provides a fine analogy to the matter at hand. First, it is 
outside the general public's ability to evaluate the condition of the 
ocean water beyond what they can see, or sometimes smell. And, it is 
what you can not see that you must worry about. It is, however, within 
the ability of local health agencies, who are familiar with local 
conditions, to conduct testing, and to create a consistent, 
understandable, and accessible method of providing timely public notice 
of ocean conditions.
    In the BEACH bill's Findings, it states that ``the Nation's beaches 
are a valuable public resource used for recreation by millions of 
people annually.'' It has been reported that water-related recreation 
is an annual $380 billion dollar industry. Employing 6 million people, 
it is the second largest employer in America, second only to health 
care. We Americans truly love our seaboards. Clean and safe water is 
good for local economies, and good for America. The BEACH Bill is the 
right kind of regulation. It does not impose any restrictions upon the 
pubic, but does provide them with the ability to evaluate the 
conditions and choose for themselves.
    Amid the backdrop of voluntary testing programs, and spotty pubic 
notice programs, comes the cry, ``we do not need mandatory testing or 
mandatory posting, it will upset the voluntary programs in place.'' I 
am a living witness to the fallacy of that logic. Even in California, 
where testing and posting of contaminated beaches is mandatory, 
government agencies only reluctantly comply when beach closures would 
impact local economies. The intent of BEACH bill is to seek solutions, 
not to point fingers and assess blame. The effective identification and 
elimination of contamination episodes should be addressed using a 
``watershed approach.'' Only mandatory testing and posting of 
contaminated coastal recreational waters, followed by source 
identification and elimination will insure the public health, and the 
long-term financial well being of local economies.
    Application of promulgated standards, mandatory testing, and public 
notification, together with the watershed approach to source 
identification and elimination builds in a balance that even the 
playing field between large cities and small municipalities. The 
incentives created by posted beaches, whether at Rehoboth Beach, 
Delaware, or Huntington Beach, California are the same. More 
importantly though, the public has a right to know where ever their 
health risk is beyond acceptable levels.
    Throughout the Committee's consideration of the BEACH bill 
legislation before you, I respectfully request that you not lose sight 
of the value of local input. It is voluntary actions and programs of 
local agencies and municipalities, accomplished at water testing and 
notification of the pubic, that can provide important details and 
experience that can turn a Federal mandate into working pubic health 
legislation. Likewise, the experience of NGO's, such as the Surfrider 
Foundation, which has conducted a nationwide program of coastal water 
testing and public outreach, must also be considered. The scientists 
and laboratories of the Environmental Protection Agency surely can 
provide leadership in determining proper standards and methods. 
Although, I would hope that representatives of the Environmental 
Protection Agency could comment on the relative merit of the lengthy 
time indicated in the body of the Bill, and whether that amount of time 
is necessary to identify standards and methods. The experience of 
Surfrider, in cooperation with the County of San Diego, and the State 
of California indicate that reasonable scientific consensus currently 
exists regarding preferable testing standards and methods. The time has 
come for this legislation.
    Again, I thank you for the opportunity to submit this written 
testimony to the honorable members of this Committee. Since its 
introduction, myself and key colleagues with Surfrider Foundation have 
continued to review and analyze the BEACH bill legislation and worked 
with interested Federal agencies, non-profit environmental 
organizations and other groups who have all made additional comments 
and support to the merit of this legislation. I would be happy to share 
comments from other members within Surfrider Foundation with staff so 
that the perspective of other citizens who come in constant contact 
with the coastal water of the United States can be considered. With 
that offer, I conclude my comments and would be happy to answer any 
questions the Members may have.
                               __________
 Statement of Linda Shead, Executive Director, Galveston Bay Foundation
    Good morning. On behalf of the Galveston Bay Foundation (GBF) and 
Restore America's Estuaries, I would like to thank Senator John Chafee 
and the other members of the committee for this opportunity to present 
testimony in strong support of S. 835, the Estuary Habitat Restoration 
Partnership Act. I am privileged to be before you today.
    Before I speak to the vital importance to the Nation of working to 
pass S. 835 this session, let me introduce myself. My name is Linda 
Shead. I am the executive director of GBF, which is located in 
Galveston Bay, Texas and is a member supported, non-profit 
organization. Our mission is to restore and protect the Bay and its 
watershed.
    I am also a member of the board of RAE, which is a coalition of 11 
regional environmental organizations that devote a substantial part of 
their efforts to estuary protection and restoration.
    GBF and RAE members unabashedly represent a very special interest--
the restoration and protection of this nation's coastal estuaries. 
These are resources that not only have high inherent aesthetic and 
``quality of life'' values but also Unction as the heart of significant 
biological activity that has a direct connection to the human economy 
along the Nation's highly populated coastline. Our work, our mission is 
fundamentally about good stewardship and assuring strong and vibrant 
coastal communities.
    The geographical sweep of the RAE alliance's focus is revealed most 
clearly by indicating where we are located:
    <bullet> Chesapeake Bay in Maryland, Virginia, Pennsylvania, and 
Delaware
    <bullet> Long Island Sound in Connecticut and New York;
    <bullet> Narragansett Bay in Rhode Island and Massachusetts;
    <bullet> The Gulf of Maine from Cape Cod Bay to the Bay of Fundy;
    <bullet> The Hudson/Raritan estuary complex in New York and New 
Jersey;
    <bullet> The North Carolina coast;
    <bullet> Tampa Bay in Florida;
    <bullet> Coastal Louisiana;
    <bullet> Galveston Bay in Texas;
    <bullet> San Francisco Bay in California, and
    <bullet> Puget Sound in Washington State.
    This geographical listing, however, or the combined 250,000 members 
of our organizations are simply the tip of the resource we are speaking 
for: RAE stands for a national effort to champion estuary habitat 
restoration and protection wherever those resources are located and 
whoever is working on them.
    Our organizations have in some cases been working to restore and 
preserve our estuaries for 35 years or more. We have pledged 
collectively to restore at least one million acres of habitat in our 
nation's estuaries by the year 2010. And the need for action is great.
    The vital importance and historical losses of the Nation's coastal 
estuary resources are well documented. Estuarine habitat provides food, 
shelter, resting areas and breeding areas for thousands of species of 
flora and fauna. Without these habitats, estuaries would be virtually 
dead and the vibrancy they provide to so many of our coastal 
communities ended.
    Along the Gulf Coast, habitat is still being lost, and in the 
estuary I know best, Galveston Bay, we've lost more than 30,000 acres 
of marsh habitat in the last 40 years alone. In addition, only 700 
acres of seagrasses remain. In Galveston Bay, diverse users, such as 
the petrochemical industry, environmentalists, commercial and 
recreational fishers, recreational boaters, and commercial navigation 
interests, have realized the importance of establishing habitat and are 
working together to restore and protect the Bay. We have had some 
successes, but the losses are great and they continue. These losses 
have dire consequences for our environment, our economy, our way of 
life, and our health.
    Estuaries around the country have lost varying degrees of habitat 
and biological function. For example, 70 percent of the eel grass beds, 
and 50 percent of the salt marshes around Narragansett Bay in Rhode 
Island have been lost due to human activity, and the Hudson Raritan Bay 
area in lower New York Harbor has lost over 80 percent of its original 
wetlands. In the Chesapeake Bay the oyster harvest collapsed from 25 
million pounds in 1959 to only a million pounds in 1989. And of course, 
the Wisteria crisis is now well known to everyone. In the Long Island 
Sound more than 40 percent of the wetlands are gone. The story 
continues on west coast. San Francisco Bay has lost 95 percent of its 
original marshland.
    Additionally, and sadly, tens of thousands more acres of estuarine 
habitat continue to be destroyed each year. Habitat that is the life 
blood of 75 percent of all commercial fish species, and the 28 million 
jobs that depend on healthy, vibrant estuaries.
    These are astounding statistics. They demand action. Fortunately we 
still have time to act. We need to start now and turn the tide on this 
devastating trend and actually foster the rebirth of our estuaries and 
their critical wetlands. And we believe S. 835 is an essential part of 
any coordinated and effective plan of action.
    In some cases, the losses are irretrievable and we simply need to 
proceed with a heightened resolve to prevent or minimize further future 
losses of coastal estuary habitat. I would emphasize that Senator 
Chafee's habitat restoration legislation is simply one critical piece 
of the legislative and policy equation that must include a strong Clean 
Water Act and a rejuvenated National Estuary Program if we are to ever 
get ahead of the curve in stemming coastal resources losses and 
degradation.
    Where S. 835 can play a vital role is in helping provide the 
leadership and resources needed to restore earlier damage to estuary 
habitats that can be fully or partially reversed. S. 835 will allow the 
Nation's coastal regions to seize restoration opportunities which must 
be acted on if the biological productivity of the Nation's coastline is 
to begin to recover.
    Without spending too much time on the specifics of the legislation, 
let me highlight why S. 835 will serve as a national catalyst for 
helping restore our Nation's Estuary habitat. Once up and running, it 
is designed to:
    <bullet> Infuse limited new Federal resources that will leverage 
local resources and commitment sufficient to help our communities 
achieve an actual increase of one million acres of habitat by 2010.
    <bullet> Give our communities and our organizations a real voice in 
the selection process because restoration projects will be driven from 
the community up through voluntary efforts that build effective public-
private partnerships.
    <bullet> Look to watershed based planning efforts and build on 
existing plans such as the comprehensive plans we've worked to develop 
as part of the NEP. There's no reinventing of the wheel here, just a 
focused effort to make good use of good planning and get to work 
restoring critical estuary habitat.
    <bullet> Build a peer review process that will assure that only the 
most deserving projects are selected.
    <bullet> Help build a new level of streamlining and coordination 
among Federal programs and agencies. The importance of accomplishing 
this task is highlighted by a report RAE released last year on Federal 
funding for habitat restoration which identified over 65 programs 
scattered over 7 different agencies. S. 835 would help us much better 
coordinate and increase the on-the-ground impact of these many 
programs.
    RAE also supports S. 835's choice to fund this work through an 
inter-agency effort led by the Army Corps of Engineers. Many RAE 
members have long histories of strong disagreement with the Corps. At 
the same time, we also recognize that in recent years the Corps has 
started to try and change course and work to restore habitat in 
partnership with other Federal agencies, State and local government and 
our communities.
    We believe that S. 835 will be an important part of helping lock 
in--and advance--this real and important change in the stated goals of 
the Corps and in the way it does business. The bill takes the Corps at 
its word and then builds a strong collaborative process of project 
selection and work that will assure that funds are used to implement 
real restoration in all of the Nation's estuaries.
    It is through these mechanisms, and the interest they've generated 
that S. 835 is already helping us focus attention on restoration, focus 
attention on the critical need to bring new resources and dedication to 
the conservation of our nation's estuaries. The bill's bipartisan 
cosponsors in the Senate and the House speak to this growing awareness 
of the need to act now and move on this legislation. So does the strong 
support the bill has received from our colleagues in the environmental 
community, the sporting industry, business and our State and local 
governments.
    RAE members are committed to helping you move forward with S. 835, 
and get it enacted into law this year. The bill is a vital component of 
our efforts to bring back healthy conditions not only in Galveston Bay, 
but in Narragansett Bay, Long Island Sound, Puget Sound, and the other 
estuaries that make up one of this Nation's most precious resources.
    Galveston Bay is my home. Even if we live miles from it's shore, it 
is part of what makes our whole region special. The bay is our 
lifeline. It nourishes our environment, strengthens our economy, 
enhances our leisure time, protects our children's futures. We need to 
care for the bay and invest today in its health and very survival. We 
need to do the same in all of the Nation's estuaries. S. 835 helps us 
accomplish this vital task and helps us ensure a secure and bountiful 
future for our country.
    On behalf of all of the RAE membership, I want to thank Senator 
Chafee and the members of this committee for their vision and 
leadership in working to help us protect and restore our nation's 
estuaries. RAE members looks forward to working with you to move this 
important legislation forward and turn a very good bill into very good 
law. Thank you for this opportunity to speak with you.
                                 ______
                                 
  Responses by Linda Shead to Additional Questions from Senator Chafee
    Question 1a. Many different stakeholders have recognized the 
importance of Galveston Bay and come together to protect the Bay.
    How did you manage to get the petrochemical industry, the 
environmental community; fishermen, boaters, and the tourism industry 
to work together to develop a management plan?
    Answer. The formation of the Galveston Bay National Estuary Program 
(a federal-state program) paralleled the formation of the Galveston Bay 
Foundation (a nonprofit organization) in 1987-1988. With the heavily 
populated and industrialized Galveston Bay region, it was recognized 
early on, for both entities, that the old paradigm of adversarial 
approaches would not succeed in ensuring the future health of the 
invaluable resources of Galveston Bay. The various interests were 
approached with the notion of having a seat at the table to assure that 
their perspective was heard. A seminal moment in the formation of the 
Galveston Bay Foundation (GBF) came when representatives of the 
commercial fishing industry and recreational fishermen agreed to work 
together within the Galveston Bay Foundation to ensure there is a 
resource, and to continue in other arenas their debate over who gets to 
use it.

    Question 1b. What have you found are the major impediments to on-
the-ground implementation of restoration projects?
    Answer. We have found two key impediments to restoration projects 
One is simply having enough financial resources and enough flexibility 
within the funding requirements to meet the restoration needs. It has 
taken decades of mis-use to create our current state of lost habitat 
value, and will take a major commitment of resources at every level 
(public/private, local/state/national) to begin to repair the damage. 
The latter issue (flexibility) relates specifically to matching funds 
requirements. The National Fish and Wildlife Foundation, for example, 
used to require that matching funds be routed through that entity, when 
many of local funding partners would want to give the matching money 
directly to a local entity (such as GBF). It still requests that checks 
for the match go to them to be re-disbursed to the local entity. 
Prohibitions on federal-federal matches are another example that hurts 
building partnerships.
    The second impediment is institutional problems. That is, getting 
agencies (and particularly legal departments) to work for solutions 
instead of throwing up roadblocks. One example is the new 
interpretation by NOAA's legal department that prohibits nonprofit 
organizations from being a recipient of coastal management grants for 
restoration projects. Another example has been the incredible slowness, 
in Texas, of getting a reasonable process in place for the selection of 
projects and disbursement of Natural Resource Damage Assessment funds.
    You also mention that historically, the relationship between the 
environmental community and the Army Corps has not always been ideal.
    Question 1c. How are the current working relationships between the 
various stakeholders and the Corps and the other federal agencies?
    Answer. The national office of the Corps of Engineers and many of 
the new leadership have embraced the idea of working on habitat 
restoration. However, some of the long-term rank-and-file of the agency 
have not yet adopted this attitude. They also have not always perceived 
themselves as part of a team of players and experts within a community, 
instead of being the holder of wetlands knowledge. The situation has 
improved somewhat, but still varies with each new district engineer 
appointment (every 2-3 years) and depends on the civilian leadership 
for continuity, or lack thereof.

    Question 2a. A 1996 report on estuaries by the American Oceans 
Campaign stated that roughly 6.7 million people live in the Galveston 
Bay watershed. Over 566 municipal wastewater treatment plants discharge 
into the Bay watershed, and it has been estimated that Galveston Bay 
receives over 50 percent of all the permitted wastewater discharged in 
Texas.
    How are you balancing the pressures of development and a growing 
population with the need to protect a nationally important estuary?
    Answer. The Galveston Bay Foundation has adopted a position 
supporting the concept of sustainable development. We believe that 
projects can be designed to minimize negative impacts or even to 
enhance the environment without making them infeasible. The current 
project to deepen and widen the Houston Ship Channel stands a very good 
chance of becoming an example of sustainable development. After the 
initial project was condemned in 1987-1988 by a wide variety of 
environmental and Congressional interests, it was reduced in size, re-
designed, and incorporated beneficial uses of dredge material for the 
restoration of bird habitat and of marshes (some 4,260 acres over the 
50-year life of the project).
    Question 2b. Do you feel that you are making progress in restoring 
the Bay, or are all of your efforts simply keeping the situation from 
getting worse.
    Answer. Some of both. There is most definitely progress through 
restoration projects. It will, naturally, take time for the full 
benefits to be realized. S. 835 would make it possible for us to ensure 
that we indeed keep moving forward more steps than we slip back. I know 
that my colleagues in the other major national estuaries feel the same. 
Most of the continuing losses in Galveston Bay are a result of past 
abuses (e.g. increases in erosion as a consequence of subsidence) or 
due to inadequate application/implementation of wetlands regulations.
                               __________
    Statement of Richard Ribb, Director, Narragansett Bay National 
                            Estuary Program
    Mr. Chairman, on behalf of the members of the Association of 
National Estuary Programs (ANEP), I appreciate the opportunity to 
submit to the Environment and Public Works Committee our views on the 
protection and restoration of the Nation's estuaries. I am Richard 
Ribb, Director of the Narragansett Bay National Estuary Program and a 
member of the Board of Directors of ANEP. The Association of National 
Estuary Programs is a non-profit organization dedicated to promoting 
stewardship and a common vision for the preservation of the nation's 
bays and estuaries. Our members include representatives of industry, 
agriculture, fisheries, tourism, and the greater business community, 
who volunteer their time to develop and implement comprehensive 
management plans for a network of nationally significant estuaries.
    It is well established that estuaries are the biologically 
essential, economically priceless, but fragile connections between the 
continent and the oceans. The entire nation is served by coastal 
estuaries in numerous ways, such as commercial and recreational 
fishing, transportation, defense, boating, research and learning, and 
providing irreplaceable wildlife and fisheries habitat. Over half of 
the U.S. population lives in our coastal counties and that percentage 
is increasing. This morning you have heard from many of the witnesses 
of the many and varied problems facing our estuaries.
    The National Estuary Program represents a successful approach to 
defining and addressing the problems in our estuaries. Citizens, 
municipalities, environmental groups and interested business and 
industry organizations come together with State and Federal Governments 
to reach agreement on long-term management plans that seek to guarantee 
the economic and biological productivity of the nation's estuaries into 
the future. Forty-two percent of the continental United States 
shoreline is within the watersheds of the NEP's 28 estuaries. 
Economically, these estuaries of national significance produce over $7 
billion in revenue from commercial and recreational fishing and related 
marine industries; tourism and recreation in these NEPs are valued at 
over $16 billion annually. These programs are clearly an important 
factor in at least a quarter of the nation's inland and coastal 
watersheds. The management plan for each of these 28 NEPs is unique, 
but they share many characteristics in that they are all based on sound 
science, all written by local stakeholder groups in partnership with 
the relevant regulatory agencies, and all approved by the local and 
State governments that will be principal partners in implementation. 
Local citizens guide the development and implementation of their plans, 
and, using the abilities of their local NEPs, work to leverage Federal 
and State dollars with contributions from local governments and the 
private sector. Each of these NEPs serves as the primary technical and 
coordination support structure (and frequently the initiator) for a 
wide web of partnerships and actions to conserve and restore the 
estuary.
                           the anep position
    We are pleased that this committee is turning its attention toward 
the plight of the Nation's estuaries. Our testimony today focuses on 
two of the bills under consideration today. S. 835, the Estuary Habitat 
Restoration Partnership Act of 1999, introduced by Mr. Chafee of Rhode 
Island and co-sponsored by members from all regions of the country, 
clearly recognizes the critical importance of estuarine habitat to the 
ecological and economic health of our nation and to the quality of life 
of our citizens. This bill creates a national program to fund estuary 
habitat restoration efforts in partnership with the States, non-
governmental organizations and local communities. A sub-section of the 
bill deals with reauthorization of the National Estuary Program, 
created under the Clean Water Act and administered by the U.S. 
Environmental Protection Agency in close partnership with State and 
local governments, interested citizens and the business community. A 
key strength of the bill is the collaborative approach outlined which 
mirrors the NEP framework and, based on the success this approach has 
brought to the NEPs, we feel that the process created by this 
legislation will prove successful in restoring the nation's estuarine 
habitats. On the whole, this bill demonstrates Sen. Chafee's continuing 
dedication to and leadership on the protection and enhancement of the 
nation's coastal resources and estuaries.
    S. 878, which amends the Federal Water Pollution Control Act and is 
introduced by Mr. Torricelli of New Jersey, offers a simple 
reauthorization of the National Estuary Program. As does S. 835, it 
allows Federal Clean Water Act funds to be used not only for 
development of the Comprehensive Conservation and Management Plans 
(CCMPs) required under Section 320, but also for implementation of 
these community-based plans which target local needs. Both bills also 
increase the levels of Federal funding for the program--S. 835 at $25 
million annually over 2000-2001; S. 878 at $50 million annually over 
2000-2004.
    The Association of National Estuary Programs strongly supports S. 
835. Those of us who work everyday with citizens' groups and 
municipalities on habitat restoration projects believe that the Federal 
funding and support provided by this measure will prove a critical 
resource in achieving restoration goals for our estuaries. In setting 
goals, developing a national habitat restoration strategy and 
committing funding, Congress would make the Federal Government a real 
partner with the States in restoring the nation's estuarine resources.
    We would like to provide three specific comments on the bill. 
First, we endorse the provision pertaining to Clean Water Act Section 
320 that allows funding to be used for both the development and 
implementation of the Comprehensive Conservation and Management Plans 
(CCMPs) that are produced for each estuary in the program. Second, we 
support the development of a mechanism for the bill that would increase 
the level of regional and local input in the development of a national 
habitat restoration strategy and into setting criteria for the grant 
decisionmaking process. Third, in the Definitions section of the bill, 
ANEP supports an expanded definition of ``Federal estuary management 
plans'' that specifically includes CCMPs developed under Section 320 of 
the Clean Water Act.
    ANEP endorses the funding level of $50 million annually over 4 
years in S. 878 in order to continue this successful Federal 
partnership with State and local efforts. The basis for supporting this 
funding level is described in the sections below.
              a federal investment in progress and results
    Through its 10 years of experience, the National Estuary Program 
has become an excellent model for developing solutions to complex 
environmental problems. The NEP has been the laboratory and testing 
ground for the watershed management techniques now being applied across 
the country. Characterizing and systematically monitoring conditions, 
ensuring that management decisions are based on sound science, 
coordinating watershed actions, creatively finding project funding, 
promoting citizen involvement in managing public resources, bringing 
local people and Federal and State partners together to build solutions 
to estuary problems the NEP can claim a good deal of responsibility for 
the success and popularity of these techniques. The 28 NEP programs 
have developed and used these techniques to implement their management 
plans, designed to improve water quality, habitat and estuarine 
resources. Strong Federal support is critical in maintaining the 
success of this popular program. By maximizing the Federal investment 
in the management plans and local partnerships that have been created, 
the National Estuary Program provides real benefits to the health of 
the nation's estuaries and the people who live there.
    ANEP believes that the increased authorization for this national 
program will truly be a sound investment in the future of the nation's 
estuaries. In years past, there were just a dozen NEPs receiving 
approximately $12 million to develop CCMPs--about $1.0 million per NEP. 
However, due to recognition of the value of these programs and the 
resulting demand, today there are 18 NEPs implementing CCMPs with 
another 10 in the development stage--that same $12 million has been 
increasingly stretched to attempt to support the additional Estuary 
Programs created at the request of Governors and citizens across the 
Nation. An increase in authorized funding is necessary because there 
are now 28 National Estuary Programs and solid Federal support is 
needed to fully advance the mission and goals of each NEP as determined 
by local interests.
    A recent report from the Estuary Programs shows that, based on a 
conservative analysis, the EPA contribution under Section 320 to 
implement the NEP estuary management plans was, on average, only 32 
percent of the total dollars that these community-based programs 
directed to actions in the estuaries. In fact, for a quarter of the 
programs it was less than 20 percent. In general, this means that for 
every dollar in direct Section 320 funding invested, the NEPs leverage 
2 dollars from State, local and other funding sources and services. 
There are few Federal programs that can show this kind of return on 
investment. This also reflects the level of State and local commitment 
to the NEPs as well as recognition that these programs are an effective 
catalyst for action in our nation's estuaries.
    In a program that has a strong history of leveraging funds, 
enhanced Federal funding will allow the NEPs to bring in additional 
State, local and other funds to protect our estuaries. With stable 
support for the local NEP staff, more staff resources can be devoted to 
seeking out these additional funding sources and directing them toward 
creating solutions for estuary problems. Also, the NEPs will have the 
capacity to accommodate the increased demand for actions in our 
estuaries as coastal population increases and resources are 
increasingly stressed. These programs are already being called upon to 
deal with emerging issues such as invasive species, harmful algal 
blooms and sea level rise. With enhanced funding, the NEPs could meet 
the growing demand for action while continuing to effectively build 
local solutions that satisfy identified scientific and economic needs 
as well as the interests of the many stakeholders in their estuaries.
linking estuary habitat restoration and nep reauthorization: a formula 
                              for success
    The National Estuary Program is a broad-based program, taking a 
comprehensive approach to addressing the wide range of problems facing 
the Nation's estuaries: preventing habitat degradation and loss of 
recreational and commercial fisheries; protecting and improving water 
quality; pioneering watershed management techniques; controlling sewage 
outfalls and septic system impacts; mitigating impacts from increasing 
land development; developing strategies to deal with invasive species 
and harmful algal blooms--the list goes on and reflects the inter-
related nature of these problems and the community-based nature of the 
NEP approach. In contrast, the Estuary Habitat Restoration Partnership 
Act takes a targeted approach toward a specific problem: loss and 
degradation of estuarine habitat. The NEP program, while currently 
deeply involved in habitat restoration planning and projects, does not 
have sufficient resources to adequately address habitat restoration in 
addition to addressing the broad range of other problems included under 
our mandate. This is why a Federal funding program for this purpose is 
so necessary. At the same time, S. 835's mission is urgently needed but 
not broad enough to address the entire spectrum of pressures on our 
estuaries including those environmental factors that significantly 
affect the success of restoration projects. These two pathways join 
within the National Estuary Program. Because the NEPs are an on-the-
ground, in-place mechanism for effecting estuary habitat restoration 
within the larger watershed perspective that is the foundation of the 
NEP's success, we believe that NEP reauthorization and habitat 
restoration legislation must be considered together. They form a web of 
action and resources that will result in the kind of measurable 
environmental progress that we are all working to achieve.
     the national estuary program: securing a sound future for the 
                           nation's estuaries
    The National Estuary Program has evolved into a leader in coastal 
protection and action over the last decade and a half (refer to the 
attached success stories list, Results from the National Estuary 
Program). Starting with four pilot programs in 1985, the success of and 
need for the program has led to the current status--28 estuaries in the 
national program of which 10 are in the developmental stage and 18 are 
in the implementation stage of their individual Comprehensive 
Conservation and Management Plans. The implementing programs have been 
tackling the many pressures and problems in our estuaries and the 
remaining programs will soon be fully in the implementation phase. The 
funding level authorized under Section 320 of the Clean Water Act has 
not kept up with the growth of and demand for the program. The cost of 
implementing the 28 CCMPs far outweighs the cost of developing them. 
Current funding levels ($17.321 million appropriated in fiscal year 
1999 for all 28 NEPs) have barely been sufficient to allow the programs 
to finish development of these critical estuary management plans. Now 
faced with implementing these publicly and federally approved 
management plans, the need for Federal funding support is greater than 
ever. The level of funding authorization presented in S. 878 is the 
level realistically necessary to allow for implementation of the 28 
CCMPs., as mandated by Congress.
    The National Estuary Program is clearly not the ``command-and-
control'' type of EPA program. Rather, it is a program where local 
governments, citizens and the private sector come together and agree on 
how to manage the Nation's estuaries and on how to craft local 
solutions to common coastal problems. Only with the full support of the 
local sector is the proposed CCMP submitted to the State Governors and 
the EPA Administrator for approval. Thus, it is the States, in close 
coordination with the local stakeholders and the Federal Government, 
that create and implement new, non-adversarial and cost-effective 
estuary management plans, in contrast to the ``command-and-control'', 
top-down approach to environmental protection.
    The NEP has a history of valuing community involvement and building 
support for initiatives.
    Citizens see these programs (and their staffs) as a part of a 
governmental structure that uses resources efficiently, is responsive 
to their needs, and is effective in solving problems and raising issues 
and awareness. NEPs have been particularly effective in identifying and 
funneling relevant resources (grants, technical assistance, etc.) to 
States, communities and citizens' groups. Sandra Wyatt, a member of a 
citizens' group in Barrington, R.I., the Allins Cove Neighborhood 
Association, seeking to restore a nearby cove's coastal wetlands, 
recently said this of her local NEP:

          ``We have been trying to deal with Federal and State agencies 
        to get our cove restored and we felt that there was a lot of 
        talk but very little action. But recently, with Estuary Program 
        coordination, technical assistance and persistence, things are 
        starting to happen. The Estuary Program's coastal habitat 
        restoration initiative has some steam behind it and they have 
        really brought the issue to the public's attention and, equally 
        important, have helped focus Federal and State agency resources 
        on our local habitat restoration needs.''

    The National Estuary Program is one of a handful of Federal 
nonregulatory programs that truly attempt to address local concerns. 
This effective national network of programs shares its experiences and 
lessons learned with each other and with other watershed and 
governmental organizations. It has been and, with your help, will 
continue to be a national resource for the protection and improvement 
of the nation's estuaries.
    We thank the Committee for providing us the opportunity to share 
our views with you. The Association of National Estuary Programs stands 
ready to assist the Committee as it works to pass this vital 
legislation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               results from the national estuary program
    Through the National Estuary Program, many environmental problems 
are being solved. A few examples of NEP success stories include:
    <bullet> The Massachusetts Bays Program led an interagency approach 
to shellfish bed restoration that will restore and protect 13 shellfish 
beds along Massachusetts and Cape Cod Bays. As part of this effort, the 
program has linked up with business interests to promote innovative 
technologies for pollution prevention and remediation.
    <bullet> Through the work of the Barnegat Bay NEP, more than 32,000 
acres of critical habitat area have been preserved in Barnegat Bay, New 
Jersey.
    <bullet> Over 40,000 acres of impounded marsh and mangrove wetlands 
have been reconnected to the Indian River Lagoon on Florida's eastern 
coast, one of the most productive ecosystems in the United States, 
located in an area with high population growth and human pressures.
    <bullet> On the Florida's Gulf Coast, the Sarasota Bay NEP has 
helped achieve a 28-38 percent reduction in nitrogen loadings to the 
Bay, spurring a 7 percent increase in seagrass production.
    <bullet> Two NEPs, in Corpus Christi Bay, Texas and Tampa Bay, 
Florida, are developing long-term dredged material management plans to 
provide environmental protection and to maximize beneficial uses of 
dredged materials.
    <bullet> The San Juan National Estuary Program is reducing the 
number of unauthorized raw sewage discharges from boater pumpout 
stations while the Narragansett Bay Estuary Program played a seminal 
role in having the entire bay and the State's coastal waters designated 
a ``No Discharge Zone'' (the first large estuary to achieve such 
designation).
    <bullet> Maine's Casco Bay Estuary Program teamed up with local 
lobstermen to study habitat in Portland Harbor, discovering that the 
harbor supported a thriving lobster community, larger than anyone had 
thought. This partnership then relocated thousands of lobsters to other 
areas while the harbor was dredged, thereby protecting an important 
natural resource while supporting the increased economic development 
that the dredging allowed.
    <bullet> The New York/New Jersey Harbor NEP, through its Habitat 
Workgroup, has prioritized and produced GIS coverages of habitat sites 
targeted for restoration and acquisition by the two States. This 
process has already resulted in the funding several millions of dollars 
worth of restoration projects. The data are being used to identify not 
just potential sites, but also other factors that can impair 
restoration such as erosion problems and incompatible land uses.
    <bullet> The San Francisco Estuary Project has partnered with local 
land commissions to provide 25 educational workshops for 1400 
developers, contractors and local officials. This training and 
information has resulted in improved compliance with erosion and 
sediment control requirements in the Bay area increasing from 30-40 
percent in the early 1990's to 90 percent in 1998.
    <bullet> The Long Island Sound NEP has been instrumental in 
developing the scientific data that has resulted in the ongoing and 
planned upgrades of sewage treatment plants (with bi-State bond funding 
totaling several billion dollars) to reduce nitrogen loading to the 
Sound, leading to improved levels of dissolved oxygen that better 
support marine life.
    <bullet> In Mobile Bay, AL, the local Estuary Program responded to 
community concern over introduced species from ship ballast water by 
creating a cooperative project with the U.S. Coast Guard to check ship 
logs for compliance with voluntary maritime ballast exchange policies.
    <bullet> 700 acres of Florida upland habitat were restored through 
the removal of exotic plant species and restoration of natural 
hydrology in a partnership effort led by the Charlotte Harbor NEP.
    <bullet> In 1998, the Seabrook Middle Ground clam flat in coastal 
New Hampshire was reopened to clamming for the first time in nearly 10 
years due largely to improvements in water quality coordinated by the 
New Hampshire Estuaries NEP.
                               __________
 Statement of Joseph E. Costa, Ph.D., Executive Director, Buzzards Bay 
                    Project National Estuary Program
                              introduction
    In September of 1998, a funding information request was sent by 
Tiffany Lutterman, Director of the Charlotte Harbor National Estuary 
Program of Florida, to all 28 National Estuary Programs (NEPs). The 
purpose of this information request was to better understand the 
relative importance of EPA funding of NEPs through Section 320 of the 
Clean Water Act, in comparison to other sources, both public and 
private. This report summarizes the responses forwarded to the Buzzards 
Bay Project and subsequent follow-up questions
                                methods
    Each NEP was asked to provide an estimate of expenditures in each 
of the following funding categories:
    1. EPA funding through Section 320,
    2. EPA funding through non Section 320 funding (e.g., grants in 
319, 104b3, 604 programs),
    3. State funding,
    4. Local funding (municipal, county, and regional entities),
    5. Non-governmental.
    The request for information was meant to cover amounts in both 
Fiscal Year 1998, and projections for Fiscal Year 1999. Because of 
differences in state and federal fiscal years, and the start of the 
state fiscal year varies from state to state, we left it up to the 
discretion of each contact with the NEP to report in either state or 
federal fiscal year totals, since the purpose of this exercise was to 
approximate relative contributions of various funding sources. Because 
fiscal year 1999 expenditures were difficult for many NEPs to project, 
they were considered less reliable than fiscal year 1998 values, so 
only the fiscal year 1998 data are presented in this report.
    In many instances, it was difficult or impossible to quantify CCMP 
implementation expenditures because the NEP was not directly involved 
with managing or directing these expenditures. Expenditures by local 
government and nonprofits were an especially difficult category for 
most NEPs to quantify. Out of necessity, $0 dollars were included for 
NEPs when no response was given so that averages of funding 
calculations could be calculated. Therefore, the totals in these 
categories should be considered underestimates.
    There were also differences in how comprehensive this evaluation 
should be. In some instances it appeared that the respondent only 
quantified funding directly received by or administered by the NEP. In 
other cases the respondent took a broader view of CCMP implementation 
related expenditures by other agencies. We made no attempt separate 
these different kinds of responses, and all responses were included in 
this draft report. A draft report was provided to each NEP for review 
which generated only a modest response.
                                results
    Twenty-three out of twenty-eight NEPs responded to the requests for 
information. A summary of fiscal year 1998 for each NEP is included in 
Table 1 below. Actual amounts of each funding category were also 
converted to percent contributions in Table 2.

                                               Table 1.--Total Funding Reported By Each NEP for Each Funding Category Related to NEP and CCMP Implementation Funding for Fiscal Year 1998.
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Priv/Non-                                                                  Non-EPA
                 Estuary Program FY 98                       Profit           Local                        State                       Federal                    EPA-non 320                    EPA-320                       Total
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Albermarle-Pamlico.....................................  ..............  ..............  ...........         $81,259  ...........  ..............  ...........              $0  ...........        $325,000  ...........        $406,250
Barataria-Terrebonne...................................         621,100  ..............  ...........       5,616,669  ...........      61,110,657  ...........               0  ...........         260,000  ...........      67,608,426
Barnegat Bay...........................................         214,100          28,200  ...........         862,250  ...........         617,000  ...........          80,000  ...........         401,000  ...........       2,202,550
Buzzards Bay...........................................          86,000         165,000  ...........          72,500  ...........          60,000  ...........         454,500  ...........         199,500  ...........       1,037,500
Casco Bay..............................................          75,993          21,000  ...........         209,277  ...........           5,000  ...........          98,740  ...........         199,500  ...........         609,510
Charlotte Harbor.......................................          48,851         134,292  ...........         200,638  ...........          24,750  ...........               0  ...........         485,000  ...........         893,531
Corpus Christi.........................................         165,472          53,000  ...........         264,667  ...........         369,667  ...........               0  ...........         860,000  ...........       1,712,806
Delaware...............................................  ..............  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........               0
Delaware Inland Bay....................................          50,000           5,000  ...........          67,500  ...........               0  ...........         279,950  ...........         234,500  ...........         636,950
Galvaston Bay..........................................  ..............  ..............  ...........         750,000  ...........  ..............  ...........  ..............  ...........         260,000  ...........       1,010,000
Indian River Lagoon....................................         403,700      15,465,000  ...........       4,856,000  ...........               0  ...........         320,000  ...........         260,000  ...........      21,304,700
Long Island Sound......................................  ..............  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........               0
Lower Columbia River...................................  ..............  ..............  ...........         300,000        A      ..............  ...........  ..............  ...........         585,000  ...........         885,000
Maryland Coastal Bay...................................           5,000         310,935  ...........       2,648,980  ...........         175,000  ...........          75,000  ...........         410,000  ...........       3,624,915
Massachusetts Bay......................................               A               B  ...........          89,000        C      ..............  ...........  ..............  ...........         267,000  ...........         356,000
Mobile Bay.............................................          38,680         127,200  ...........         146,500  ...........         150,000        1                   0  ...........         775,000  ...........       1,237,380
Morro Bay..............................................  ..............  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........               0
Narragansett Bay.......................................  ..............      15,080,000  ...........      19,775,000  ...........               0  ...........               0  ...........       1,500,000  ...........      36,355,000
New Hampshire..........................................  ..............  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........               0
New York/New Jersey....................................  ..............  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........               0
Peconic Bay............................................             ***         150,000       **              12,000  ...........          10,000  ...........               0        *             446,500        *             618,500
Puget Sound............................................               *               *  ...........      13,668,677  ...........               *  ...........         195,490  ...........         346,500  ...........      14,210,667
San Francisco..........................................       2,750,000         147,000  ...........         470,000  ...........          75,000  ...........               0  ...........         308,150  ...........       3,750,150
San Juan Bay...........................................  ..............  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........               0
Santa Monica Bay.......................................         310,000       9,200,000  ...........         379,000  ...........               0  ...........               0  ...........         250,000  ...........      10,139,000
Sarasota Bay...........................................         750,000      39,997,166       **           2,692,536  ...........       6,040,000  ...........         115,000  ...........         874,645        *          50,469,347
Tampa Bay..............................................  ..............         333,873        1      ..............  ...........               0        2              70,000        2             346,500  ...........         750,373
Tillamook Bay..........................................  ..............  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........  ..............  ...........               0
                                                        --------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
    Totals.............................................      $5,518,896     $81,217,666  ...........     $53,162,444  ...........     $68,637,074  ...........      $1,688,680  ...........      $9,593,795  ...........    $219,818,555
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Funding Notes:
Indian River Lagoon: Note: Table does not include the estimated >$27,500,000 expended on land acquisition initiatives from state, local and private sources since 1995.
Lower Columbia River: (A) $150,000 from Oregon, $150,000 from Washington.
Mass Bays: (A) Implementation costs are so large that we depend on lots of sources, obviously. EPA funds are used just to support the core program. (B) MBP gets additional support that we don't really count in that the regional
  planning agencies that house our regional staff also pay part of their salaries. Essentially they are out doing MBP tasks all the time anyway. (C). Same as for (B). There are many things that agencies are doing that we nudge along
  that we don't take financial credit for.
Mobile Bay: Note: $290,000 carried over from previous year, 1 = Gulf of Mexico Program.
Peconic:
* Does not include implementation funding sources which are administered by entities other than the Peconic Estuary Program's Program Office. These include NYS Clean Water/Clean Air Bond Act Funding ($1.3 million in 1998. Approx $2.
  5 million in 1999) and Land Preservation partnership ($15 million Town, $15 million County of 3 years); ** Minimum commitment is shown. Actual contributions will be substantially higher. *** Value of services are substantial but
  unquantified.
Puget Sound: *Puget Sound Estuary Program does not track private non-profit, local or non-EPA Federal spending for implementation of the estuary program. However, we know that local and tribal governments are spending considerable
  sums to carry out actions called for in the CCMP. For example, about half of the local governments in the basin have established utilities to fund stormwater management programs; other local governments are upgrading combined
  sewer overflows and sewage treatment plants, implementing watershed plans, acquiring and restoring habitat, inspecting on-site sewage systems, enforcing environmental laws, educating the public, etc.--all of these activities would
  easily add up to $50 to 100 million (and that is probably a very conservative estimate). State and federal agencies are providing additional funding from SRF, 319, transportation programs, and the state cigarette tax to local
  governments, tribes, ports, sewer and water districts, and conservation districts to help them fund the activities listed above and others which protect the Sound. In addition, there are a minimum of 200 private, nonprofit groups
  working to protect the Sound.
Sarasota Bay: * Estimates $274,645 carryover into FY 98, $300k allocations for FY 98-9; ** Assumes $28 million wastewater re-use system is constructed on Manatee County, funds committed in FY 97; estimates for proposed reuse system
  expansions in Sarasota County not available; includes $10 million for the completion of Phillippi Creek $40 million stormwater retrofit project.
Tampa Bay: (1) Includes cash contributions for operation of TBEP. Does not include expenditures by local governments and nonfederal agencies for project contributing to implementation of CCMP. (2) Does not include potential federal
  grants to TBEP partners for projects contributing to implementation of CCMP.


 Table 2.--Total Funding as Percent (%) by Category Reported by Each NEP Related to NEP and CCMP Implementation
                                          Funding for Fiscal Year 1998
----------------------------------------------------------------------------------------------------------------
                                                                       Non-EPA
                                      Private/    Local      State     Federal    EPA-non    EPA-320   EPA-% 320
       Estuary Program FY 98            Non-       [In        [In        [In      320  [In     [In         [In
                                       Profit    percent]   percent]   percent]   percent]   percent]   percent]
----------------------------------------------------------------------------------------------------------------
Albemarle-Pamlico..................         0%         0%        20%         0%         0%        80%       100%
Barataria-Terrebonne...............          1          9          8         90          0          0        100
Bamegat Bay........................         10          1         39         28          4         18         83
Buzzards Bay.......................          8         16          7          6         44         19         31
Casco Bay..........................         12          3         34          1         16         33         67
Charlotte Harbor...................          5         15         22          3          0         54        100
 Corpus Christi....................         10          3         15         22          0         50        100
Delaware...........................  .........  .........  .........  .........  .........  .........  .........
Delaware Inland Bay................          8          1         11          0         44         37         46
Galveston Bay......................          0          0         74          0          0         26        100
Indian River Lagoon................          2         73         23          0          2          1         45
Long Island Sound..................  .........  .........  .........  .........  .........  .........  .........
Lower Columbia River...............          0          0         34          0          0         66        100
Maryland Coastal Bay...............          0          9         73          5          2         11         85
Massachusetts Bay..................          0          0         25          0          0         75        100
Mobile Bay.........................          3         10         12         12          0         63        100
Morro Bay..........................  .........  .........  .........  .........  .........  .........  .........
Narragansett Bay...................          0         41         54          0          0          4        100
New Hampshire......................  .........  .........  .........  .........  .........  .........  .........
New York/New Jersey................  .........  .........  .........  .........  .........  .........  .........
Peconic Bay........................          0         24          2          2          0         72        100
Puget Sound........................          0          0         96          0          1          2         64
San Francisco......................         73          4         13          2          0          8        100
San Juan Bay.......................  .........  .........  .........  .........  .........  .........  .........
Santa Monica Bay...................          3         91          4          0          0          2        100
Sarasota Bay.......................          1         79          5         12          0          2         88
Tampa Bay..........................          0         44          0          0          9         46         83
Tillamook Bay......................  .........  .........  .........  .........  .........  .........  .........
    Average........................          7         20         27          9          6         32         85
    % based on national expenditure          3         37         24         31          1          4         85
----------------------------------------------------------------------------------------------------------------

                                                                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                                                       
Conclusions
    Total expenditures in fiscal year 1998 toward CCMP implementation 
activities were more than $212 million for the 23 reporting NEPs (Table 
1). On a National level, the US EPA Section 320 funding represented 
only 5 percent of this total (Figure 1 ). This contribution of Section 
320 funds is in fact an overestimate since NEPs were unable to 
adequately characterize funding in some funding categories.
    Figure 1, however, is somewhat misleading in characterizing typical 
expenditures for individual NEPs since expenditures by partnering 
agencies in certain NEPs was sometimes quite large. For example, more 
than $60 million of non-EPA Federal dollars were reported by the 
Barrataria-Terrebone NEP for fiscal year 1998, which alone represented 
more than 25 percent of the $212 million national expenditure total.
    To better characterize funding pat- terns, the average percent 
contribution of Section 320 funds and other funding categories are 
shown in Figure 2.
    This figure shows the averages of all category funding percentages 
calculated from individual NEP program funding breakdowns as shown in 
Table 2. This representation of the data eliminates the skewing effect 
of large dollar expenditures in any one NEP.
    As shown by Figure 2, US EPA Section 320 funds represented a 
minority of total implementation funding as a percent of all funding, 
accounting for an average of 32 percent within each NEP for CCMP-
related expenditures for fiscal year 1998.
    Although 32 percent may represent a national average of the 
contribution of Section 320 funds in relation to all fiscal year 1998 
expenditures, Figure 3 demonstrates that there is a great variation in 
the relative importance of Section 320 funds among individual estuary 
programs. For example, for 7 of the 23 respondents, Section 320 funds 
represented 20 percent or less of the total expenditures. As noted 
previously, because some sources of funding such as local and state 
expenditures may have been underestimated, section 320 contributions 
may also be overestimated in this figure.
    Also of interest to some NEPs is the amount of EPA funding provided 
to the NEPs through other EPA programs other than Section 320 (e.g., 
319, 104b3, 604, etc.), since these programs are viewed as important 
mechanisms for funding NEPs and CCMP implementation activities.
    As shown in Figure 4, there is also a considerable amount of 
variation in the amount of non-section 320 EPA funding that each NEP 
program receives, with Section 320 funds ranging from 31 percent to 100 
percent of all EPA funds received, with the mean being 83 percent.
                                 ______
                                 
                   appendix a. table 1 funding notes
    INDIAN RIVER LAGOON: NOTE: Table does not include the estimated 
>$27,500,000 expended on land acquisition initiatives from state, local 
and private sources since 1995.
    LOWER COLUMBIA: A: $150,000 from Oregon, $150,000 from Washington
    MASS BAYS: A. Implementation costs are so large that we depend on 
lots of sources, obviously. EPA funds are used just to support the core 
program.
    B. MBP gets additional support that we don't really count in that 
the regional planning agencies that house our regional staff also pay 
part of their salaries. Essentially they are out doing MBP tasks all 
the time anyway.
    C. Same as for B There are many things that agencies are doing that 
we nudge along that we don't take financial credit for.
    MOBILE BAY: Note: $290,000 carried over from previous year, 1= Gulf 
of Mexico Program
    PECONIC:
    * Does not include implementation funding sources which are 
administered by entities other than the Peconic Estuary Programs 
Program Office. These include NYS Clean Water/Clean Air Bond Act 
Funding ($1.3 million in 1998. Approx. $2.5 million in 1999) and Land 
Preservation partnership ($ 15 million Town, $ 15 million County of 3 
years).
    ** Minimum commitment is shown. Actual contributions will be 
substantially higher.
    *** Value of services are substantial but unquantified.
    PUGET SOUND:
    * Puget Sound Estuary Program does not track private non-profit, 
local or non-EPA Federal spending for implementation of the estuary 
program. However, we know that local and tribal governments are 
spending considerable sums to carry out actions called for in the CCMP. 
For example, about half of the local governments in the basin have 
established utilities to fund stormwater management programs; other 
local governments are upgrading combined sewer overflows and sewage 
treatment plants, implementing watershed plans, acquiring and restoring 
habitat, inspecting onsite sewage systems, enforcing environmental 
laws, educating the public, etc.--all of these activities would easily 
add up to $50 to 100 million (and that is probably a very conservative 
estimate). State and Federal agencies are providing additional funding 
from SRF, 319, transportation programs, and the state cigarette tax to 
local governments, tribes, ports, sewer and water districts, and 
conservation districts to help them fund the activities listed above 
and others which protect the Sound. In addition, there are a minimum of 
200 private, nonprofit groups working to protect the Sound.
    SARASOTA BAY:
    * Estimates $274,645 carryover into fiscal year 1998, $300K 
allocations for fiscal years 1998-1999
    ** Assumes $28 million wastewater re-use system is constructed in 
Manatee County, funds committed in fiscal year 97; estimates for 
proposed reuse system expansions in Sarasota County not available; 
includes $10 million for the completion of Phillippi Creek $40 million 
stormwater retrofit project.
    TAMPA BAY:
    1 Includes cash contributions for operation of TBEP. Does not 
include expenditures by local governments and non-Federal agencies for 
project contributing to implementation of CCMP.
    2 Does not include potential Federal grants to TBEP partners for 
projects contributing to implementation of CCMP.
                               __________
 Statement of Michael F. Hirshfield, Senior Vice President, Chesapeake 
                             Bay Foundation
    Good afternoon. On behalf of the Chesapeake Bay Foundation (CBF) I 
would like Committee Chairman (John) Chafee and Ranking Member (Max) 
Baucus, Senator (John) Warner and the other members of the Committee 
for this opportunity to present testimony in strong support of S. 492, 
the Chesapeake Bay Restoration Act of 1999. We would also like to thank 
Senator (Paul) Sarbanes, as well as his colleagues from the Chesapeake 
Bay region, for their consistent and long-standing support for the Bay, 
exemplified by the legislation that is the subject of this hearing. I 
am privileged to be before you today.
    Before I speak to the vital importance to the Nation of working to 
pass S. 492 this session, let me introduce myself. My name is Michael 
Hirshfield. I am the Senior Vice President of CBF, which has its 
headquarters in Annapolis, Maryland and offices in Virginia and 
Pennsylvania. CBF is a member-supported, non-profit environmental 
education and advocacy organization with over 80,000 members throughout 
the Bay watershed and nationwide. Our mission is to Save the Bay--to 
restore and protect the Chesapeake Bay and its watershed.
    Mr. Chairman, I have good news and bad news concerning the health 
of the Chesapeake Bay. A year ago, the Chesapeake Bay Foundation 
released its first annual State of the Bay Report. We assessed the 
health of 12 factors that go into making a healthy Bay--including, for 
example, oysters, crabs, striped bass, underwater grasses, and wetlands 
in order to produce a sort of Dow Jones for the Bay. We compared the 
health of each of these factors against what they would have been over 
300 years ago, before the beginning of European settlement. If the Bay 
of Captain John Smith's time was considered 100 percent, we calculated 
that the Bay of 1998 was only 27 percent. Bad news indeed, a Chesapeake 
Bay only a small fraction of what it once was and what it could be. As 
Will Baker, President of CBF, said when we released the report: ``The 
Bay will never again reach the pristine levels of the past. But we 
think a Bay with a value of 70 percent is achievable. The State of the 
Bay Report provides a reference point for how far we have fallen and 
how far we have to go to reach a reasonable level of health for this 
marvelous body of water.''
    But there is good news. Mr. Baker also concluded the following: 
``The work of public agencies and private groups and individuals is 
beginning to show small signs of success. The Bay experienced a steady 
downward trend in health, but it has stabilized and begun slowly 
improving. On balance, the Bay is in somewhat better shape than it was 
15 years ago.'' Mr. Chairman, for the Bay to be even slightly better 
off than it was 15 years ago, in the face of the pressures of 
population growth during that period, is nothing short of remarkable. 
And it owes that improvement, in no small measure, to the hard work of 
the dedicated individuals from both the public and private sector led 
by the Chesapeake Bay Program. We believe that we have stopped the 
decline, and can now truly talk about restoring the Bay.
    The Chesapeake Bay Program has been described as a national and 
international model of a cooperative ecosystem restoration program. It 
brings together Federal, State, and local government officials under a 
cooperative management umbrella in unique fashion. The relatively 
modest amount of Federal dollars devoted directly to the Chesapeake Bay 
Program through the EPA are leveraged many times over other Federal, 
State, local, and private dollars. We at the Chesapeake Bay Foundation 
have been critical of the Bay Program in the past, and I am quite 
confident we will be critical of it in the future. I'm sure you would 
be surprised and disappointed if we weren't. It is too slow, too 
cumbersome, too bureaucratic. CBF is impatient, and it is our job to 
push as hard and as fast as we can. Yet our impatience with the Bay 
Program is also a measure of our respect--we expect nothing less than 
the best from it. It has never been ``just another government 
program,'' and we intend to make sure that it continues to strive for 
the highest goals, not the lowest common denominator.
    The Bay Program has done a lot for the Bay since the 80's. At the 
present time, it is in the process of challenging itself once more to 
develop goals and objectives for the next decade and beyond. We will be 
urging the Program to set lofty goals, and we will be working hard to 
help achieve them. But to do the work of Saving the Bay, we need a 
solid framework for the Bay Program. S. 492, the Chesapeake Bay 
Restoration Act of 1999 provides such a framework. It reauthorizes the 
Chesapeake Bay Program, providing it with the institutional resources 
necessary to carry out such an enormous task. We are pleased to see 
that it includes mechanisms to ensure good public accounting of its 
actions and expenditures. CBF believes that such public accounting 
mechanisms are essential to ensure public confidence in its government 
leaders.
    We are also excited to see the new section on small watershed 
grants, that will enable local government and community groups to help 
engage in active restoration. Such on the ground activities have two 
major benefits: first, they produce tangible results that benefit the 
Bay. Second, they produce expanded constituencies for Bay restoration. 
It is for this reason that the Chesapeake Bay Foundation has committed 
itself to spending $10 million in privately raised dollars to restore 
oysters, wetlands, streamside buffers, and underwater grasses, 
leveraging the dollars and efforts of government agencies and private 
agencies throughout the watershed. However, CBF is only one of the many 
organizations spending time and resources on Bay restoration under the 
umbrella of the Bay Program. On behalf of all of those individuals and 
groups who are not here today, I urge you to move rapidly to approve S. 
492, so that the effort to Save the Bay can continue with renewed 
energy and momentum on into the next century.
    I would also like to take a few minutes to comment on some of the 
other legislation before you today. In particular, we would like to 
thank Senator Chafee for introducing and working for passage of S. 835, 
the Estuary Habitat Restoration Partnership Act of 1999. CBF is part of 
Restore America's Estuaries (RAE), a coalition of 11 regional 
environmental organizations that all have estuary protection and 
restoration at the core of their missions. Will Baker currently serves 
as chairman of RAE, and testified last week on behalf of a similar 
piece of legislation introduced by Congressman Wayne Gilchrest, a 
tireless worker on behalf of the Chesapeake. We would like to thank the 
members of both bodies, from both parties, who recognize that restoring 
the nation's bays and sounds is of critical importance to the health of 
the nation's environment and economy. Others are testifying about S. 
835 today; let me just add my voice to urge you all to move swiftly to 
pass it.
    Finally, I would like to join my colleagues on this panel in urging 
you to support passage of a B.E.A.C.H. Bill in this Congress, as well 
as legislation that would strengthen the implementation of plans 
developed by estuaries as part of the National Estuary Program.
    The common thread through all the legislation before you today is 
clear. It has to do with the places we call home. The Chesapeake Bay is 
our home. Even if we live miles from its shore, it is part of what 
makes this whole region special. The Bay is our lifeline. It nourishes 
our environment, strengthens our economy, enhances our leisure time, 
protects our children's futures. We need to care for the Bay and invest 
today in its health and very survival. We need to do the same in all of 
the nation's estuaries and coastal areas. I urge you to help us by 
passing the important legislation before you today. Thank you for 
holding this hearing on these important issues, and for providing me 
the opportunity to speak to you today.
                                 ______
                                 
    Responses by Michael Hirshfield to Questions From Senator Chafee
    Question 1a. The State of the Bay report gave the Bay a rating of 
27 out of 100 points for health, and your testimony indicated that a 
score of 70 out of 100 was achievable. At our current progress, how 
long will it take us to reach 70?
    Answer. At our current progress, we are not confident that we will 
ever reach a goal of 70. CBF believes we can only reach a level of 70 
if we dramatically change how we deal with pollution, habitat, and 
fisheries management issues in the Bay watershed. However, we believe 
that reaching a goal of 70 by 2050 is possible if we make the necessary 
changes.

    Question 1b. One of the important components of the Bay Program was 
the establishment of numerical goals to measure progress and 
improvement. Is the Program on track to meet those goals in the 
specified time frame?
    Answer. The most important goal-reducing nutrients by 40% by the 
year 2000-will not be met on schedule, although the Program will come 
close. However, this is only an interim goal, and is not the amount 
necessary to truly restore the Bay.

    Question 2a. One of the most serious threats to the Bay is the 
change in land use. Between 1985 and 1997, the Chesapeake Basin lost 
263, 000 acres of forests and wetlands while urban and suburban land 
increased by 413, 000 acres. In addition, the number of vehicle miles 
traveled was four times the rate of population growth, indicating that 
people are moving farther away from the cities. In the face of 
population growth and expansion, will the measures contemplated by the 
Bay program result in an environmental improvement in Bay conditions, 
or simply lessen the impact of population growth and expansion?
    Answer. The measures currently contemplated by the Bay Program will 
ultimately only slow the rate of decline in the face of population 
growth unless major changes are made.

    Question 2b. What additional measures does the Chesapeake Bay 
Foundation suggest the Bay Program implement to further improve Bay 
restoration and protection efforts?
    Answer. The Chesapeake Bay Foundation is in the process of 
developing a plan of action for the year 2010 that we believe would 
take the Bay to a value of roughly 50% by that date. We believe that, 
if the actions recommended in this plan are taken, the framework will 
be set in place for restoring the Bay to 70 by mid century. We will be 
happy to provide the committee with a copy of this action plan when it 
is finalized.
                               __________
      Statement of Len Bahr, Executive Assistant To The Governor, 
                           State of Louisiana
    On behalf of Governor Mike Foster and the State of Louisiana I 
would like to express our thanks to the Committee and the Chairman for 
inviting us to appear today to share our thoughts on several matters of 
vital interest to the State of Louisiana and the Nation. My name is Len 
Bahr and I am Executive Assistant to the Governor. Governor Foster 
could not be here today and he has asked me to appear in his stead.
    The first matter I would like to address today is of paramount 
importance to us and that is the reauthorization of a truly landmark 
piece of legislation, the Coastal Wetlands Planning, Protection, and 
Restoration Act, or the Breaux Act, as we call it in Louisiana.
    To understand the importance of the Breaux Act and its 
reauthorization, it is vital to understand the problem it was intended 
to address and that was the calamitous loss of coastal wetlands and 
barrier shorelines that are so vital to our national interest. The 
Breaux Act recognized two indisputable facts. First that these lands 
are essential to our ecological, cultural, and economic well being, and 
second, that regulatory and education programs alone are not sufficient 
to ensure their sustainability. In short, it recognized that an active 
coastal restoration campaign was essential. We strongly agree. 
Louisiana has 25 percent of the nation's coastal wetlands, 40 percent 
of its salt marshes, and has experienced 80 percent of this nation's 
coastal wetland loss.
    The Breaux Act benefits all coastal States but I will focus my 
comments on its role in the survival and stewardship of the lower 
Mississippi River Delta Complex and the Chenier Plain. This includes 
all of coastal Louisiana south of Interstate 10.
    Prior to the passage of the Breaux Act in 1990, coastal Louisiana 
was in a state of collapse. Worse, there was no realistic prospect of 
saving it. The legacy of decades of leveeing, dredging, and draining--
often incident to Federal policies and programs--was a coast in which 
the hydrology had been so altered that land was disappearing at a rate 
of nearly 40 square miles per year.
    In 1989 the State of Louisiana took the unprecedented step of 
creating a multi-agency coastal wetlands restoration authority within 
the Governor's office and creating a dedicated trust fund to support 
its work. But the complexity and enormity of the challenge demanded a 
true national effort--State and Federal--if the tide of land loss was 
to be stemmed.
    With the enactment of the Breaux Act all of that changed. This Act 
forged a working partnership, not only between the State and the 
Federal Government, but also among Federal agencies that had a long 
history of working at cross purposes. In its 9-year history, the Breaux 
Act has been responsible for unprecedented partnering, comprehensive 
planning--most notably the recently completed Coast 2050 Plan--and the 
development and implementation of a generation of restoration and 
protection projects that have significantly reduced the rate of land 
loss.
    This view is borne out by the following facts:
    (1) During the first 8 years following enactment of the Breaux Act, 
the Federal/State restoration task force has approved about 85 
projects. Approximately 60 percent of these projects have been 
completed or are under construction. The remainder of approved projects 
are in various stages of planning and design. These projects are 
expected to result in a 15 percent reduction in coastal land loss over 
the next 20 years.
    (2) The Breaux Act has created a working partnership between and 
among five Federal agencies, the State of Louisiana, local governments, 
landowners, business, and interest groups.
    (3) It has garnered an extraordinary level of public support, as 
shown by the passage of two constitutional amendments facilitating 
coastal restoration.
    (4) It has spurred the development and dissemination of scientific 
and technical information about the nature of the land loss problem and 
its potential solution.
    (5) It is responsible for the development of ``Coast 2050,'' a 
blueprint for recreating a sustainable coast in 50 years that has had 
extraordinary success at achieving consensus at Federal, State and 
local levels. A copy of the executive summary of this plan has been 
submitted for the record.
    (6) It has spawned a recently completed major feasibility study of 
restoring the system of barrier shorelines along the most threatened 
part of our coast.
    (7) The Breaux Act plans and partnership have been the bases for 
the State of Louisiana's recent commitment of significant additional 
funds to the restoration effort, to ensure the State's ability to be a 
true and effective partner with the Federal Government.
    (8) This partnership has produced benefits that go far beyond 
simply developing coastal restoration projects. It has, for example, 
increased the effectiveness of all agency regulatory and resource 
management programs by focusing the agencies on a common set of goals 
and objectives for the coastal area.
    (9) Our initial small-scale river diversion projects are proving to 
be especially effective. We are currently awaiting the completion of a 
major feasibility study of diverting flow from the Mississippi River at 
a number of different sites into coastal marshes that are desperately 
in need of nourishment.
    This history of success warrants extension. But as impressive as is 
its history, the true measure of the Breaux Act is much more than a 
list of milestones. The Breaux Act is best measured by the hope it has 
given and the foundation it has created. The Breaux Act has provided a 
true sense of collective responsibility for the stewardship of a vital 
national treasure. It is the foundation upon which all future work will 
build. It has worked well but it has much more work to do. The State of 
Louisiana and Governor Foster strongly urge you to allow this work to 
continue. It is vital to us ally Simply put, there is no substitute for 
reauthorizing this seminal piece of legislation.
    In addition to the reauthorization of the Breaux Act, we would like 
to urge your support of the Estuary Habitat Restoration Partnership 
Act. This bill would authorize a program that would complement the 
Breaux Act and the National Estuary Program. It would authorize a 
nonregulatory competitive grant program that would broaden the 
partnering circle to include local governments, land owners and 
interest groups, as well as focusing on estuarine habitats of all 
types--wetlands, submerged grass beds, reefs and others. It is well 
conceived, implementable, cost effective and much needed.
    Again, we thank you for inviting us to share our experience with 
the Committee and we would be pleased to offer any further assistance 
as you consider these and other matters.
                                 ______
                                 
         Responses by Len Bahr to Questions from Senator Chafee
    Question 1. According to your testimony, the hydrology in Louisiana 
has been altered so much that land was disappearing at a rate of 40-
square miles per year. Under the Breaux Act, Louisiana has developed a 
conservation plan. The goal of the plan is no net wetlands loss. You 
also indicated that the 85 restoration projects approved under the 
Breaux Act should reduce coastal land loss by 15 percent over the next 
20 years.
    Answer. Since the turn of the century Louisiana has lost about 
1,500 square miles of prime coastal wetlands and, as shown in Coast 
2050, we are projected to lose approximately another 1,000 square miles 
within the next fifty years unless we take effective action. During the 
1960's the coast of Louisiana was disappearing at the rate of from 40- 
to 50-square miles per year but the rate has slowed to about 30 square 
miles per year, according to the most recent estimate (see answer 1b). 
This decline in the rate of loss is related to the fact that the most 
easily eroded land disappeared first. It also reflects a much more 
protective coastal management program, which has been particularly 
effective in reducing wetland losses from oil and gas production 
activities, both onshore and offshore in Federal waters.
    It is important to note that the conservation plan developed under 
the Breaux Act involves Louisiana's commitment to a condition of no-
net-loss of coastal wetland values due to permitted actions. In recent 
times, unavoidable permitted loss of Louisiana coastal wetland area has 
closely tracked changes in oil and gas production activity. This loss 
in wetland area declined significantly from 1986 to 1995, and currently 
averages about 400 acres lost per year, mostly the impact of large 
pipelines recently constructed across the coast from offshore 
production facilities on the outer continental shelf. This permitted 
loss of 400 acres per year (0.6 square mile), is only one fiftieth of 
the 30 square miles of annual losses from ``natural'' causes, such as 
subsidence and increasing salinity. In addition, under the Conservation 
Plan, this unavoidable loss of coastal wetland area is currently being 
mitigated one-for-one in terms of its wetland value.

    Question 1a. What type of land is being lost?
    Answer. The landforms that are being lost consist primarily of low 
lying coastal wetlands but also include ridges, natural levees of 
former river distributaries and barrier islands and shorelines. The 
wetlands include swamp forest, freshwater marsh, brackish marsh and 
salt marsh, with all the values and functions documented for prime 
wetlands, including critical habitat and nursery zones for fish and 
wildlife. Most of these wetlands stay wet year 'round and would never 
be described as developable. In addition to their habitat value, these 
disappearing landforms serve as the vital first line of defense against 
hurricane surges for people and infrastructure.

    Question 1b. What is the current rate of loss in coastal Louisiana? 
How much land do you expect to lose over the next 20 years?
    Answer. The most recent calculations carried out under the auspices 
of the Breaux Act and reported in Coast 2050 indicate that coastal 
landforms in Louisiana are currently being lost at an average rate of 
about 30 square miles per year. In the absence of offsetting action, 
this rate would be expected to continue for the next 20 years, 
resulting in a projected loss of another 500 square miles by the year 
2020.

    Question 1c. What kind of resources would you need to actually 
begin gaining land?
    Answer. The Coast 2050 plan, the executive summary of which was 
distributed to the Committee, includes an estimated ``price tag'' of 
$14 billion to be expended over the next thirty years. Although this 
number is imprecise, it reflects the best current estimate of the cost 
of approaching an overall no-net-loss of coastal wetlands situation, 
which would be sustainable into the future.

    Question 2. Under the Breaux Act, funding for wetlands restoration 
projects is divided among 3 different programs: the Louisiana Wetlands 
Program, the Coastal Wetlands Restoration Grants and the North American 
Wetlands Program. The funding is allocated so that 70 percent goes to 
Louisiana, 15 percent goes to the Coastal Wetlands Restoration Grants 
and 15 percent goes to the North American Wetlands Programs. In 1998, 
Louisiana received $44 million for wetlands restoration projects.

    Question 2a. Why should Louisiana receive such a large share of 
Federal wetlands funding?
    Answer. Of all the coastal wetlands in the lower forty-eight 
States, 40 percent are located in south Louisiana. Unfortunately, 80 
percent of the loss of the Nation's coastal wetlands is occurring 
within Louisiana. This problem is clearly national in scope. For 
example: (1) about 90 percent of the fisheries harvested in the entire 
Gulf of Mexico spend part of their life cycle in Louisiana estuaries; 
(2) the major waterfowl migration flyways of North America depend on 
Louisiana's coastal marshes; (3) about 90 percent of the oil and gas 
produced in the Gulf of Mexico flows through coastal Louisiana--and as 
the coast retreats the pipelines and transfer equipment become 
increasingly at risk of rupture with devastating spills reminiscent of 
the Exxon Valdes incident; (4) Louisiana's ports, which lead the Nation 
in tonnage shipped (450 million tons per year), are also at risk from a 
deteriorating coast; and (5) a unique culture, $100 billion worth of 
infrastructure and the entire city of New Orleans are becoming 
increasingly vulnerable to hurricane damage--and subject to Federal 
disaster claims.

    Question 2b. How much funding has the State of Louisiana 
contributed to wetlands restoration programs over the last 9 years?
    Answer. As shown in the following table, Louisiana has invested 
$193.6 million directly for coastal restoration (wetlands and barrier 
shorelines) during the past decade,\1\ compared to about $319.1 million 
in Federal dollars ($232 million from the Breaux Act and $87.1 from the 
Water Resources Development Act). This means that our State has so far 
invested 38 percent of the total contribution to coastal restoration in 
Louisiana. The State contribution is especially noteworthy when one 
considers that Louisiana is not a wealthy State. Our average annual 
State investment of $19.4 million represents what could be called a 
significant ``citizens' fiscal burden,'' over a tenth of a percent of 
our relatively modest total State budget of about $14 billion. This 
provides solid evidence of the State's willingness to do our fair share 
to reverse a problem that is partly the result of Federal initiatives.
---------------------------------------------------------------------------
    \1\ Data shown are for the past 10 years, rather than the 9 years 
since the Breaux Act was signed into law by President Bush. This 
represents the entire life of Louisiana's dedicated coastal restoration 
fund since 1989, when the State adopted its own coastal restoration 
program.
---------------------------------------------------------------------------
    These itemized direct costs for coastal restoration in Louisiana 
during the past decade do not reflect the very high indirect costs to 
the State from increased flooding from the Gulf of Mexico due to 
coastal deterioration. Typical examples totaling over $28 million 
within the past 2 years include: (1) $5 million spent to repair State 
highways 1 and 308, critical north-south hurricane evacuation routes; 
(2) $5.9 million spent to raise State highway 47 in Chalmette; (3) $7.5 
million earmarked to raise State highway 90 between Raceland and des 
Allemands, which submerges during strong south winds; (it should be 
noted that both highway raising projects were necessitated by the loss 
of buffer marshes, resulting in higher storm surges); (4) $3-$4 million 
is allocated to shore up State highway 82, the last bulwark on a 
retreating shoreline at Holly Beach; and (5) $6.3 million has been 
spent for critical projects at Grand Isle, the only inhabited barrier 
island in Louisiana and the site of one of our very few public beaches.

               Financing Coastal Restoration in Louisiana
                  [July 1, 1989 through June 30, 1999]
------------------------------------------------------------------------
                                                             [Dollars in
                                                              millions]
------------------------------------------------------------------------
State Financial Contribution to Coastal Restoration:

Total Louisiana Coastal Wetlands Restoration Fund Income           203.4
 (July 1, 1989 through present; funded from oil and gas
 severance taxes and fees).................................
Minus Projected Balance at 6/30/99.........................         -9.8
  Total State Investment From July 1, 1989 through June 30,        193.6
   1999....................................................

Federal Financial Contribution to Coastal Restoration:

Breaux Act Priority Projects (Lists 1-7)...................        232.0
Caernarvon Freshwater Diversion Project (WRDA).............          8.4
Davis pond Freshwater Diversion Project (WRDA).............         78.7

  Total Federal Investment.................................        319.1
------------------------------------------------------------------------

    <bullet> Attached is the fund status report from the State 
Treasurer. The sum of the 3 numbers underlined, $203.4 million, 
represents the total income to the Louisiana Coastal Wetland 
Restoration Fund during this period. The amount of $9.8 million is the 
balance in the fund on June 30, 1999.
    <bullet> Also attached is the project summary report by priority 
project list prepared by the Corps of Engineers. The amount of $232.0 
million represents the Federal construction funds available for Breaux 
Act priority project lists 1 through 7.
    <bullet> The amount of Federal support for the Caernarvon 
Freshwater Diversion Project (WRDA), $8.4 million, is that portion of 
the project paid for from the Louisiana Coastal Wetlands Restoration 
Fund during the period of this analysis.
    <bullet> The amount of Federal support for the Davis Pond 
Freshwater Diversion Project (WRDA), $78.7 million, is predicated on a 
total project cost of $105 million.
    <bullet> In summary, the State of Louisiana has contributed $193.6 
million of the $512.7 million total direct costs of coastal 
restoration, or 38 percent of the 10 year investment in coastal 
restoration.

                                                                   Coastal Wetlands Planning, Protection and Restoration Act
                                                                            [Project Summary Report by Priority List]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                    Federal      Non/Fed.
                                                                 No. of               CSA     Under     Const.   construction  construction    Baseline     Current    Obligations  Expenditures
                              P/L                               projects   Acres   executed   const.  completed      Funds         funds       estimate     estimate     to date       to date
                                                                                                                   available     available
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
1.............................................................        14   19,249        13        2         14   $28,084,900    $8,491,653  $39,933,317  $47,397,140  $22,351,369   $19,124,014
2.............................................................        15   13,373        15        1         10    28,173,110    10,019,903   40,644,134   56,819,161   34,438,410    38,033,515
3.............................................................        13   12,937        13        3          7    29,939,100     8,258,759   35,050,606   47,556,243   28,994,233    21,407,051
4.............................................................         8    2,387         7        2          1    29,957,533     2,663,379   13,924,366   17,870,123    9,847,867     2,219,950
5.............................................................         9    5,063         7        1          2    33,371,625     4,719,891   60,962,963   47,188,907   22,740,609     5,719,271
6.............................................................        11   10,538         7        3          0    39,134,000     5,631,169   54,614,991   56,257,068   14,025,982       774,172
7.............................................................         4    1,855         3        1          0    42,540,715     2,111,048   21,090,051   21,245,982    3,367,075        35,952
8.............................................................         6    2,324         0        0          0    41,864,079     3,541,176   16,435,508   16,435,508    1,561,725        10,447
                                                               ---------------------------------------------------------------------------------------------------------------------------------
Active projects...............................................        80   67,726        65       13         31   273,065,062    45,436,978  282,655,936  310,770,132  137,327,269    87,324,373
Deauthorized projects.........................................        11      312         5        0          2  ............  ............   21,789,087      552,848    1,033,216       920,240
                                                               ---------------------------------------------------------------------------------------------------------------------------------
  Total projects..............................................        91   68,038        70       13         33   273,065,062    45,436,978  304,445,023  311,322,980  138,360,486    88,244,618
Conservation plan.............................................         1        0         1        0          1  ............  ............      238,871      238,871      179,153       143,855
                                                               ---------------------------------------------------------------------------------------------------------------------------------
  Total construction program..................................        92   68,038        71       13         34   273,065,062    45,436,978  304,683,894  311,561,851  138,539,639    88,388,468
                                                                          .......  ........  .......  .........        318,50  ............  ...........  ...........  ...........  ............
                                                                                                                        2,040
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                                                              Wetlands Conservation Fund
                                                                       [049-00071]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                       Total fiscal                        Accumulated
          For Fiscal Years                Deposits        Interest       Donations        Other        year revenue     Expenditures         balance
--------------------------------------------------------------------------------------------------------------------------------------------------------
FY89-90:............................     5,000,000.00      165,187.00  ............  ..............     5,165,187.00  ................      5,165,187.00
FY90-91:
  Initial...........................     5,000,000.00      744,304.00      4,000.00  ..............  ...............  ................  ................
  90-91.............................    10,000,000.00  ..............  ............  ..............    15,737,304.00      8,244,083.84     12,658,407.16
FY91-92:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
  90-91.............................    20,000,000.00  ..............  ............  ..............  ...............  ................  ................
  91-92.............................    10,000,000.00    1,399,382.00    163,250.00       66,386.55    36,629,018.55     11,388,183.09  ................
  Per Year Exp Adj..................  ...............  ..............  ............  ..............  ...............          (423.64)     37,899,666.26
FY92-93:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
91-92...............................    10,000,000.00  ..............  ............  ..............  ...............  ................  ................
  92-93.............................    10,000,000.00    1,399,726.00     61,520.00      184,891.00    26,586,137.00      8,905,605.68  ................
  Per Year Exp Adj..................  ...............  ..............  ............  ..............  ...............       (52,571.83)     55,632,769.41
FY93-94:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
  92-93.............................    10,000,000.00  ..............  ............  ..............  ...............  ................  ................
  93-94.............................    10,000,000.00    1,763,680.00     20,251.46        1,009.62    26,784,941.08     18,439,551.36  ................
  Per Year Exp Adj..................  ...............  ..............  ............  ..............  ...............      (110,177.07)     64,088,336.20
FY94-95:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
  93-94.............................    10,000,000.00  ..............  ............  ..............  ...............  ................  ................
  94-95.............................  ...............    3,597,149.00    100,216.58       17,264.34    18,714,629.92     10,903,482.52  ................
  Per Year Rev Adj..................  ...............  ..............  ............      190,483.24       190,483.24  ................     72,089,966.84
FY95-96:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
  94-95.............................             0.00  ..............  ............  ..............  ...............  ................  ................
  95-96.............................  ...............    3,739,561.00     12,318.85       15,956.13     8,767,835.98     16,106,489.61  ................
  Per Year Adj......................  ...............  ..............  ............      230,032.85       230,032.85  ................     64,981,346.06
FY96-97:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
  95-96.............................    10,000,000.00  ..............  ............  ..............  ...............  ................  ................
  96-97.............................  ...............    3,744,752.00    104,785.28       11,773.47  ...............  ................  ................
  Tran from SGF Act 11..............  ...............  ..............  ............    7,800,000.00    26,661,310.75     13,074,944.57  ................
  Per Year Adj......................  ...............  ..............  ............      954,720.32       954,720.32  ................     79,522,432.56
FY97-98:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
  96-97.............................    20,000,000.00  ..............  ............  ..............  ...............  ................  ................
  97-98.............................  ...............    5,062,754.21    873,113.08       12,921.18    30,948,788.47     32,199,794.50     88,020,804.33
  Per Year Adj......................  ...............  ..............  ............    9,749,377.80     9,749,377.80  ................  ................
FY98-99:
  Initial...........................     5,000,000.00  ..............  ............  ..............  ...............  ................  ................
  97-98.............................  ...............  ..............  ............  ..............  ...............  ................  ................
  98-99.............................  ...............    4,141,257.00    744,167.88        9,594.80     9,895,019.68     16,580,174.40     81,928,096.70
  Per Year Adj......................  ...............  ..............  ............      592,447.09       592,447.09  ................  ................
    Total--Inception to date........   170,000,000.00   25,686,752.21  2,083,623.13   19,836,858.39   217,607,233.73    135,679,137.03     81,928,096.70
Deposits............................  ...............  ..............  ............  ..............  ...............    170,000,000.00  ................
Less expenditures...................  ...............  ..............  ............  ..............  ...............  (135,679,137.03)  ................
Encumbrances........................  ...............  ..............  ............  ..............  ...............                ??  ................
Net mineral revenue.................  ...............  ..............  ............  ..............  ...............     34,320,862.97  ................
Adjusted Fund Balance...............  ...............  ..............  ............  ..............  ...............  ................     81,928,096.70
--------------------------------------------------------------------------------------------------------------------------------------------------------

                               __________
 Statement of Sally Yozell, Deputy Assistant Secretary for Oceans and 
      Atmosphere, National Oceanic and Atmospheric Administration
                              introduction
    Mr. Chairman, thank you for this opportunity to submit a statement 
for the record on S. 835, your Coastal Estuary Habitat Restoration 
Partnership Act of 1999, and S. 1119, to continue funding of the 
Coastal Wetlands Planning, Protection, and Restoration Act.
                  noaa and estuary habitat restoration
    I appreciate the Committee's leadership in focusing on the needs to 
protect of the Nation's estuarine and coastal resources. Estuaries are 
an important part of our Nation's economic and environmental well-
being. These special coastal places provide habitat for many important 
species, act as nature's water treatment system, provide flood control 
and protection against storm damage, and are wonderful recreational 
areas. Estuaries and coastal wetlands also provide essential habitat 
for 80-90 percent of the recreational fish catch and 75 percent of the 
commercial harvest. Despite their importance, these natural systems are 
in trouble. Estuaries are suffering from water quality problems, 
declining habitat quality, and, in some areas, total habit loss. We 
desperately need to restore these areas to help replace habitat that 
fish, marine mammals and endangered species need to survive.
National Estuarine Research Reserves
    Realizing the importance of our Nation's estuaries, Congress 
established the National Estuarine Research Reserve System in 1972 to 
improve the health of estuaries and coastal habitats. This Federal/
State partnership has proven successful at managing some of our 
Nation's most pristine estuaries.
    Today, there are 24 Reserves, with a 25th to be designated later 
this year in Florida and two more will be added in 2000, one in 
California, the other in upstate New York. Reserves are operated by 20 
States and one territory, stretching along the East Coast from Wells, 
Maine, to Jobos Bay in Puerto Rico, and along the West Coast to the 
Tijuana River in California to Kachemak Bay, Alaska. Through the work 
of expert staff, monitoring and education programs, and onsite labs, 
NOAA has developed an innovative partnership with the coastal States 
that has resulted in improved management of nearly one million acres of 
estuarine waters and lands.
    Earlier this year, the President announced his $1 billion Lands 
Legacy Initiative to expand Federal efforts to save America's natural 
treasures. The initiative includes a $14.7 million increase to improve 
the Reserve System. This increase would enhance the protection of 
critical estuaries by providing funds to States and communities for the 
acquisition of lands in and around the existing Reserves. Funds will 
also be used to improve management capabilities and upgrade facilities 
at these sites.
    Although the Reserves represent some of the Nation's most valuable 
and least disturbed estuaries, restoration in both the Reserves System 
and estuaries around the Nation is essential in order to protect these 
biologically diverse resources. To date many of the Reserves, have 
undertaken innovative restoration science projects. For example, the 
Chesapeake Bay Reserve in Maryland is working to address erosion and 
habitat loss. Areas of the Chesapeake Bay region are severely eroding 
due to the impacts of sea level rise. In an effort to deter erosion the 
Reserve is currently evaluating Maryland's policies concerning the 
removal of invasive marsh grasses, a traditional restoration practice. 
Research has shown that these grasses may prevent erosion. The Reserve 
will conduct a workshop and the resulting recommendations may be used 
to evaluate and revise current State policies relating to salt marsh 
grass management in certain regions around the Chesapeake Bay.
    In addition, the South Slough Reserve near Coos Bay, Oregon, has 
conducted restoration activities at two sites that were experiencing 
significant subsidence and erosion. By redistributing organic material 
over the surface of the marsh, the Reserve was able to re-establish the 
sites' original elevations, tidal flushing, and tidal and freshwater 
channels utilized by salmon and other fish populations. Indicators of 
healthy marsh ecosystems, such as water quality, abundance of marsh 
grasses and fish species, and sedimentation and erosion rates were 
monitored at all the restored sites. Experimental plots are being 
designed to examine different techniques for developing habitat for 
salmon and other fish.
    To further improve our Nation's estuaries, NOAA and the University 
of New Hampshire established the Cooperative Institute for Coastal and 
Estuarine Environmental Technology (CICEET). CICEET serves as a 
national center for the development and application of innovative 
technology to restore and improve estuaries and provides NOAA with a 
mechanism to work with State and local communities as well as academia. 
CICEET uses the Reserves as living laboratories and is currently 
supporting several projects that apply innovative technologies to 
coastal habitat restoration.
Fishery Habitat Restoration
    The President's Lands Legacy Initiative also includes $22.7 million 
in new money for Fishery Habitat Restoration. This important initiative 
is designed to increase the restoration of marine and fish habitat, 
including estuary restoration. NOAA has experience in both small and 
largescale restoration at the community level through our Community 
Based Restoration Program and at the regional level. The Fishery 
Habitat Restoration initiative represents both small and large scales 
of restoration implementation with Federal Agencies working with 
States, local governments, private organizations and landowners to 
accomplish voluntary restoration of our nation's valuable marine 
habitats. NOAA urges any legislative initiative to recognize the 
benefits of both large and small scale restoration and strongly points 
to the need for full partnership with local communities, State and 
Federal Governments and other stakeholders.
Restoring Estuaries Through Trusteeship
    As a primary trustee for coastal and marine resources, NOAA is 
responsible for protecting and restoring trust resources injured by 
releases of oil or other hazardous substances. Under the Comprehensive 
Environmental Response, Compensation and Liability Act (Superfund), the 
Oil Pollution Act, and the Clean Water Act, NOAA has recovered funds 
from responsible parties for restoring damaged estuaries.
    NOAA works at hazardous waste sites with the Environmental 
Protection Agency (EPA) under Superfund and with other lead cleanup 
agencies to develop remedies that protect coastal resources, and 
support habitats and human health. NOAA's Coastal Resource Coordination 
program works at approximately 260 hazardous waste sites a year, about 
75 percent of which affect estuaries. Several on-going protection and 
restoration efforts in estuarine environments include the Tulalip 
Landfill in Puget Sound in Washington, the Army Creek site in the 
Delaware Estuary, the Bailey Waste Landfill in Texas, and the Conoco 
site in the Calcasieu Estuary in Louisiana.
    NOAA's Damage Assessment and Restoration Program (DARP) restores 
coastal and marine resources injured by releases of oil and other 
hazardous materials. Since its inception, DARP and its partners have 
generated more than $230 million for the restoration of coastal 
resources from those responsible for the damage. NOAA's unique 
interdisciplinary approach to natural resource damage assessment and 
restoration was shaped by more than 10 years of assessing injured 
coastal and marine resources, including those affected by the Exxon 
Valdez oil spill in March 1989.
    DARP is currently working on a number of natural resource damage 
assessments in estuarine environments, including the Calcasieu Estuary, 
Commencement Bay in Washington, Narragansett Bay in Rhode Island, and 
Lavaca Bay in Texas. Funds recovered through the damage assessment 
process are used to restore injured coastal and marine resources. Most 
of these restoration projects are completed in our Nation's estuaries 
through cooperation with both Federal and State resource agencies. This 
experience has reiterated the importance of partnerships and the 
absolute need to document restoration success for the benefit of 
further restoration efforts.
    These natural resource trustee activities ensure that coastal 
resources are protected and restored following releases of oil and 
other hazardous materials, resulting in more productive and diverse 
estuarine habitat for fish and wildlife, cleaner waters, and healthier 
ecosystems.
Coastal Wetlands Planning, Protection and Restoration Act
    Another program, the Coastal Wetlands Planning, Protection and 
Restoration Act (CWPPRA) Program provides critical funding and support 
for the restoration, protection, conservation and enhancement of 
threatened wetlands in the Louisiana coastal zone. NOAA and other 
participating Federal and State agencies have the opportunity to plan 
and implement large scale coastal wetlands restoration projects that 
are significant on a local and national level. Forging partnerships 
with State agencies such as the Louisiana Department of Natural 
Resources and local parish governments has proven critical to the 
success of restoration projects and has resulted in the award of 
funding for 17 restoration projects totaling over $65 million designed 
to address the rapid loss of Louisiana's wetlands. CWPPRA provides the 
hope of sustaining a resource that is important to the economic, 
recreational and cultural base of the State and region.
    As required by CWPPRA, the U. S. Army Corps of Engineers 
established a Task Force composed of EPA, the Department of Commerce, 
the Department of the Interior, the Department of Agriculture, and the 
State of Louisiana. The Task Force annually prepares and submits to 
Congress a project priority list of wetland restoration projects in 
Louisiana. The site selection process is based on the proposed 
project's technical (scientific) merit, cost effectiveness, and 
predicted wetland quantity and quality. The Task Force was responsible 
for the preparation of a comprehensive coastal Restoration Plan for the 
State of Louisiana which was completed at the end of 1993. The Plan 
provides much of the basis for selecting future restoration projects.
    Each CWPPRA project requires the sponsorship of a Federal agency 
Task Force member for implementation. the Act uses a trust fund, which 
is supported by revenues from tax receipts on small engines and other 
equipment. Of the amount appropriated from this fund, 70 percent (an 
amount not to exceed $70 million annually) is available for wetland 
restoration projects and associated activities in Louisiana. While some 
70 percent of the funds available under CWPPRA are dedicated to 
restoring Louisiana wetlands, it is important to note that project 
selection is still based on merit criteria. CWPPRA mandates a cost-
share of 85 percent Federal funds to 15 percent State funds for all 
Louisiana projects. To provide a special incentive for comprehensive 
planning, CWPPRA permits a lower cost for the State after the Task 
force approves a coastal plan for restoration. The State complies with 
this mandate by using the money in the State Coastal Restoration Trust 
Fund created in 1989.
    Our experience with CWPPRA has been excellent both in terms of its 
operational principles and resulting restoration success. Any new 
estuarine restoration legislation that emulates the planning, 
organizational and implementation of CWPPRA in the State of Louisiana 
would establish an excellent framework for duplicating the success of 
the CWPPRA in other coastal environments.
    In wetland restoration, is it is not necessarily the number of 
acres of habitat restored that indicates success. Rather, the true goal 
of any estuarine restoration program is to ensure the quality and long-
term viability of the restored estuary.
   s. 835 coastal estuary habitat restoration partnership act of 1999
    National estuary habitat restoration legislation represents an 
excellent opportunity to further progress in promoting estuarine 
habitat restoration. NOAA has much to add to a National Estuary habitat 
restoration program particularly in the areas of research and 
monitoring. NOAA supports a number of provisions found in S. 835, the 
Estuary Habitat Restoration Partnership Act of 1999.
    <bullet> Area Restoration Plans--NOAA supports the priority given 
to restoration in areas that have restoration plans currently in place. 
These plans, which identify restoration goals, sites and priorities 
within a region, need to be based on sound science; scientists would be 
able to determine which efforts will most benefit the ecosystem, and 
fit best within the socioeconomic trends of the area and concerns of 
its citizens.
    <bullet> Achieving the goal of Estuarine Health--NOAA also supports 
the priority given to estuarine areas and watersheds that already have 
strong and effective programs to manage point and nonpoint pollution 
sources and other activities that can significantly impact estuarine 
areas. These programs will help ensure the long-term success of the 
restoration activities.
    <bullet> Collaborative Decision-Making--NOAA supports a 
collaborative approach to decisionmaking for funding restoration 
projects as established by the Council, and believes the Council will 
improve cooperation among Federal agencies. NOAA strongly supports the 
provision of appointing a Council member to have lead responsibility 
for overseeing and assisting others in implementing restoration 
projects. This technique has been used under CWPPRA with a result of 
enhanced collaborative efforts and joint responsibility between Federal 
Agencies and the local project sponsors for restoration success. NOAA 
would like to request a clarification that Collaborative Council 
members can enter into Memoranda of Understanding (MOUs) with project 
applicants. NOAA believes it is very important that Federal agencies, 
not just the Collaborative Council, be able to enter into these MOUs.
    <bullet> Balanced Approach to Funding--Funding, as proposed in S. 
835, ensures an appropriate blend of restoration projects. NOAA would 
suggest, however, that the Great Lake States and the island territories 
and commonwealths (American Samoa, Commonwealth of Northern Marianas 
Islands, Guam, Puerto Rico, and the U.S. Virgin Islands) also be 
eligible for the grants as they have important estuarine habitats that 
need restoration.
    <bullet> Monitoring--NOAA also is pleased by the bill's strong 
commitment to monitoring the success of restoration projects. We need 
to ensure consistent and comparable monitoring at various sites to 
measure the success of the program as a whole. NOAA supports the 
development of standard data formats while allowing for site-specific 
flexibility. Such protocols should recommend a suitable long-term 
monitoring period that may extend for periods of 20 years or more.
    <bullet> Data Collection and Management--NOAA's experience in 
restoration science has repeatedly highlighted the need for detailed 
regional restoration planning and follow-up monitoring and data 
management. NOAA believes data management is an important aspect of any 
National Program and we are pleased to see its inclusion in S. 835.
    While NOAA is supportive of S. 835 overall, I would like to 
recommend some areas where the bill could be strengthened.
    <bullet> Research--Vital estuarine ecological research needs to be 
supported to promote adaptive management in the field. We recommend 
funding for innovative projects that combine restoration with research 
and development. Such projects promote the development of new, state-
of-the art restoration techniques and technologies. One mechanism to 
ensure that such projects are funded is the establishment of a set 
aside of funds for this purpose by the Council.
    <bullet> Regional advisory members for the Collaborative Council--
NOAA recommends that the Collaborative Council be expanded to include 
regional representatives of States and private organizations with a 
strong interest in estuaries restoration to help ensure that the 
projects selected will meet local priorities. These persons, one 
representing each region, would be advisory members of the 
Collaborative Council. NOAA has made the same recommendation with 
regard to H.R. 1775, the Estuary Habitat Restoration Partnership Act, 
and the involved Federal agencies are providing drafting assistance on 
this point. The agencies would like to offer the same assistance to the 
drafters of S. 835.
    <bullet> Consultation with State Coastal Zone Management programs--
Consultation with State Coastal Zone Management programs should be 
mandatory to ensure consistency with State CZM policies, especially 
during development of State or local restoration strategies and during 
reviews of locally or privately sponsored project proposals. 
Consultation with State CZM programs will result in a more streamlined 
process.
   s. 1119, coastal wetland planning, protection, and restoration act
    NOAA strongly supports the re-authorization of funding for CWPPRA, 
as stated in S. 1119, to continue the important estuarine restoration 
efforts described earlier in this testimony. Continued funding for this 
important program is needed if we are to slow down the coastal wetland 
losses in the highly productive Louisiana coastal zone.
                               conclusion
    In conclusion, NOAA has expertise and scientific capability to 
assist in making sound decisions about estuarine habitat restoration. 
The primary lesson we have learned from our restoration activities is 
the importance of partnerships, strong science and long-term monitoring 
to achieve successful estuarine restoration.
    S. 835 and S. 1119 provide a strong basis for coastal habitat 
restoration. NOAA's expertise in estuarine restoration implementation, 
science and monitoring can help achieve the goals of S. 835 as it is 
now achieving the goals of the CWPPRA program. We look forward to 
working with the Committee to improve this important legislation.
    I believe the Committee has taken an important step forward in 
addressing these important issues by holding this hearing today. I 
applaud the Committee's leadership and commitment to protecting our 
Nation's estuarine and coastal resources. We look forward to working 
with you to restore the Nation's estuaries.
                               __________
   Statement of Howard Marlowe, President, American Coastal Coalition
    American Coastal Coalition is delighted that the Senate Committee 
on Environment and Public Works is holding this hearing on H.R. 999, 
Beaches Environmental Awareness, Cleanup, and Health Act of 1999. This 
bill unanimously passed the House of Representatives two months ago. We 
are hopeful that it will be approved by this Committee and swiftly 
brought to the floor so that its benefits will be felt by the public no 
later than the beach season in 2000.
    Beaches are the top vacation destination for both Americans and 
foreign tourists. They are part of the nation's coastal infrastructure, 
which is visited each year by over 180 million people who enjoy its 
recreational opportunities. Coastal tourism is an economic engine that 
supports over 28 million jobs and leads to investments of over $50 
billion in goods and services. To a significant extent, this tourism 
would not exist were it not for the lure of America's coastal 
environment. Beaches, water, plants, and fish are a portion of that 
environmental infrastructure. To the extent that public confidence in 
that infrastructure declines, so does coastal tourism. They are 
directly linked.
    The American Coastal Coalition believes that many states and local 
government agencies have taken steps to monitor beach water quality. 
Their efforts deserve to be commended and supported so they are using 
the most current standards and testing equipment. Unfortunately, not 
all States monitor their coastal recreation waters to ensure compliance 
with water quality standards for pathogens.
    The BEACHES Bill (H.R. 999) requires States to incorporate water 
quality criteria for pathogens in coastal recreation waters into their 
water quality standards within 3\1/2\ years so that the State standards 
are consistent with the requirements of the Clean Water Act. States and 
local governments would be able to get grant money to develop and 
implement programs to monitor for pathogens in coastal recreation 
waters and to notify the public, local government officials, and EPA, 
of when those criteria are exceeded.
    We are, of course, deeply concerned about the numerous reports of 
beach closings due to water contamination. The American Coastal 
Coalition believes that congressional passage of H.R. 999 will help to 
reduce the number of these closings while also increasing public 
awareness of waters that may not be safe to enter.
    It is appropriate, however, that we make it clear to Congress and 
the public that better testing and monitoring alone will not solve the 
problem. As more and more people come to live and vacation along the 
coast, the local infrastructure required to handle the waste they 
create is being stretched beyond its capacity. Until there is more 
money available at the federal and state level to expand and modernize 
sewage systems, we will see a disturbing increase in beach closures. A 
July 16th report in the San Diego Union-Tribune that bacterial 
pollution closed county beaches 877 times in 1998, ``a huge jump over 
the 173 closures in 1997. This is an upward trend that will be repeated 
in many areas of the country until government at all levels makes the 
commitment to fund the necessary infrastructure and policies that will 
either reduce the quantity of pollutants that can harm the coastal 
environment or increase the capacity of treatment systems to handle 
these pollutants.
    The American Coastal Coalition is beginning to look into some sort 
of Coastal Water Trust Fund that will provide an assured level of 
federal funding for all aspects of beach management, including 
restoring eroded beaches and expanding local sewage treatment 
facilities. It will take some time to refine and gain support for this 
concept. In the meantime, H.R. 999 will produce benefits that are 
tangible. We urge this Committee to support it.
                               __________
           Statement of the Coastal States Organization, Inc.
    These comments are submitted for the hearing record on behalf of 
the Coastal States Organization (CSO), representing the collective 
interests of the coastal states, commonwealths and territories along 
the Atlantic, Pacific, Gulf coasts and Great Lakes in furthering and 
sustaining the use and protection of our nation's coastal resources.
    CSO's testimony focuses on Sen. Lautenberg's Beaches Environmental 
Assessment, Closure, and Health Act, S. 522; Rep. Bilbray's bathing 
water quality legislation, H.R. 999; the Estuary Habitat Restoration 
Partnership Act, S. 835; and Sen. Torricelli's bill to implement plans 
developed under the National Estuary Program, S. 878.
                 the beach bills (s. 522 and h.r. 999)
    States and communities already regularly monitor recreational 
waters to protect public health, and are aware of the location of many 
problem areas and some of the sources of those problems. However, 
monitoring efforts can and should be improved upon.
    There is a pressing need for timely and cost-effective sampling 
techniques, predictive models, effective monitoring strategies, trained 
personnel, and public education on the risks associated with bathing 
waters. The discovery of the association between neurological 
impairments in humans and outbreaks of Pfiesteria piscicida, which 
cannot be detected by ordinary water quality sampling, highlights the 
need to improve the science and methodology of water quality 
monitoring. Much is still unknown about the pathogens responsible for 
swimming related illnesses and the adequacy of current indicators of 
associated health risks.
    One of the basic problems with monitoring programs, which the 
research supported by this legislation will hopefully help solve, is 
the lack of real time information on water quality health risks. There 
is frequently a time lag between water quality sampling, testing and 
communicating health risks to the public. The delay between sampling 
and testing may be as much as 72 hours, during which time the quality 
of a water body can change dramatically. In fact, such changes can 
occur within minutes of taking a sample if a significant rainfall event 
occurs.
    S. 522 requires states to adopt water quality criteria consistent 
with federal water quality criteria for coastal recreational water 
quality, and for the Environmental Protection Agency (EPA) to adopt 
regulations for the monitoring of coastal recreational waters by 
states. The legislation should contain a clear directive to EPA to 
accommodate the variability in coastal waters and their use. The 
legislation should also provide states with flexibility in structuring 
monitoring.and notification programs. While the objective of the 
legislation is to obtain a consistent standard for protection, there is 
a need for flexibility in how that standard is obtained.
    The criteria and sampling requirements for a beach with a summer 
water temperature of 57 degrees in Maine, will not be appropriate for 
the tropical waters of the Florida Keys. The need for and means of 
monitoring waters along Maryland's crowded ocean beaches may not be the 
most appropriate for Maryland's sluggish tidal creeks. Variances in 
salinity, water temperature and flow rate may require the use of 
different indicators for pathogens and sampling techniques. Because 
water quality impairments are often associated with rainfall, regional 
differences in rainfall patterns should also be taken into account.
    States do not support uniform monitoring and notification 
requirements. Such requirements would not anticipate the great 
diversity in bathing waters among and within states, and would likely 
lead to requirements for monitoring in situations where there is little 
or any benefit to protecting public health. In establishing a national 
coastal recreation water quality monitoring program, Congress needs to 
make it clear to EPA that the program shall not require monitoring for 
the sake of monitoring. The purpose of the monitoring program is to 
protect human health, and the only monitoring that should be required 
is that known to be effective for that purpose. The effectiveness of 
state programs in protecting public health is the basis upon which they 
should be measured. How states achieve this objective will vary.
    In order to be effective, a monitoring program needs to be both 
practical and affordable. The legislation should emphasize EPA's role 
in minimizing, the costs associated with developing criteria and 
monitoring so that states and communities can afford to implement the 
programs. The objectives of the legislation need to be balanced with a 
recognition that states and communities do not and will not have the 
resources to monitor every entry point into coastal waters. H.R. 999 
recognizes that states must be allowed to prioritize areas for 
monitoring based on available resources and other factors. CSO supports 
these provisions. The geographic scope of application for monitoring 
requirements should be further limited to designated bathing areas 
beaches that are publicly owned and maintained.
    While H.R. 999 does not require EPA to specify monitoring and 
notification requirements by regulation, there is still not a clear 
delineation of who has the primary responsibility for the design of 
monitoring programs. This concern arises from the provision which 
requires EPA to develop ``performance criteria'' for assessing state 
monitoring and notification programs. The term is too vague to 
ascertain the degree of uniformity EPA will require of state programs 
for approval.
    The evaluation of the adequacy of state monitoring programs should 
be based on the likelihood of the state's program meeting the objective 
of protecting public health. CSO proposes that EPA's role be to 
facilitate the attainment of that objective with guidance on the means 
of attainment. State programs which have equivalent standards of 
protection should meet EPA approval regardless of their conformity with 
the EPA guidance.
    States should be able to satisfy the public notification objectives 
of the bills with whatever means are most practical. A uniform 
requirement to post signs to notify the public of current water quality 
conditions would be impractical in many situations. Acceptable means of 
notification should include permanent signs, 1-800 phone numbers, web 
sites, radio announcements, newspaper alerts and other means of 
notification through which members of the public can readily obtain the 
latest information available on water quality conditions.
    Rather than a strict open/closed rule for waters, Congress should 
allow the use grading systems for health risks, combined with public 
education campaigns to inform the public about the varying degrees of 
water quality. Risk can vary by age group and individual. We also note 
that, to a certain extent, risk is a matter of personal choice with 
some persons more willing to assume a certain level of risk than 
others.
    The bills require EPA to develop a database on bathing water 
quality. States should have a role in the design of the proposed EPA 
database on bathing water quality to assure that it is compatible with 
state systems and contains valid data, and does not result in 
misleading and contradictory information on local water quality 
conditions.
    If funded at or near the proposed authorization level of $30 
million annually, H.R. 999's proposed financial assistance to states 
could greatly further the progress being made by states in improving 
the monitoring of bathing waters but only if funding provided for this 
program is not at the expense of other environmental programs. With 
states already burdened with under-funded and unfunded mandates for 
water quality programs, there is concern that new programs will only 
increase the burden and diminish the allocation of resources among 
programs. Members are urged to give careful consideration to costs and 
likelihood of funding for new programs.
    The legislation should also include an authorization for a well-
funded technical assistance program to enable states to develop 
appropriate criteria, identify monitoring sites, develop predictive 
models and devise effective monitoring strategies.
    In discussing these bills, a final point needs to be emphasized, 
i.e., fixing the problem. Monitoring is only one element of an 
effective water quality program. It is both the first and last step in 
the loop of water quality assessment, improvement and protection. A 
great deal more effort and federal funding are needed to support state 
and local efforts to address the causes of coastal water pollution--
polluted runoff, storm water discharges, and combined sewer overflows.
        the estuary habitat restoration partnership act (s. 835)
    The comparatively narrow band which the coast comprises is home to 
53 percent of the Nation's population. It is not surprising, therefore, 
that the greatest historical losses and projected future pressure on 
sensitive coastal ecosystems are along our nation's coasts.
    In trying to restore resources, there is much still to learn as to 
what makes for successful restoration. We learn by doing and sharing. 
The effort to achieve environmental restoration goals needs to be 
collective, collaborative, cooperative and sustained.
    We commend Sen. Chafee for his efforts to develop a strategic 
approach to estuary habitat restoration. In addition to providing 
increased funding and technical support to implement coastal resource 
protection and restoration plans, the legislation before the Committee 
will foster greater coordination among federal agencies to achieve a 
more effective, and overall less expensive, strategic approach to 
resource protection and restoration.
    S. 835 would:
    <bullet> Establish a measurable objective of restoring one million 
acres of estuarine habitat by 2010. One million acres may seem like a 
lot, and it is; however, ambitious estuary habitat restoration plans 
are already underway. For example, the State of Maryland has 
established an objective of restoring 57,000 acres of submerged aquatic 
vegetation by the year 2005; 60,000 acres of wetlands; and 600 miles of 
stream buffers by 2010;
    <bullet> Bring together the Corps, EPA, NOAA, Fish & Wildlife 
Service to develop of a strategy for habitat restoration. We will not 
achieve our restoration objectives without a comprehensive and 
coordinated strategy for restoration projects;
    <bullet> Recognize the importance of the private sector and non-
governmental organizations in achieving restoration objectives. One of 
the most significant changes over the past 10 years in coastal 
environmental protection and restoration is the increased involvement 
and financial commitment of non-governmental organizations and the 
private sector in designing and implementing restoration projects; and
    <bullet> Establish a program to monitor and report on the 
effectiveness of restoration projects. There is still much to be 
learned about how to do restoration. The restoration strategy needs to 
be regularly reviewed and revised to take into account feedback on the 
success of projects, new information of species and ecosystems, and new 
techniques and methodologies for restoration.
    We suggest that the objectives of S. 835 and project eligibility be 
expanded and funding increased to include the Great Lakes and Insular 
Territories which are also part of the ecological complex many 
estuarine species rely on at some point during their life cycle. In 
addition, we suggest that the Committee take a look at H.R. 1775 which 
has been introduced in the House by Rep. Wayne Gilchrest. H.R. 1775 
provides states with an active voice on the federal interagency Estuary 
Habitat Restoration Council in the development of the national 
strategy. H.R. 1775 would also establish regional restoration councils 
comprised of states to maximize the coordination between State and 
Federal activities. To the extent possible, project priorities should 
be selected at the state and regional level.
    The task of restoring habitat is not as simple as just putting 
things back to the way they were before. Remember the movie ``Field of 
Dreams'' and the voice from nowhere which spoke to Kevin Costner saying 
``If you build it, they will come.'' While habitat restoration 
projects-may be building fields of dreams, just reconstructing a 
landscape will not ensure that ``they,'' i.e., fish and wildlife, will 
come. Habitats are livhlg communities where species are as dependent on 
each other as they are on the physical attributes of the site. Putting 
the pieces back together requires a longterm commitment, including 
monitoring and maintenance. With the need for long-term commitments to 
habitat restoration projects, the key to success of restoration is 
local citizen involvement and support. Despite our best intentions, we 
are not going to achieve our restoration objectives without a concerted 
and strategic effort by states, communities, the federal agencies and 
private citizens.
                     moving the nep forward--s. 878
    CSO supports the objectives of the Torricelli bill, S. 878, to 
provide funding to implement plans developed to restore and protect 
water quality and habitat in estuaries within the National Estuary 
Program (NEP). The lack of a Federal commitment to the implementation 
of these nationally significant estuaries is a substantial shortcoming 
of the program.
    One of the greatest strengths of the National Estuary Program is 
that it brings together a broad range of stakeholders to develop 
comprehensive plans. Most of those plans have been completed. These 
plans usually contain hundreds of action items at the state and local 
level. While parts of the plans are being implemented, many actions 
remain to be undertaken. For example, while many funding commitments 
have been secured to implement many of the Action items in the 
Comprehensive Conservation Management Plan (CCMP) recently submitted 
for Maryland's Coastal Bays NEP, there is still $1.1 million in unmet 
needs for the coming year and approximately $5.2 million is needed for 
the balance of its 15-year implementation plan. The shortfall in 
implementation funding is also a problem at the other 27 NEP sites. 
Federal assistance for implementation will be necessary if the 
investment in the NEP is to mature to fruition and to fully realize the 
benefits of protecting and restoring our nation's most significant 
estuaries.
                               conclusion
    CSO thanks the Committee for its attention to coastal issues and 
consideration of the views of the states. CSO will work with the 
Committee to address the concerns raised in our testimony to ensure 
that the intent of the legislation is fulfilled by the most practical 
and effective achievable means.
                                 ______
                                 
                           U.S. Department of the Interior,
                               Washington, DC., September 28, 1999.
Hon. John H. Chafee, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: The Department of the Interior supports S. 835, 
the Estuary Habitat Restoration Partnership Act of 1999 and recognizes 
its importance in restoring our Nation's critical estuarine habitats. 
We do have a suggestion to further strengthen the legislation. We 
request that the Committee enter this letter into the official hearing 
record. An identical letter has been sent to the Honorable Max Baucus, 
Ranking Member.
    Estuaries are the site of some of the most ecologically and 
economically important habitats in the United States. The U.S. Fish and 
Wildlife Service has long recognized their value and maintains at least 
178 National Wildlife Refuges in coastal areas. Estuaries host an 
extensive variety of migratory songbirds, fishery resources, threatened 
and endangered species, and wintering waterfowl. Even so, these 
essential habitats and the ecosystems they represent are being severely 
threatened by habitat alteration, eutrophication, toxic contamination, 
declines in fish habitat, sea level rise, and invasive species.
    The grants program created by S. 835 will complement many of the 
Service's current programs. The Service's Coastal Program works to 
conserve healthy coastal habitats for the benefit of fish, wildlife, 
and people. It does this by forming cooperative partnerships to protect 
and restore coastal habitats and providing technical and financial 
assistance to Federal and State agencies, local and tribal governments, 
businesses, private landowners, and conservation organizations, such as 
local land trusts and watershed councils. The Service's Coastal Program 
has worked since 1991 to develop a solid network of partnerships with 
local organizations in 11 priority watersheds throughout the Nation. 
These connections, combined with program expertise in priority habitat 
identification and coastal restoration techniques, facilitate the 
efficient transfer of funds to on-the-ground projects with tangible 
results.
    Over the past 5 years, the Service's Coastal Program partnerships 
have protected over 97,000 acres through conservation easements, 
reopened 1,955 miles of coastal streams for anadromous fish passage, 
restored 28,700 acres of coastal wetlands, restored 15,852 acres of 
coastal upland habitat, and restored 235 miles of riparian coastal 
habitat. The Estuary Habitat Restoration Partnership Act of 1999 and 
the Service's Coastal Program are sure to augment one another and 
further their mutual goals of estuary restoration and protection.
    The Service also administers two grants programs pursuant to the 
Coastal Wetlands Planning, Protection, and Restoration Act of 1990: the 
National Coastal Wetlands Conservation Grant Program for coastal State 
agencies, and the Coastal Grants portion of the North American Wetlands 
Conservation Fund, established by the North American Wetlands 
Conservation Act (NAWCA).
    Under the National Coastal Wetlands Conservation Grant Program, the 
Service provides matching grants to State conservation agencies for 
acquisition, restoration, management and enhancement of coastal 
wetlands. Currently, close to $10 million in grants are awarded 
annually through a nationwide competitive process. To date, $62.6 
million in funding has been awarded to 24 coastal States and one U.S. 
Territory, and more than 87,000 acres of coastal wetlands have, or will 
be acquired, protected, or restored.
    Under the NAWCA, the coastal grant portion of the Fund is provided 
to support projects in coastal States but can be awarded to any person, 
organization, or agency providing a 1:1 match and fulfilling both the 
criteria of NAWCA and its nine-member Council. These funds are closely 
linked to fulfilling the purposes of the North American Waterfowl 
Management Plan, which is served by 10 Joint Venture partnerships 
located in critical habitat regions throughout the country. We 
encourage you to recognize the opportunity that exists for the council 
established under S. 835 to work with the Joint Ventures and the NAWCA 
Council on estuary restoration projects. NAWCA is an excellent model 
for a partnership-driven approach to a Federal grants program. In 
fiscal year 1999, $10 million in grants were awarded through the 
competitive grants program for coastal and estuary restoration 
projects. Since its inception in 1990, the program has awarded over $65 
million in funding in 26 coastal States and the U.S. Virgin Islands, 
representing over 308,000 acres of protected or restored habitat.
    The Service believes that the legislation would be strengthened if 
it included State and regional representation in an advisory capacity 
on the council to ensure that a bottom-up approach to estuary 
restoration is achieved.
    The Service would like to thank the co-sponsors of S. 835, the 
Estuary Habitat Restoration Partnership Act of 1999, for their vision 
and leadership in introducing this important legislation, and the full 
Committee for having an informative hearing on the bill. We look 
forward to working with you and your staff to enact legislation to 
restore our Nation's estuaries this year.
    The Office of Management and Budget advises that there is no 
objection to the presentation of this report from the standpoint of the 
Administration's program.
            Sincer
               Assistant Secretary for Fish and Wildlife and Parks.

                                  <all>

</pre></body></html>
